<html>
<title> - AMERICAN LAND SOVEREIGNTY PROTECTION ACT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 
                AMERICAN LAND SOVEREIGNTY PROTECTION ACT

=======================================================================

                                HEARINGS

                               before the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                                   on

                                H.R. 883

TO PRESERVE THE SOVEREIGNTY OF THE UNITED STATES OVER PUBLIC LANDS AND 
   ACQUIRED LANDS OWNED BY THE UNITED STATES, AND TO PRESERVE STATE 
     SOVEREIGNTY AND PRIVATE PROPERTY RIGHTS IN NON-FEDERAL LANDS 
  SURROUNDING THOSE PUBLIC LANDS AND ACQUIRED LANDS. ``AMERICAN LAND 
                      SOVEREIGNTY PROTECTION ACT''

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

    MARCH 18, 1999, WASHINGTON, DC AND MAY 1, 1999, ROLLA, MISSOURI

                               __________

                           Serial No. 106-16

                               __________

           Printed for the use of the Committee on Resources




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources

                    U.S. GOVERNMENT PRINTING OFFICE
56-427 <l-ar/r-ar>          WASHINGTON : 1999





                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director





                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held March 18, 1999......................................     1

Statement of Witnesses:
    Kimble, Melinda L., Acting Assistant Secretary for Oceans and 
      International Environmental and Scientific Affairs, U.S. 
      Department of State, Washington, DC........................     7
        Prepared statement of....................................    49
    Kirkpatrick, Hon. Jeane J., American Enterprise Institute, 
      Washington, DC.............................................     5
        Prepared statement of....................................    48
        Additional material submitted by.........................    67
    Lindsey, Stephen G., Elgin, Arizona..........................    27
        Prepared statement of....................................    58
    MacLeod, Laurel, Director of Legislation and Public Policy, 
      Concerned Women for America, Washington, DC................    34
        Prepared statement of....................................   118
    Rabkin, Jeremy A., Associate Professor, Department of 
      Government, Cornell University, Ithaca, New York...........    11
        Prepared statement of....................................    72
        Additional material submitted by.........................   102
        Letters from Ms. Raidl, Mr. Arnett, Mr. Carruthers, Mr. 
          Milne, Mr. Clarke, and Mr. Leshy.......................    90
        Train, Russell E., World Wildlife Fund, Washington, DC, 
          additional material submitted by.......................   113
        von Droste, Bernd, Director, World Heritage Center, 
          additional material submitted by.......................   116
    Rovig, David B., President, Greystar Resources Ltd., 
      Billings, Montana..........................................    29
        Prepared statement of....................................    61
    Smith, Ann Webster, Chairman Emeritus, U.S. Committee of the 
      International Council on Monuments and Sites, Washington, 
      DC.........................................................    31
        Prepared statement of....................................    63
    Yeager, Brooks B., Deputy Assistant Secretary for Policy and 
      International Affairs, U.S. Department of the Interior, 
      Washington, DC.............................................     8
        Prepared statement of....................................    53

Additional material supplied:
    Biodiversity Treaty, People for the USA......................    47
    Briefing Paper, The American Land Sovereignty Protection Act.   346
    Convention Concerning the Protection of the World Cultural 
      and Natural Heritage, Message from The President of the 
      United States..............................................    76
    Frampton, Hon. George T., Jr., United Nations Educational, 
      Scientific and Cultural Organization, additional material 
      submitted by...............................................   115

Hearing held May 1, 1999.........................................   127

Statement of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................   127
        Prepared statement of....................................   129
    Emerson, Hon. Joann, additional material submitted by........   210

Statement of Witnesses:
    Alford, Scott................................................   344
    Barnes, Carl, Missouri Forest Products Association and People 
      for the USA, Potosi, Missouri..............................   327
        Prepared statement of....................................   329
    Benton, Wanda, Salem, Missouri...............................   130
        Prepared statement of....................................   133
    Bright, David................................................   341
    Burks, Connie, Jasper, Arkansas..............................   146
        Prepared statement of....................................   149
        Additional material submitted by.........................   363
    Cooke, Joe...................................................   339
        Prepared statement of....................................   339
    Denham, Mary, Director and State Coordinator, Take Back 
      Arkansas, Fayetteville, Arkansas...........................   223
        Prepared statement of....................................   225
        Additional material submitted by.........................   382
    Floyd, Frank.................................................   343
    Hardecke, Ron, Citizens for Private Property Rights, 
      Owensville, Missouri.......................................   193
        Prepared statement of....................................   196
    Hicks, Ray...................................................   342
    Jud, Bill....................................................   340
    Kreisler, Leon, Missouri Farm Bureau, Salem, Missouri........   324
        Prepared statement of....................................   325
    Lovett, Dale, Pulp and Paperworkers' Resource Council, 
      Wickliffe, Kentucky........................................   296
        Prepared statement of....................................   299
    Meyers, Frank, Forester and Secretary, Potosi Chapter, People 
      for the USA................................................   289
        Prepared statement of....................................   290
    Powell, John, Frank B. Powell Lumber Company, Rolla, Missouri   214
        Prepared statement of....................................   215
    Skiles, Darrell, Missouri Cattlemen's Association, Salem, 
      Missouri...................................................   307
        Prepared statement of....................................   309
    Simpson, Bobby, Dent County Commissioner, Salem, Missouri....   177
        Prepared statement of....................................   180
    Yancey, Richard J., President, Viburnum Chapter, People for 
      the USA, Black, Missouri...................................   216
        Prepared statement of....................................   218
    Welch, Marge.................................................   341
    Williams, Junior.............................................   344

Additional material supplied:
    Sierra Club, Letter dated April 27,..........................   361
    Text of H.R. 883.............................................   349


 HEARING ON H.R. 883, TO PRESERVE THE SOVEREIGNTY OF THE UNITED STATES 
OVER PUBLIC LANDS AND ACQUIRED LANDS OWNED BY THE UNITED STATES, AND TO 
 PRESERVE STATE SOVEREIGNTY AND PRIVATE PROPERTY RIGHTS IN NON-FEDERAL 
  LANDS SURROUNDING THOSE PUBLIC LANDS AND ACQUIRED LANDS. ``AMERICAN 
                   LAND SOVEREIGNTY PROTECTION ACT''

                              ----------                              


                        THURSDAY, MARCH 18, 1999

                          House of Representatives,
                                    Committee on Resources,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 2:02 p.m., in room 
1324, Longworth House Office Building, Hon. Helen Chenoweth 
[acting chairman of the Committee] presiding.
    Mrs. Chenoweth. The Committee will please come to order.
    I want to welcome our witnesses, this very distinguished 
panel. We have two panels of very distinguished witnesses and 
we are all looking forward to hearing from these witnesses.
    Today we hear testimony on H.R. 883, which gives the 
Congress a role in approving international land designations, 
primarily United Nations' World Heritage Sites and Biosphere 
Reserves. H.R. 883 now has more than 145 cosponsors.
    So that everyone understands, my concern is that the United 
States Congress, and therefore the people of the United States, 
have been left out of the domestic process to designate 
Biosphere Reserves and World Heritage Sites. H.R. 883 makes the 
Congress and the people of this country relevant in this 
process.
    The Biosphere Reserve program is not even authorized by a 
single U.S. law or even an international treaty, and that is 
wrong. Executive branch appointees cannot, and should not, do 
things that the law does not authorize. In fact, both Biosphere 
Reserves and World Heritage Sites programs are administered 
through the United Nations Educational, Scientific, and 
Cultural Organization, commonly referred to as UNESCO. However, 
the United States withdrew from UNESCO in 1984 because the 
Reagan Administration found it riddled with gross financial 
mismanagement. Fifteen years later, even the Clinton 
Administration has not rejoined UNESCO. As a result, it defies 
the imagination as to why our government is still participating 
in these UNESCO programs.
    We, as the Congress, have a responsibility to ensure that 
the representatives of the people are engaged on these 
important international land designations. Now I do not think 
that Article IV, Section 3 of the Constitution advises that in 
governing our lands that we simply opt out of policies that may 
appear ineffectual. But instead, it expressly requires that we, 
the Congress, make all needful rules and regulations regarding 
land, as if to suggest that we are to jealously guard against 
the slightest possibility that foreign entities have any power 
over what belongs under the strict purview of the United States 
of America.
    Yet, these international land designations have been 
created with virtually no congressional oversight, no hearings, 
and no congressional authority. The public and the local 
governments are rarely consulted. Until now, no one has lifted 
an eyebrow to examine how the U.S. domestic implementation of 
these programs has eaten away at the power and the sovereignty 
of the Congress to exercise its Constitutional power to make 
the laws that govern what goes on in the public lands.
    Today, we will begin to look at these very issues. We 
intend to move this legislation from the Committee to the House 
floor for a vote very soon.
    With that, it is time to begin. I once again want to 
welcome all of our witnesses who will testify today. I would 
like to introduce our first panel. First, we have the Honorable 
Jeane Kirkpatrick, former Ambassador to the United Nations, 
she's now with the American Enterprise Institute in Washington, 
DC; joining her is Ms. Melinda Kimble, Acting Assistant 
Secretary of State for Oceans and International Environmental 
and Scientific Affairs, located here in Washington; Mr. Brooks 
Yeager, Deputy Assistant Secretary for Policy and International 
Affairs, U.S. Department of the Interior, Washington; and Dr. 
Jeremy Rabkin, Associate Professor, Department of Government, 
Cornell University, Ithaca, New York.
    Mr. Vento. Madam Chair, I have an opening statement.
    Mrs. Chenoweth. Mr. Vento, I apologize. We would like to 
hear from the Minority.
    Mr. Vento. Mr. Chairman, this is not new legislation. The 
Congress first considered it in 1996 and 1997. In both 
instances the other body, the Senate refused to consider the 
measure on the floor and the Administration indicated it would 
veto the measure if passed.
    This measure is misguided because it aims at the symbols of 
Federal policy when what the supporters are legislatively 
really opposing is the underlying policy itself. While some of 
my colleagues and I might like to see us doing even more, this 
country has set a national policy goal of the long-term 
preservation of environmental resources. The commitment this 
Nation has made to the preservation, conservation, restoration 
policies of land sometimes demand that certain activities which 
threaten these resources be prohibited and/or tightly limited. 
The reality of the situation is that no U.N. commando team will 
penetrate U.S. borders to seize control of our most precious 
parks, all in the name of conservation. Besides, many are 
promising today that we will soon have a crack missile defense 
system to thwart any and all attempts to seize the sovereignty 
of our great Nation out from under our control.
    Any and all land use restrictions in place are a function 
of U.S. law, not an international treaty or protocol. Our 
participation in the World Heritage Convention, the RAMSAR 
Convention, the Man and the Biosphere Program, as an example, 
are emblematic of an underlying policy and a symbolic value and 
importance the U.S. places on its natural resources, our 
natural legacy. These international cooperative agreements are 
an extension of our own domestic policy. They do not dictate 
it; they flow from such policy and law. These sites we have 
nominated under the World Heritage Convention are listed 
because Congress chose to enact policy and law to protect them 
and establish special land managers to regulate and enforce 
such law.
    To address a specific example that gave rise to this bill, 
the problem with the New World Mine was that it was, in fact, 
too close to Yellowstone National Park, not that it was too 
close to a World Heritage Site. If we want to debate the basic 
principles in environmental protection, that's fine. But we 
should not waste our time passing legislation that seeks to 
abolish the programs that grew out of these basic tenets.
    We have evolved over 200 years an American land-use ethic 
in case law. This is particularly true because the decision to 
abandon these programs has consequences. And let's be clear, 
the goal of this measure is to abandon these programs, not 
simply to regulate them. To require Congress to act for each 
and every parcel of land to be considered is to effectively 
stop all future nominations and designations.
    The legislation sends a signal around the world that our 
Nation, the United States of America, which forged the policy 
path to institute these various treaties and protocols, is 
undercutting the values and benefits of international 
recognition for important cultural or environmental sites. It 
sends a signal that the United States is undercutting and 
abandoning values for ecosystem research coordinated through 
the U.S. Man and the Biosphere Program.
    At the same time, when the United States is thrust into a 
role of dominant power and in the central role as a world 
leader in so many areas, why would we voluntarily abdicate 
perhaps the most important leadership position we occupy, that 
of a leader in an effort to make this life on this planet 
sustainable? This would convey to the hundreds, in fact, a 
hundred and sixty-some nations who are members of the World 
Heritage Convention Program, it would convey to these nations 
who are participants of the conservation treaties and protocols 
that special interest, domestic political and parochial 
considerations come first in the United States. If the United 
States cannot even permit recognition to be accorded, why 
should the other nations bother to participate?
    Finally, it is particularly troubling that we are pursuing 
this misdirected and misguided policy based on gross 
misinformation. Each agreement covered by this bill states on 
its face that it contains no provision that affects in any way 
the authority or ability of participating nations to control 
the lands within its borders. These programs give the U.N. no 
more control over land of this country than the awarding of 
Gold Medals gives the U.S. Olympic Committee control over an 
American athlete. To claim that these international programs 
somehow infringe on the sovereignty of this Nation is simply 
factually inaccurate.
    This is not all that is inconsistent about H.R. 883. While 
this legislation is similar to the measure introduced last 
Congress, it differs from the version that passed the House in 
one important respect. During floor debate, 242 of our Members 
of Congress supported an amendment that I offered which would 
require specific congressional authorization for any 
international agreement seeking to make U.S. land available for 
commercial use as well. A majority of our colleagues felt that 
if you're going to reassert our role in governing the use of 
these lands for conservation purposes, we should be consistent 
and reassert congressional oversight of international 
agreements which cover commercial exploit of uses of U.S. lands 
as well.
    How can we stand by and let important conservation programs 
be thrown by the wayside for superfluous reasons and then 
permit foreign companies to haul away precious and valuable 
resources rightfully owned by the American taxpayers who 
receive practically nothing in return? The House clearly 
asserted that sentiment last Congress and most certainly would 
hopefully do the same in this Congress.
    Mr. Chairman, programs like this are good programs. They do 
not flow from the U.N. The argument is pervasive only to those 
who have creative and overactive imaginations. Rather, these 
programs are being targeted because they do play a role in 
highlighting instances where we, as Congress and as a Nation, 
fall short in meeting the very goals and values that the U.S. 
espouses and that these international agreements represent.
    Madam Chairman, this is an issue of takings, not of private 
property but of stripping international recognition from the 
esteem and from the United States citizens of the world. The 
reaction to this symbolic program of conversation is ironic 
when, in fact, we look to the next century. The United States 
should be joining with the family of nations leading the 
advancement of knowledge and working to implement such know-how 
into a host of environmental agreements, some with teeth and 
enforcement mechanisms, because of the health, the welfare, and 
to benefit Spaceship Earth and the people.
    Thank you.
    Mrs. Chenoweth. Thank you, Mr. Vento.
    The Chair recognizes the real Chairman, Mr. Young. Do you 
have an opening statement, sir?
    Mr. Young. I beg to differ with the good Chairperson, she 
is the Chairman today. And I do thank you for participating in 
this; I have a series of hearings.
    I am very pleased to see the panel is here and look forward 
to their testimony, and we look forward to the passage of this 
legislation again, as we did last year.
    I thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Chairman.
    Under Rule 4(g), we like to limit time for our witnesses to 
five minutes. And also I do want to state that if any other 
members have any opening statements, under unanimous consent, 
they will be entered into the record.
    Mr. Vento. Madam Chair, a point of inquiry. I don't have 
the testimony from the distinguished former Ambassador, Ms. 
Kirkpatrick, nor the disclosure statement. Is there some reason 
for that? Doesn't the Rules of the House provide at least for 
the disclosure statement and the advanced copies of this 
testimony?
    Mrs. Chenoweth. Mr. Vento, the testimony came in a little 
bit late. But we would be happy to provide as soon as we can 
copies of the information.
    Mr. Vento. Do I have it? I am not aware of it being in my 
portfolio and I am asking about it.
    Mrs. Chenoweth. It is noted for the record.
    So without any other questions, we will proceed with our 
first witness. Mrs. Kirkpatrick, we look forward to hearing 
from you.

  STATEMENT OF HON. JEANE J. KIRKPATRICK, AMERICAN ENTERPRISE 
                   INSTITUTE, WASHINGTON, DC

    Ms. Kirkpatrick. Thank you very much, and I thank you for 
inviting me. I am pleased to be here to make some general 
remarks based principally on my experience in the United 
Nations and reading and reflection on it since.
    What I would like to do is make some general comments 
concerning the practices, the patterns of the U.N. organization 
and some of their impacts on the operation of programs. 
Specifically, I would quote Paul Johnson, who has said that the 
1970s could perhaps be termed as the ``Decade of 
collectivism,'' particularly for the United Nations, because 
there was a great explosion of collectivist initiatives in the 
1970s, nowhere as much as the United Nations where a whole 
series of new orders and conventions were adopted and 
undertaken, including the 1972 Convention on the Protection of 
World Cultural and Natural Heritage, but also the 1974 new 
international economic order, and a half dozen other 
initiatives in the 1970s establishing global organizations in a 
U.N. framework to undertake some new activity which had never 
been undertaken before, not just by the United Nations but, in 
most cases, by anyone.
    And the thrust of these conventions was regulatory, for the 
most part, and it was in most cases an effort to establish a 
louder voice on the part of larger numbers of countries in the 
establishment of policies in a very wide range of spheres. A 
characteristic of the new organizations was the practice of 
making decisions on the basis of what in the United Nations is 
considered the General Assembly Principle, which is the basis 
of one country, one vote. The governing body of most of these 
organizations is chosen ultimately in a U.N. arena which 
permits the decision-making on the basis of one country, one 
vote. The problem with the one country, one vote principle is, 
of course, that the United States' vote counts exactly as much 
as St. Christopher, Nevis, or Barbados, or Germany equally with 
Guinea, or Britain with the Bahamas, or whomever. When 
decisions are made on the basis of one country, one vote, there 
is very little account taken of interest in the decision or 
technological competence or capacity to, in fact, implement 
decisions made.
    The Convention Concerning the Protection of World Cultural 
and Natural Heritage provides such a pattern of decision-
making. Those decisions are made by delegates to the World 
Heritage Committee and the Biosphere Program International 
Coordinating Council. They choose the International 
Coordinating Council which is chosen by a UNESCO assembly which 
itself operates on the basis of one country, one vote.
    I might in parenthesis simply say that I was representing 
the United States in the United Nation and the U.S. 
representation in the U.N. during the period that the decision 
was made to withdraw U.S. participation in UNESCO. I would like 
to say just a word about this. It was a decision that was made 
not easily and not rapidly. It was proposed early in the Reagan 
Administration and a commitment was solicited from my cabinet 
colleagues by me, I might say, and received that they would not 
withhold U.S. support from UNESCO or membership in UNESCO until 
and unless we had made our very best effort at reform of the 
really egregious abuses which characterized the UNESCO 
governance system. And for more than two years, three years the 
Reagan Administration, in cooperation with all parts of the 
U.S. Government, made an effort to correct some of the fraud, 
waste, and mismanagement which virtually everyone who looked at 
the problem agreed existed.
    Having failed, we decided reluctantly that it was really 
necessary to withhold U.S. participation and withdraw U.S. 
membership from UNESCO. And I would reiterate what the Chairman 
has pointed to; that is, no subsequent Administration has 
deemed it desirable to rejoin UNESCO. It is a poorly managed 
organization. Most of its decisions and most of its domains are 
made on the basis of one country, one vote and there is a very 
great deal of fraud and mismanagement. I think some improvement 
has been made but not dramatic. The World Heritage Sites and 
designations are no different than many other aspects of 
UNESCO; namely, they are not managed in a way that provides for 
systematic representation of countries involved.
    I would just like to mention one more general point 
concerning U.N. operations. All U.N. decisions are made either 
on the basis of some special selection of countries because of 
interest or competence or on the basis of one country, one 
vote. The General Assembly is, of course, one country, one 
vote, and the Security Council provides for weighting of votes. 
The Convention Concerning Protection of World Cultural and 
Natural Heritage provides simply for decisions ultimately on 
the basis of one country, one vote, in which no special 
attention is paid or account taken of the investments, or the 
concerns, or the effects on Americans of any particular 
decision by the World Heritage Sites.
    I personally have been disturbed by the fact that there is 
no voice for elected officials, no voice for the American 
people in these processes. And I believe personally that the 
United States should not participate in U.N. activities, 
whether it be the Law of the Sea, or the Chemical Weapons 
Conventions, or World Cultural and Natural Heritage Programs, 
where decisions are made on the basis of one country, one vote, 
where our great involvement is not matched by some commensurate 
voice in decisions affecting our properties and our interests.
    Thank you.
    [The prepared statement of Ms. Kirkpatrick may be found at 
the end of the hearing.]
    Mrs. Chenoweth. Thank you very much, Mrs. Kirkpatrick. I 
will have to say that I am sure that all of my colleagues up 
here and thousands of people wish that we could just sit down 
and talk to you by the hour and listen and learn from you. It 
is a great honor to have you here at the Committee.
    And now the Chair recognizes Ms. Melinda Kimble for her 
testimony.

STATEMENT OF MELINDA L. KIMBLE, ACTING ASSISTANT SECRETARY FOR 
OCEANS AND INTERNATIONAL ENVIRONMENTAL AND SCIENTIFIC AFFAIRS, 
            U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ms. Kimble. Thank you, Madam Chairman. Madam Chairman and 
members of the Committee, I welcome this opportunity to comment 
on H.R. 883, and I respectfully request that the full text of 
my written statement be included in the record.
    Mrs. Chenoweth. Without objection.
    Ms. Kimble. H.R. 883 directly affects implementation of the 
World Heritage Convention, the U.S. Man and the Biosphere 
Program, and the RAMSAR Convention on Wetlands. These 
conventions and initiatives have been long-standing components 
of the United States' international and environmental 
diplomacy.
    The United States agrees that the public and the Congress 
should participate in an open, transparent, and participatory 
nomination process for World Heritage Sites, Biosphere 
Reserves, and RAMSAR sites. The Administration believes, 
however, that this legislation goes too far in addressing 
concerns about the implementation of these long-standing 
international agreements and programs.
    This bill would take what is currently a bottom-up 
grassroots approach and impose a cumbersome top-down approval 
process. The United States was the principal architect of the 
World Heritage Convention and the first country to ratify it. 
This convention respects the sovereignty of countries on whose 
territory World Heritage Sites are located. It makes clear that 
the responsibility for identifying and delineating such sites 
rests with the national governments that are party to the 
convention.
    The Man and the Biosphere Program, or MAB, is a voluntary 
and cooperative science program which promotes the study of the 
interaction of Earth's human and natural systems. In Kentucky's 
biosphere reserve at Mammoth Cave National Park, local 
authorities work together to protect the area's water quality. 
In the Everglades biosphere reserve, policy-makers and 
scientists have produced strategies for restoring this vast 
ecosystem while preserving the area's social and economic 
structures.
    Nominations for the U.S. biosphere reserves are prepared by 
locally established committees interested in pursuing the 
designation. They obtain letters of concurrence from local and 
State government representatives and landowner approval for all 
included properties.
    H.R. 883 appears to be based on a belief that the World 
Heritage Convention and the U.S. Man and the Biosphere Program 
threaten U.S. sovereignty, mandate land-use regimes, and 
restrict the rights of private property owners. Rather, the 
main purpose of both is to recognize sites of exceptional 
ecological, scientific, or cultural importance. Neither 
regulates the management of these sites or affects the land-use 
rights of the country in which they may be located.
    We also have concerns about Section 5 of H.R. 883, which 
restricts international agreements generally with respect to 
the nomination or designation of Federal lands for conservation 
purposes. This section could hamper the ability of local 
communities to gain recognition of a specific wetland site in 
their area as a Wetland of International Importance under the 
RAMSAR Convention on Wetlands. Such a listing affects neither 
the management regime for these areas nor resource use within 
them.
    This convention exists because of a global concern over the 
loss of wetlands and the migratory birds that depend on these 
habitats. At the local level, RAMSAR designations promote 
greater public awareness of wetland values and the need to 
protect them. The network of RAMSAR sites in Canada, the United 
States, and Mexico provide safe breeding and wintering grounds 
for waterfowl. These birds, in turn, generate significant 
economic activity in the United States through hunting, tourism 
to these sites, and bird-watching.
    We believe that U.S. participation in the World Heritage 
Convention, U.S. Man and the Biosphere Program, and the RAMSAR 
Convention on Wetlands serves important national interests and 
helps link national and international initiatives with local 
stakeholders. U.S. leadership and influence in these 
conventions and programs encourages other nations to similarly 
value and care for significant sites in their countries.
    The Department of State opposes H.R. 883. If it were to 
pass, the Secretary of State would recommend a veto. 
Recognition of a U.S. site as a World Heritage Site, a 
Biosphere Reserve, or a RAMSAR site in no way undermines our 
sovereignty. Such recognition also does not impose additional 
Federal land-use restrictions over such areas or adjacent 
areas. We believe this legislation runs counter to the U.S. 
role in supporting both local and global environmental 
cooperation and could greatly impede the nomination of new 
sites under these conventions and programs.
    This concludes my statement, Madam Chairman.
    [The prepared statement of Ms. Kimble may be found at the 
end of the hearing.]
    Mrs. Chenoweth. Thank you, Ms. Kimble.
    The Chair now recognizes Mr. Brooks Yeager for his 
testimony.

 STATEMENT OF BROOKS B. YEAGER, DEPUTY ASSISTANT SECRETARY FOR 
   POLICY AND INTERNATIONAL AFFAIRS, U.S. DEPARTMENT OF THE 
                    INTERIOR, WASHINGTON, DC

    Mr. Yeager. Thank you, Madam Chairman. If I may be allowed 
to summarize my statement and have the full statement included 
for the written record of the Committee.
    Mrs. Chenoweth. Without objection.
    Mr. Yeager. Before I start, I would like to say on a 
personal note how genuinely glad I am to see Representatives 
Tom and Mark Udall in this room which Mark's father and Tom's 
uncle for so long was a wonderful chairman of this Committee. 
So, it is really a great pleasure.
    Madam Chairman and members of the Committee, thank you for 
the opportunity to appear before you today to present the views 
of the Department of the Interior on H.R. 883, the American 
Land Sovereignty Protection Act. The chief effect of this 
legislation in our view, Madam Chairman, would be to place 
cumbersome and unwise restrictions on U.S. participation in the 
World Heritage Convention and other international conservation 
agreements.
    Ironically, these agreements in many cases were the product 
of U.S. world conservation leadership and have been supported 
by Presidents of both parties going back to President Nixon. 
Through them, the United States has been successful in engaging 
many other nations in the world effort to establish and protect 
national parks and to better conserve unique and important 
natural and cultural resources.
    The restrictions on participation and the burdensome 
requirements of H.R. 883 appear to be a response to worries 
that these agreements in some way diminish U.S. sovereignty 
over our own parks and refuges and public lands. But in our 
view, nothing could be further from the truth. Because the 
restrictions of H.R. 883 are unnecessary, and would unwisely 
weaken the worldwide conservation leadership and influence that 
the United States has earned, we must strongly oppose the bill. 
If this legislation were to pass, the Secretary of the Interior 
would join the Secretary of State in recommending a veto.
    Madam Chairman, with your permission, I would like to 
introduce some documents for the Committee record. The 
documents show the long, 30 year history of enthusiastic and 
nonpartisan support for these agreements, particularly for the 
World Heritage Convention. They also show an equally long 
bipartisan consensus that U.S. involvement in World Heritage 
and other such international conservation conventions poses no 
threat to U.S. sovereignty.
    In particular, I would like to start, Madam Chairman, with 
the message from the President of the United States on November 
23, 1972, introducing the World Heritage Conservation 
Convention to Congress, in which President Nixon said ``The 
Convention places basic reliance on the resources and efforts 
of the States within whose territory these natural and cultural 
sites are located, but, at the same time, would provide a means 
of assisting States which have insufficient resources or 
expertise in the protection of areas for the benefit of all 
mankind.''
    In particular, in the letter of submittal from the 
Secretary of State at the time, it notes that the U.S. actually 
moved to strengthen drafts of the convention during the 
negotiations during the early 1970s to have a convention that 
would match the U.S. desire at the time for world conservation 
to move forward with U.S. leadership and influence.
    The second document I would like to introduce for the 
record, Madam Chairman, is a letter from Secretary of Interior 
William Clark, dated April 1984, to Secretary of State George 
Schultz, and this addresses the point that was raised by 
Ambassador Kirkpatrick about our disassociation at the time 
from UNESCO. In fact, we did disassociate from UNESCO and I 
have no basis to second-guess Ambassador Kirkpatrick's judgment 
as to why that was and believe that's the case. But at the same 
time, it was the considered policy of the Reagan Administration 
at the time to retain our affiliation with the World Heritage 
Convention.
    In fact, this letter speaks exactly to that point. It says 
the Convention is identified as a clear U.S. initiative, the 
concept having first been raised in President Nixon's 1971 
environmental message. ``This country's close identification 
with the program was emphasized by our having deposited the 
first instrument of ratification and by six years of Executive 
leadership through U.S. membership on and chairmanship of the 
World Heritage Committee.'' The rest of the letter goes on to 
explain why, despite the fact that we had disassociated from 
UNESCO, we should stay in the World Heritage Convention.
    The third letter that I would like to introduce is also 
from the Reagan Administration. It is a letter from Ray Arnet 
when he was director of the Fish and Wildlife Service, in which 
Mr. Arnet explains why it is important in the context of the 
World Heritage Convention for the World Heritage Committee to 
have some responsibilities to oversee the integrity of World 
Heritage Sites. It explains clearly that it is U.S. policy that 
once a site is nominated that there should be an effort to try 
to retain the values for which the site was nominated.
    I have a press release from Secretary Hodel when he was 
Secretary, also during the Reagan Administration, indicating 
how proud the department was at the time that the Statue of 
Liberty could be recognized as a World Heritage Site so that 
that would be the official recognition that ``she is the most 
widely recognized symbol of freedom and hope around the 
world.''
    Mr. Vento. I ask that these letters be made part of the 
record, Madam Chairman.
    Mrs. Chenoweth. Without objection, so ordered. But he is 
not through yet.
    Mr. Yeager. Right. Thank you, Madam Chairman. I have two 
other documents, one from the Governor of New Mexico Gary 
Carruthers explaining why he is very happy that the Taos Pueblo 
was nominated for a World Heritage Site, and one from our 
Solicitor John Leshy explaining why, in very clear terms, he 
believes that there is absolutely no infringement on U.S. 
sovereignty in the course of the designation or administration 
of World Heritage Sites in the United States.
    I guess reading those documents took me a little more time 
than I thought it would. My time is almost up. I would just 
like to say, Madam Chairman, I think there has been a very long 
history of nonpartisan support for these conventions. And as 
Melinda Kimble made clear, the U.S. through these conventions 
has, in effect, marketed the idea of the national park and of 
the better preservation of cultural and natural heritage 
throughout the world. I know that when the Secretary of 
Interior and I were in South Africa together, just two months 
ago, people in Cape Town were enormously overjoyed at the 
thought that they might be able to have the Cape National Park 
be brought into the World Heritage system, because for them it 
was an indication of the pride that they have in their local 
heritage and the fact that their local heritage really is of a 
unique stature that deserves world recognition.
    That is what these designations are about. That is what 
these agreements are about. I think it would be unfortunate to 
hobble them with unnecessary requirements. In fact, Congress 
has had an important role; it ratified the agreement for World 
Heritage, it enacted the legislation that told us how to 
administer the World Heritage program, and we follow that 
legislation very carefully. We do consult Congress when we 
nominate sites. I think there may be room for improvement in 
those areas, but we don't think there is any need to bog down 
the programs and to vitiate their purpose for the United 
States. Thank you.
    [The prepared statement of Mr. Yeager and accompanying 
documents may be found at the end of the hearing.]
    Mrs. Chenoweth. Thank you, Mr. Yeager. There was a total of 
eight documents that you presented, wasn't there?
    Mr. Yeager. I'm sorry, I'll count them, Madam Chairman. 
Seven but one of them is a letter in response. I have the whole 
packet here for you.
    Mrs. Chenoweth. Okay. Thank you very much. They will be 
entered into the record, without objection.
    And now the Chair recognizes Dr. Jeremy Rabkin for his 
testimony.

STATEMENT OF JEREMY A. RABKIN, ASSOCIATE PROFESSOR, DEPARTMENT 
      OF GOVERNMENT, CORNELL UNIVERSITY, ITHACA, NEW YORK

    Dr. Rabkin. Thank you. I just want to begin by replying to 
some things that have already been said. Congressman Vento 
started off by saying that this bill that we're talking about 
today is just symbolic, it is a symbolic gesture that is not 
really going to the heart of things. And we have heard that 
from both my co-panelists from the Clinton Administration that 
the objections of people who are concerned about American 
sovereignty are just about symbolism and all of them insist 
there is no threat to American sovereignty here. If you get 
past the symbolism, there is no threat to American sovereignty.
    But then when they go on to explain why we need to keep the 
World Heritage Convention intact and they talk about other 
countries, they say this would undermine U.S. leadership, this 
would undermine the influence of this convention. And it seems 
that for other countries it is not just symbolic. It seems that 
for other countries their sovereignty is not something to be 
absolutely relied on. It seems that we expect we will be able 
to influence other people but we won't be influenced.
    Now I actually think it is a plausible argument that this 
finally has no influence on anybody who doesn't want to be 
influenced. There is no ultimate sanction here except removing 
something from a list and if you want to shrug that off, you 
can. On the other hand, if we are going to take this seriously, 
we have to assume that it means something to be removed from 
the list, that countries are intimidated by that, they are 
embarrassed by the bad publicity. So I think it is reasonable 
to say, yes, it does mean something and we should worry about 
how this, if you want to call it symbolism, bad publicity, 
embarrassment is wielded against us. I think that is a 
minimally responsible thing.
    Let me add one other thing that is not in my testimony but 
I think is a point worth making here. My guess is that if you 
look over the history of this, it is certainly my impression 
from reading past minutes, this does exert influence, this 
system the World Heritage Convention system, it does exert 
influence on the ``nice'' countries, on the Western countries, 
on the developed countries. And it exerts influence on them 
because they have local NGOs or local political opponents who 
say, ``Oh, oh, we got in trouble. Look, we were condemned. This 
is serious. This is important. We have to do something about 
it.'' If you have local people to work with, then UNESCO or the 
World Heritage Committee can have some influence.
    I will quickly proceed to tell you a story about Australia 
where I think this is exactly what happened. And I think that 
is more or less what happened in Yellowstone. The countries 
where it is most important for us to exert influence, it seems 
to me, are less developed countries and less democratic 
countries, and I think for those countries the World Heritage 
Convention means about as much as the Convention on Civil and 
Political Rights. China signed that human rights convention and 
within the past year has been arresting everyone who mentions 
it in public in China. It similarly has signed the World 
Heritage Convention and I wouldn't give two cents for the 
amount of influence or leverage you are going to have on China 
because it is basically a dictatorship and they will silence 
people who try to talk about this convention, and the World 
Heritage Committee knows that. And, anyway, it is basically 
connected with UNESCO and, as Ambassador Kirkpatrick said, 
UNESCO is a very corrupt, very politicized organization.
    So I think probably when you get down to this, it can only 
be used effectively against Western countries, which means it 
is more likely to be used against us than it is likely to be 
used in a useful way against countries that we would like to 
encourage to improve their protection of natural and historic 
sites.
    Let me quickly tell you this story about Australia and then 
draw some morals from it. Within the past year, there has been 
a big dispute in Australia about one of their sites, the Kakadu 
National Park which is in the Northern Territories in 
Australia. It has been listed as a World Heritage Site since 
the early 1980s. All of that time they have set aside certain 
areas adjoining the park for mining. There has been a mine 
operating there now for almost twenty years and there hasn't 
been any complaint about it. Another parcel of land which was 
set aside for mining, they have over the last few years studied 
whether it would be all right to have mining go on there. And 
the Australian government, after two-and-a-half years of 
extensive, careful review, more or less analogous to our 
environmental impact studies, decided, yes, you can go ahead 
and do mining there.
    Opponents of the mine then appealed to the World Heritage 
Committee. It was a very political process. You had opposition 
members of parliament writing to the committee. You had people 
involved in the Green Party in Australia appealing to Green 
Party members in Europe--particularly, the German Foreign 
Minister, who<plus-minus> now is from the Green Party, and they 
also found allies in France--and they got European countries to 
express an interest in this. They got the European parliament 
to say this was wrong. And then, of course, they got the World 
Heritage Committee to say, yes, this is wrong and we are going 
to say that your park is in danger.
    Now the Australian government said, look, this is our park. 
We are sovereign--they said all the things that Congressman 
Vento and my colleagues here have said you are allowed to say--
this is our decision. And the World Heritage Committee told 
them, no, you are wrong, you better not do this. And they have 
these domestic opponents of the mine saying, ``Oh, look, we are 
in trouble now. We have violated international law. We are 
going to be an international outlaw. We will become a pariah. 
This is terrible.'' And the government is in a considerable 
bind. That I think is the kind of thing we have to worry about.
    Let me just draw three quick morals. First, I think there 
is a Constitutional question here about whether we can get into 
treaties that have nothing to do with international exchange. I 
think you might be able to defend the World Heritage Convention 
if you focus on the exchange of tourists. But you want to be 
careful to say what is it really that this is about, what is 
being focused on. And in the Australian case, the World 
Heritage Committee said this will have a negative impact on 
local aboriginal people in the Northern Territories. So you 
have this international committee coming in and saying what we 
are really protecting is the relations of the Australian 
government with its own people. If that is what this is about, 
I question whether the United States can constitutionally 
participate.
    Second, I think there is a question, okay, we could commit 
ourselves to a treaty text but can we go from a treaty text to 
regulations and interpretations made by an international 
committee under that treaty. And I think there is serious 
constitutional doubts about that. But that is what has happened 
here. The issue in Australia, as in Yellowstone, was not 
actually the site but areas adjoining the site. How do areas 
adjoining the site become subject to the World Heritage 
Convention? The answer is the Committee has decided on its own 
that that is what should happen; there should be a buffer zone 
and they added that to the treaty. Can we sign not only a 
treaty but have with the treaty a blank check to an 
administrative body to expand the reach and meaning of the 
treaty?
    And finally, if we can make, which I think we can, certain 
kinds of submissions to the International Court of Justice or 
to arbitration panels of the WTO where it is understood to be a 
judicial or quasi-judicial procedure, can we really do that 
with just the same constitutional integrity if we are making a 
submission to what is basically a world political body, almost 
a sort of quasi-legislature, which is what really the World 
Heritage Committee has made itself into.
    One last point. I would just like to disagree slightly with 
what Jeane Kirkpatrick said, of course, I agree with the 
substance of what she said, but she kept saying it is one 
country, one vote under the World Heritage Convention. It is 
worse than that. There are more than one hundred countries that 
have signed, but when it comes to making these rules and making 
these determinations they don't all of them vote one country, 
one vote. There is a very elite list of twenty-one countries 
represented on the committee. We have usually been on that 
committee but there is no reason to expect that we will always 
be on that committee. So we could be condemned by a forum in 
which we not only are just one of many, but we might not even 
be one. We might not be represented at all on this committee 
and still we are giving to this committee the power to condemn 
us and to help opponents of some policy here mobilize 
opposition.
    That is not the way our government is supposed to work. You 
cannot talk about grassroots activity here. We have an elected 
Congress. They are supposed to make decisions, not some 
coalition of NGO activists and international sponsors in other 
countries meeting in Geneva or Kyoto or somewhere else. We 
ought to be able to decide for ourselves what we think is 
proper in our own territory, and I think this bill will help us 
to do that. Thank you.
    [The prepared statement of Dr. Rabkin may be found at the 
end of the hearing.]
    Mrs. Chenoweth. Thank you, Dr. Rabkin, for your testimony.
    Now we will open the hearing up to questions from the 
members.
    The Chair recognizes Mrs. Cubin.
    Mrs. Cubin. Thank you, Madam Chairman. I was busy passing 
out Girl Scout cookies to the staff up here.
    I really appreciated the testimony of the panel. I want you 
to know I gave up complaining for Lent. Next year, I am going 
to give up smoking for Lent. I haven't smoked in twenty-one 
years and I think I will be much more successful at that. So I 
don't want you to think that the remarks that I am making and 
the questions I am asking are complaining. But I have to talk a 
little bit about what happened in Yellowstone, since I 
represent Wyoming.
    I truly appreciate Dr. Rabkin's comments. I also don't 
understand how what happened in Wyoming reflects that it was a 
grassroots effort that came in and declared that Yellowstone 
was a site in danger. The New World Mine had been in the 
process of completing an Environmental Impact Statement for 
three years. The information that was coming out indicated that 
the mine developed outside of Yellowstone would, in fact, did 
not damage Yellowstone. I was not in favor of developing that 
mine, don't get me wrong, but I am in favor of following the 
process that has been established for the Environmental Impact 
Statement and the process that has been established to enforce 
the laws of the United States of America.
    So three years this goes on and they were ready to make 
their report. UNESCO came in and in three days, without even 
seeing all of the documentation and the studies that had been 
put forward for the EIS, three days later they determined that 
this was a Heritage area in danger.
    I can't see how in any way that is a grassroots effort. And 
I absolutely agree that the political pressure that is brought 
to bear just by virtue of the fact that publicity comes 
forward, oh, my goodness, Yellowstone is now in danger, totally 
disregarding the facts, the watershed that would have supplied 
the New World Mine did not even go to Yellowstone; it went in 
an entirely different direction. So I just agree with 
Ambassador Kirkpatrick that we have to have people from the 
United States representing our own best interests.
    Would you respond, Dr. Rabkin, on the things that happened 
in Yellowstone and comment on that for me.
    Dr. Rabkin. Well, I agree with everything that you said. I 
think that was a very troubling episode. And it is troubling 
because, contrary to what the defenders of the existing system 
are saying, this was very intrusive. You brought in an 
international inspection team to say you are handling this in 
the wrong way, you in the United States should not be doing 
this, you should be doing something else, otherwise we will 
condemn you by declaring your site in danger.
    And you see the potential for mischief here in the fact 
that American Executive officials basically were in cahoots 
with this international organ----
    Mrs. Cubin. Right. They were invited in by the BLM.
    Dr. Rabkin. They paid for it, they facilitated it, and then 
they went to the meeting of the World Heritage Committee and 
said we don't object if you say that Yellowstone is in danger. 
So what you are basically doing is, in some cases, supplying an 
international megaphone to a mid-level executive bureaucrat. 
Mr. Frampton is a fine fellow and everything but he shouldn't 
on his own be able to make decisions.
    Mrs. Cubin. Right.
    Dr. Rabkin. And we gave him a global megaphone to say the 
world has said that this mine is wrong. That's not how we are 
supposed to make decisions in this country.
    Mrs. Cubin. What I perceive my job as being is preserving 
the process that is established by law.
    Dr. Rabkin. Yes.
    Mrs. Cubin. The outcome is beyond my expertise--I am a 
chemist--it is beyond my expertise and beyond actually my 
judgement about it other than as a citizen. Because when the 
scientists come forward and say these are the facts and this is 
what should be done, then we have to respect that these are the 
facts or that they are not the facts. And what happened here 
was the total process was interrupted and the process was not 
allowed to go on. Frankly, I don't under----
    Dr. Rabkin. Could I just add one thing?
    Mrs. Cubin. Please?
    Dr. Rabkin. When there is a dispute about an environmental 
review in this country, you have all kinds of safeguards which 
the Congress has legislated. You have judicial review, you have 
due process requirements so that people can say, wait a minute, 
this is junk science, this is not a fair review, this was done 
improperly, and you can appeal and you can have an 
authoritative judgement saying no, that was not properly done, 
do it over again. There is, of course, nothing like that at the 
international level, which is why a number of these reviews, 
and people say this about the Australian case as well, are not 
only slipshod, but they are utterly partisan and tendentious. 
People basically go in there with a preconceived notion of what 
is wrong and then write up a report saying, yes, it really is 
wrong.
    And that kind of thing you have no recourse for. There are 
no international courts that you can complain to, there is no 
international congress to complain to. You have just basically 
turned loose these international busybodies who do their own 
intriguing, and that is not a process.
    Mrs. Cubin. And the entire process was interrupted before 
it was allowed to go to completion and before, like you said, 
the scoping hearings were allowed to occur. It was truly an 
intrusion on the laws of the United States of America.
    Mr. Yeager. Madam Chairman, may I be given a chance to 
respond to this question since it involves activities of the 
Department of the Interior?
    Mrs. Chenoweth. Mr. Yeager, we are in the questioning 
process right now. I am sure Mr. Vento will be asking you about 
it.
    So the Chair recognizes Mr. Vento.
    Mr. Vento. Thank you, Madam Chairman. As far as I know, you 
are here to testify on the constitutional basis. Mr. Rabkin, 
are you aware of any constitutional decisions that have been 
made that these events violate the Constitution? Do you have a 
yes or no answer?
    Dr. Rabkin. They haven't been litigated, so no.
    Mr. Vento. There is none. None.
    Dr. Rabkin. Not yet.
    Mr. Vento. Ms. Kirkpatrick, are you aware of any 
designations that have gone on in which a nation did not want 
the designation?
    Ms. Kirkpatrick. Yes. I am aware of processes having been 
set underway without the nation involved desiring a 
designation. Let me just say, the issue is the process. It is 
the question of representation and responsibility and 
accountability----
    Dr. Rabkin. Israel. Israel was condemned----
    Mr. Vento. Mr. Rabkin, I didn't ask----
    Dr. Rabkin. Israel was condemned as well.
    Ms. Kirkpatrick. Exactly. Jerusalem was designated against 
the desire of the State of Israel, absolutely.
    Mr. Vento. It is one of the RAMSAR. It is a site in danger 
that----
    Ms. Kirkpatrick. No, but it has been designated a World 
Heritage Site against the desire and against the opposition of 
the State of Israel.
    Mr. Vento. Excuse me, Ms. Kirkpatrick. I think it was a 
candidate site. In fact, most of them themselves nominate these 
particular sites.
    Now in terms of the Yellowstone case, Mr. Yeager wanted to 
join in and say something. I invite him to do so at this point. 
But in fact, that was after the fact. It doesn't make any 
difference how it became a Man and the Biosphere or World 
Heritage Site, this is an incident or something that occurred 
after the site. As far as I know, the Department of Interior 
used its authorities that it has under law and granted by this 
Congress to accomplish the end, didn't it, Mr. Yeager?
    Mr. Yeager. Yes, that is correct, Representative Vento. I 
wanted to try to correct the record, although there was quite a 
long exchange about the Yellowstone situation. But I was 
involved at some levels in that discussion inside the 
Administration over time and have some personal knowledge of 
the facts. It is my belief that the visit of the World Heritage 
inspection group had absolutely no significance whatsoever for 
any of the decisions that were made with regard to Yellowstone.
    The Park Service was, in fact, a participating agency in 
the Yellowstone EIS and the Park Service believed then and 
believes now that the New World Mine would have caused damage 
to Yellowstone National Park. In fact, one of the drainages 
from the mine does drain directly into Miller Creek which 
drains into the Park. And there was considerable technical 
information to that effect even in the course of developing the 
EIS.
    Representative Cubin is correct, the EIS was never 
finished, but that was not the result of the intervention of 
the World Heritage Committee, it was the result of a decision 
by the President. It was a decision that the President is quite 
proud of, that the Secretary of Interior supports, and that we 
all believe was made correctly according to U.S. law and that 
resulted in the protection of the park.
    Mr. Vento. The authorities exercised did not flow from the 
Man and the Biosphere or the World Heritage Convention or the 
RAMSAR Treaty?
    Mr. Yeager. No, they did not.
    Mr. Vento. They flowed from power that this Congress has 
conveyed and bestowed upon the land management agencies in the 
Department of Interior specifically.
    Mr. Yeager. That is absolutely correct.
    Mr. Vento. Ms. Kimble, can you tell us what the effect of 
the State Department--what clear agreements, other than RAMSAR, 
might be affected by a blanket prohibition contained in this 
bill? What would be the affect on these conventions, treaties, 
and protocols?
    Ms. Kimble. I think you have to look at conventions in 
force. I think we have looked particularly at this bill which 
gets to land-use issues as primarily affecting the RAMSAR 
Wetlands Convention. We don't have other major conventions 
outside of World Heritage itself that deal with land-use right 
now.
    Mr. Vento. So would this bring to a stop any type of 
designation of these types of sites in North America? Don't we 
have treaty obligations under the Migratory Bird Treaty and so 
forth?
    Ms. Kimble. Well, let me say, the Migratory Bird Treaty is 
a very important treaty, but I see RAMSAR as most important in 
terms of encouraging the protection of wetlands globally and 
certainly in the Hemisphere. It is not only the United States 
that has obligations to protect its wetlands. Our obligations 
are consistent with RAMSAR but are based on Federal law under 
the Clean Water Act. But other States have made their 
obligations consistent with RAMSAR under their legislation. 
This means RAMSAR encourages Mexico and Canada, for instance, 
to also protect these sites.
    So the real strength of RAMSAR is promoting international 
cooperation on wetlands protection. Obviously, we believe the 
United States should be an active participant. Although you 
will note that when we ratified RAMSAR we believed that our 
existing legislation was sufficient to implement it.
    Mr. Vento. Yes. Ambassador Kirkpatrick, during the 1980s 
when we withdrew from UNESCO, did you protest? Were you of a 
different opinion at that time with the then Reagan 
Administration authorities with regards to continued 
participation in World Heritage and Man and the Biosphere and 
the other programs?
    Ms. Kirkpatrick. No. Let me just say that the 
implementation of these programs is--my point, I didn't make it 
very clearly--it is a direct consequence of the political 
forces inside the United Nations bodies at that time. The fact 
is that the United Nations is a highly political institution, 
just like the U.S. Congress is, and it is supposed to be. But 
it was not functioning in a way that demonstrated such 
undesirable political consequences.
    Mr. Vento. We set aside these programs and stayed in them.
    Ms. Kirkpatrick. That's right. No, no, because they were 
not objectionable. They were functioning adequately at that 
time.
    Mr. Vento. But do you think that we ought to at this point 
abandon this particular type of role, as has been implied here 
by the other witness on the panel, Dr. Rabkin, do you think we 
ought to abandon participation in these particular programs?
    Ms. Kirkpatrick. Do I believe the United States should 
withdraw from participation in these programs?
    Mr. Vento. Yes.
    Ms. Kirkpatrick. I have never suggested it. I do believe, 
however, that the Congress has both an obligation and a 
responsibility to participate in decisions that affect American 
citizens and property.
    Mr. Vento. But the point is there is no constitutional 
challenge to the fact that the Congress has given authority to 
the State Department and others to, in fact, do this. There is 
no constitutional question here in your mind, is there?
    Ms. Kirkpatrick. There are constitutional questions in my 
mind concerning the implementation of some of these powers.
    Mrs. Chenoweth. I thank the gentleman for your questions.
    The Chair recognizes Mr. Pombo.
    Mr. Pombo. Thank you, Madam Chairman. I yield to the woman 
from Wyoming.
    Mrs. Cubin. Thank you, Mr. Pombo.
    I would like to respond to Mr. Yeager. The outcome is 
exactly what I wanted it to be. What I am absolutely opposed to 
is how I think the process was violated. And let me tell you 
how that was violated. The Administration had a desired outcome 
and what they did when they invited UNESCO in was it was a 
part, and a big part, but it was only a part of getting the 
desired outcome. Now, if I am satisfied that the ends justify 
the means, then that is okay with me. But I am not. My job, and 
I think all of our jobs, is to protect the process.
    And while this Administration may like the outcome that 
they got this time, when another administration with an 
entirely different philosophy about the environment and about 
these issues comes into play, if we allow this sort of thing to 
continue, then they are not going to like the outcome the next 
time and neither are you. And that was the point that I was 
trying to make.
    Mr. Pombo. Reclaiming my time. To follow up somewhat on the 
point that Mrs. Cubin was making, Ms. Kimble, can you clarify 
for me what authority exists under these programs? What can 
they do?
    Ms. Kimble. Let me say, these programs are designed to 
promote international cooperation and to recognize sites that 
have specific ecological, cultural, or scientific value. 
Congressional authority was certainly given for the World 
Heritage Convention when the Senate gave advice and consent and 
the Congress subsequently passed implementing legislation.
    Mr. Pombo. No. What authority is under these agreements? 
What can they do? Do they have land-use authority?
    Ms. Kimble. The only thing they can do is put sites on a 
registry. In the case of the World Heritage Convention, sites 
that are nominated by states party to the convention go on a 
registry as World Heritage Sites and the World Heritage 
Committee, which the United States has continued to participate 
in as a member since we left UNESCO, continues to review the 
operation of these sites.
    I just checked, for instance, to see how many sites are 
listed in other countries. Many, many more developing country 
sites have been listed than developed country sites, in part 
because developing countries do not have the capacity to 
protect their sites. And many of these listings of the World 
Heritage Convention saying these sites were in danger prompted 
action by the world community, including technical assistance 
and aid, to help these countries protect their sites.
    Other sites have been brought to the attention of the World 
Heritage Committee. For instance, I was familiar with a case 
when I was working in international organizations when 
Dubrovnik in Yugoslavia was listed as a site in danger because 
of the ongoing war in the former Yugoslavia.
    So what this committee does is it identifies places of 
significant importance under terms of the World Heritage 
Convention, the World Heritage Convention continues to monitor 
these sites and report on them. And it is truly an issue of 
peer pressure and support, but it is cast truly in most cases 
in a very positive light encouraging countries to protect these 
sites. The purpose of the World Heritage Convention, as the 
Nixon Administration saw it, was to promote protection, and 
that I think was a constructive objective.
    Mr. Pombo. Under the scenario that you describe of what 
they are able to do, it is somewhat confusing because some of 
the victories that are claimed under these sites, all of the 
wonderful things that they do, in your testimony and in other 
people's testimony, the claim is made that these are totally 
voluntary; they have no regulatory authority, they have no 
ability to tell anybody what to do.
    At the same time, in quoting from your prepared statement, 
you say it ``played a key role in the effort to restore the 
Coho salmon to areas of northern California through the Golden 
Gate Biosphere Reserve Program.'' If they have no regulatory 
authority, no ability to tell us what to do, if they do not 
threaten our sovereignty, there is no ability to do anything, 
yet they claim helping to recover an endangered species.
    Ms. Kimble. Let me make a very clear distinction, if I 
could. First of all, Man and the Biosphere and the Biosphere 
Reserve Program is a United States program that operates in 
connection with the broader UNESCO program. The purpose of that 
program is voluntary scientific cooperation. In the case of the 
Coho salmon, designating the area as a Biosphere Reserve 
promoted more active engagement in scientific studies in 
programs to help restore the salmon population in that area.
    Mr. Pombo. More active than what?
    Ms. Kimble. The action was taken by individual----
    Mr. Pombo. Excuse me, it is my time. More active than what 
currently exists under NMFS, and Fish and Wildlife, and the 
Sport Fishing Association, and all of the different 
organizations that are involved in trying to recover the Coho 
salmon? This has been a major ongoing deal in Northern 
California, one that I am painfully aware of.
    Ms. Kimble. Let me say, as I understand----
    Mr. Pombo. To come in here and claim credit for----
    Mrs. Chenoweth. Will the gentleman hold, please?
    Mr. Pombo. I do have further questions.
    Mrs. Chenoweth. I know you do.
    Ms. Kimble, will you please let Mr. Pombo finish his 
statement.
    Mr. Pombo. My time has expired. I do have other questions 
for the witnesses and I will wait until everybody has had the 
opportunity to ask their first round of questions. Thank you.
    Mrs. Chenoweth. Thank you very much.
    The Chair recognizes Mr. Inslee for questions.
    Mr. Inslee. Thank you, Madam Chair.
    Dr. Rabkin, I have been listening with interest to your 
discussion of the constitutional question you have raised. I 
want to tell you there are folks who on occasion come here to 
Congress and they make arguments that certain things are 
unconstitutional. It is really great theater, it is really 
great propaganda, it really does a lot of things to inflame 
people, to make them think that legitimate treaties that have 
been confirmed by the United States Senate somehow are going to 
end up with black helicopters coming across the border in 
Canada. I want to tell you that when leaders talk about that it 
does inflame people's passions and it does make them actually 
believe that the black helicopters are coming across the 
border.
    I want to tell you that frequently there are people who 
come here and argue that certain things are unconstitutional 
knowing that they have never ever gone through the legitimate 
means that are established to challenge the constitutionality 
of an Act or a treaty adopted by Congress and yet come in here 
and argue for weeks and months and years that certain things 
are unconstitutional back to their constituents when they have 
never tested that issue in the courts of this country.
    Now my understanding is, and your answer to Mr. Vento's 
question, that neither you nor anyone else has asked the U.S. 
Supreme Court to rule on the constitutionality of this issue. 
If that is true, I want you to tell me if you are one of those 
folks who come here and argue the constitutionality of statutes 
and never actually go through the means of testing that issue 
in the courts of this land?
    Dr. Rabkin. The Supreme Court of the United States does not 
give advisory opinions. You cannot show up and say I would like 
some advice. You have to have an actual case or controversy. I 
have in other contexts argued that people are much, much too 
promiscuous in going into the courts and trying to make 
everything into a Federal case. It would be very difficult to 
mount a Federal case about this because you would have to show 
that somebody was directly coerced by it.
    Mr. Inslee. This has been on the books, one of these bills, 
since 1973, the other one has been here since sometime during 
the Reagan Administration. Are you telling me that our system 
of justice is so incompetent and impotent that it prevents 
American citizens from ruling the constitutionality of this? Is 
that what you are telling this Committee?
    Dr. Rabkin. I would not put it that way. But if you look at 
treaties generally, you will see there are hardly any cases 
about treaties because it is very difficult directly to 
challenge the treaty.
    Mr. Inslee. Have you made any effort to challenge these 
treaties in the courts of our land?
    Dr. Rabkin. I personally have not.
    Mr. Inslee. Do you know anybody who has come forward from 
the Yellowstone incident that people are complaining about, or 
any of these instances and said this is a terrible affront to 
the constitutional process of this country, it has got to be 
ruled unconstitutional by the courts. Have you done that? Has 
anybody done that? Or do they instead just come to the Congress 
and bleat and whine about this year after year and never test 
this issue. Is that what has happened here?
    Dr. Rabkin. I do really think you are misunderstanding. You 
cannot, just because you have an argument or a view or a 
principle, get it into court. There has to be an actual case 
where you can show that someone was directly coerced, and I 
don't think that has happened yet.
    Mr. Inslee. Apparently no one has even tried to have a 
judicial interpretation of this issue. Is that an accurate 
statement to your knowledge?
    Dr. Rabkin. I think that is accurate.
    Mr. Inslee. But it is accurate that people have come month 
after month, year after year to this Congress and made that 
argument, yourself included. Is that accurate?
    Dr. Rabkin. Oh, I don't know if it was month after month. 
But people have made that argument, sure.
    Mr. Inslee. So isn't it true that you are in the wrong 
place. You ought to be in the judicial system to get an 
interpretation of this, don't you think?
    Dr. Rabkin. I totally disagree with you, sir. I think it is 
very important for the Congress of the United States to uphold 
the Constitution and not shrug its shoulders and say, oh, well, 
go to court. You have taken an oath yourself, sir, to uphold 
the Constitution. You should take that oath seriously. You 
should not berate citizens when they come to you and ask you to 
honor that oath.
    Mr. Inslee. I appreciate your reminding me of the oath that 
I have taken and have fulfilled hour by hour, day by day to the 
last dog dies, and I will do that. But it is a serious issue. I 
just want to tell you it is troublesome to me because we get 
this in other context, just not in the Resources Committee, 
where people raise constitutional issues. And when I say why 
don't we get a ruling on this, we have a branch of government 
that can give us an answer to this, for some reason they are 
very reluctant to ever do that. And I will tell you why they 
are reluctant. Because they know the Supreme Court would rule 
these are constitutional. That is why the U.S. Senate has 
confirmed them. Thank you, Mr. Rabkin.
    Mrs. Chenoweth. Thank you, Mr. Inslee.
    The Chair recognizes Mr. Tancredo.
    Mr. Tancredo. Thank you, Madam Chairman.
    Mr. Yeager, what is your relationship--you mentioned 
earlier that you had some personal involvement with and 
understanding of the issues revolving around the Yellowstone 
Park issue. If you could help me out here and just tell me, 
what is your relationship, for instance, to the National Park 
Superintendent, Mr. Finley? Do you know him?
    Mr. Yeager. I do know him, yes.
    Mr. Tancredo. In what capacity are you aware of his work?
    Mr. Yeager. I am the Deputy Assistant Secretary for Policy 
and International Affairs. Among the offices that report to me 
is an office called the Office of Environmental Policy and 
Compliance. When we have the responsibility to comment or to 
participate in NEPA work, work under the Environmental Policy 
Act, assessments or impact statements that are done by other 
agencies, that office helps to coordinate the bureau's 
responses and to make sure that our responses are consistent 
and does necessary technical work with the bureaus.
    So in that capacity, among others, I was asked to look into 
this issue. There was quite a long technical discussion that 
involved all the agencies about the mine. I can tell you that 
that technical discussion was extensive, got into great detail 
about elements of the EIS, was participated in by people, among 
others, the water quality staff of the Park Service in Denver, 
the Bureau of Reclamation dam experts, and others who had 
technical expertise on issues raised in the EIS.
    Mr. Tancredo. Would you consider Mr. Finley to have that 
kind of technical expertise? Would he have been a participant 
at any point along the line in any of the discussions? Would he 
have been made aware of the technical aspects of it?
    Mr. Yeager. I assume as the Superintendent he was made 
aware. But he was not actually a participant in the 
discussions, no. The discussions were held largely by technical 
people.
    Mr. Tancredo. But you feel, to the extent that you are able 
to, and I recognize that there is some separation between your 
responsibility and his that might not allow you to have a 
definitive knowledge here, but you feel comfortable that he 
would have had a good working knowledge of the World Heritage 
Sites?
    Mr. Yeager. I honestly can't testify to his knowledge. I 
view him as a competent Park Superintendent.
    Mr. Tancredo. Let me ask you to make an assumption given 
his responsibilities as a National Park Superintendent. Would 
you think he would have had at least a working knowledge of the 
World Heritage Sites provisions?
    Mr. Yeager. My assumption is that he would have had a 
working knowledge of all issues affecting his park.
    Mr. Tancredo. Then how would you have responded to the 
following quote by Mr. Finley as appeared in the Casper Star 
Tribune, September 9, 1995, a copy of which I have here. ``As 
ratified by Congress, the provisions of the World Heritage 
Treaty have the force and statutory authority of Federal law. 
By inviting the committee to visit the park and assess the 
mine's potential impacts, the Interior Department acted as it 
was legally required to do.''
    Mr. Yeager. What is the question?
    Mr. Tancredo. How would you respond to that? Would you say 
that is an accurate statement?
    Mr. Yeager. I probably would not. You would have to read it 
again for me to respond.
    Mr. Tancredo. Let me do that. How about if I just gave 
you----
    Mr. Yeager. Representative Tancredo, maybe it would be 
better for me to read to you how our solicitor has interpreted 
our responsibility to the World Heritage----
    Mr. Tancredo. I am really interested in your opinion of it.
    Mr. Yeager. I understand that you value my opinion. But I 
think there are those in the government whose job it is to make 
legal interpretations and I generally try to follow them, and 
our solicitor is one of those people. Neither Mike Finley, the 
superintendent, nor I are asked to render legal opinions about 
the position of the United States----
    Mr. Tancredo. He did, of course, do exactly that here, he 
rendered a legal opinion.
    Mr. Yeager. Well, with your permission, if you ask for my 
personal response, I would ask the solicitor. And here is what 
the solicitor says. ``As a party to the World Heritage 
Convention, the United States has undertaken to take the 
appropriate legal, scientific, technical, administrative, and 
financial measures necessary for the identification, 
protection, conservation, presentation, and rehabilitation of 
natural and cultural heritage features designated in U.S. 
territory. In our view, this obligation is discharged entirely 
within the framework of the appropriate U.S. and State laws. 
Therefore, the World Heritage Committee's recent decision to 
name the Yellowstone National Park to the World Heritage List 
of Sites in Danger does not impinge in any way on the United 
States sovereignty and does not supplant the----
    Mr. Tancredo. That is really not the question I asked you. 
You are responding to a question I did not ask.
    [Simultaneous conversation.]
    Mr. Tancredo. Mr. Yeager, you are responding to a question 
I did not ask.
    Mr. Yeager. I would like to finish----
    Mrs. Chenoweth. Excuse me, will the gentlemen hold, please. 
The Congressman has the time and he is controlling the time. I 
would appreciate your respecting that. Thank you.
    Mr. Tancredo. I will simply end my time, and I know we are 
running out of time here, but I guess it is my observation here 
that apparently it is not just some wayward enthusiasts who 
might have an incorrect impression about what this whole 
program is about and may be coming here idealistically asking 
us to deal with it. Maybe it is even people like the 
superintendent of the National Park who has a misinterpretation 
of exactly what this is all about.
    So perhaps it is not all that illogical for us to be 
pursing it from the standpoint that there are aspects of this 
that are appropriately brought before us today and I think this 
bill appropriately addresses those aspects. Thank you, Madam 
Chairman. I yield back the balance of my time.
    Mrs. Chenoweth. Thank you.
    The Chair recognizes Mr. Mark Udall.
    Mr. Udall of Colorado. Thank you, Madam Chair.
    I want to thank the panel for taking time to speak with us 
today and help us understand this important issue a little more 
in depth.
    Ms. Kimble, I had a question for you. It seems to me from 
what I have been hearing that really what has been said is the 
United States took the lead in establishing a lot of these 
programs in the 1970s. Is that right?
    Ms. Kimble. We took the lead in establishing the World 
Heritage Convention. We subsequently joined the Man and the 
Biosphere Program at UNESCO some three years after it was 
formed.
    Mr. Udall of Colorado. In that spirit, Madam Chair, if I 
might, I would like to read a short paragraph out of a letter 
that I received and ask that the rest of the letter be included 
in the record.
    Mrs. Chenoweth. Without objection.
    Mr. Udall of Colorado. Thank you, Madam Chair. The letter 
is addressed to me, of course, and it says ``Dear Congressman 
Udall, I write to urge you to oppose H.R. 883, the American 
Land Sovereignty Protection Act, sponsored by Resources 
Committee Chairman Don Young. This legislation is neither 
warranted nor wise. It is an unfounded attack on international 
conservation programs that recognize areas in the world that 
are of ``outstanding universal value.' Contrary to this bill, I 
believe the Congress should strengthen and encourage measures 
that would lead to greater participation by the United States 
in the World Heritage Convention, RAMSAR Wetlands Convention, 
the Biosphere Reserve Program, and other worthwhile 
international conservation programs.''
    This letter is from the Honorable Russell Train, who served 
on the Council of Environmental Quality for President Nixon. It 
points out to me the bipartisan nature of the creation of many 
of these efforts around the world. I would ask, as I mentioned 
earlier, that the rest of the letter be included in the record.
    [The information may be found at the end of the hearing.]
    Mr. Udall of Colorado. If I might make one other comment, 
it seems to me, Mr. Yeager, you can confirm or disagree with 
me, in attempting to respond to Mr. Tancredo's question, you 
were saying that Mr. Finley is an excellent superintendent but 
the Solicitor is a better attorney. Is that true?
    Mr. Yeager. That is much more elegantly put. Thank you very 
much.
    Mr. Udall of Colorado. Thank you, Madam Chair.
    Mr. Vento. Would the gentleman yield to me briefly on that 
point?
    Mr. Udall of Colorado. Sure.
    Mr. Vento. Thank you. I would just point out, I don't 
intend to extend my questioning period, but I would just point 
out that we are relying on a newspaper article here, too. 
Superintendent Finley has been in a number of parks including 
the Everglades which is also designated as a Man and the 
Biosphere Reserve. So I think that we are just relying on a 
newspaper article here in terms of what he might have said. I 
think that if we really want to find out what his view is or 
how this impacted, I think that would be appropriate. I think 
it could also be interpreted that he was saying what is 
consistent with the existing laws and authorities that exist in 
terms of that area, which, incidentally, has BLM, Forest 
Service, Native American lands, and a whole variety of lands in 
what is called the Greater Yellowstone Ecosystem.
    I thank the gentleman for yielding.
    Mr. Udall of Colorado. Thank you, Mr. Vento.
    I see I have a little bit of time left. I might add that 
Russell Train at the end of his letter pointed out that areas 
in the United States including private lands recognized under 
international agreements are subject only to domestic law. 
``There is no international legal protection or sanction for 
these areas. Thus, I am opposed to requiring congressional 
authorization of a site prior to nomination or designation.'' 
And I think he makes that additional point that I think we need 
to make here.
    So, Madam Chair, I thank you for the time and yield back 
the remainder.
    Mrs. Chenoweth. Thank you Mr. Udall.
    The Chair now has some questions. The issue of the New 
World Mine has been quite prominent in this hearing and I want 
to get some things on the record.
    First, that the World Mine operated on private property 
through a patent, and that there were fourteen nongovernmental 
organizations who had appealed to the United Nations 
Educational, Scientific, and Cultural Organization. They in 
turn, on March 6, 1995, wrote a letter to Mr. George Frampton, 
Department of Interior, in which they stated to him the 
following: The World Heritage Committee has the authority to 
act unilaterally in placing a site on the List of World 
Heritage Sites in Danger. Now I would like to juxtapose that to 
Article IV, section 3 of the Constitution which clearly says 
that Congress needs to make all needful rules and regulations.
    I do not believe that it takes a battery of lawyers, 
Supreme Court Justices, and everybody else to understand the 
clarity of those two positions. Our United States Constitution 
is exceedingly clear as to Congress' responsibilities. I 
furthermore do not believe that a constitutional issue should 
be run by the Supreme Court before the Congress deals with it. 
I think we have to have the boldness and the courage and the 
tenacity to study these issues and to respond in a manner that 
is thoughtful, as our constituents would expect us to. I think 
to do otherwise simply engages us in the old paralysis of 
analysis.
    The statement that was contained in the March 6, 1995, 
letter to Interior Assistant Secretary George Frampton is an 
official communication that needs to be taken very seriously 
because that letter goes on to state the following: ``It is 
important to note that Article I of the World Heritage 
Convention obliges the State party to protect, conserve, 
present, and transmit to future generations World Heritage 
Sites for which they are responsible. This obligation extends 
beyond the boundary of this site, and Article 5(a) recommends 
that State parties integrate the protection of sites into 
comprehensive planning programs.'' Now we must remember that 
this document was generated as a response to fourteen NGOs 
recommending that the World Mine be taken into this world 
jurisdiction.
    So without objection, I would like to enter into the record 
this letter to Mr. Frampton. Is there any objection? Hearing 
none, so ordered.
    [The information may be found at the end of the hearing.]
    Mrs. Chenoweth. I do have a question for Dr. Kirkpatrick. 
What advice can you give the Congress to improve its oversight 
of international organizations such as the situation we are 
dealing with here?
    Ms. Kirkpatrick. I do believe that the oversight of 
multilateral organizations poses some very special problems 
actually for any legislative body vested with oversight. The 
reason being that multilateral organizations characteristically 
not only practice bureaucratic decision-making of necessity, 
but that bureaucratic decision-making is a good many steps 
further removed from an elective body than the bureaucratic 
decision-making in a single government. It is easier for the 
Congress of the United States to practice oversight of the U.S. 
Government, U.S. bureaucracy, though that is not easy, as we 
know.
    The oversight of international organizations is complicated 
because the countries engaged have different views concerning 
the appropriateness of oversight, concerning the rectitude, if 
you will, of oversight, and concerning which bodies have the 
right, in fact, to oversight. And the United Nations is a very 
complex organization.
    By the way, may I just say that I don't believe that the 
issue here is conservation or environment or whether there 
should be World Heritage Sites. I think the issue is who should 
be charged with protecting them and developing them and how 
that should be determined. Under the American system, I believe 
that the chain of elected representation and responsibility and 
accountability is absolutely essential. All our individual 
rights are vested in that chain of representation and 
responsibility and accountability, and that chain has the most 
tenuous possible connections with operations of multinational 
bureaucratic organizations.
    The only way really that the Congress can exercise that 
oversight I think virtually is to try to work through its own 
departments charged with the management of representation in 
those organizations. So that the Congress would work through 
the State Department and through other environmental agencies. 
And that is one of the problems. It just makes it that much 
more difficult to reflect and represent and respond to popular 
opinion, to the opinion of Americans. And I wish you good luck. 
I think it is very difficult to 
prac<plus-minus><plus-minus>tice oversight of those 
organizations.
    Mrs. Chenoweth. It is a challenge.
    Ms. Kirkpatrick. It is a challenge.
    Mrs. Chenoweth. I want to thank the witnesses very much for 
your valuable testimony. I do want you to know that you have 
five working days to extend or amend your testimony should you 
wish. We would look forward to any additions that you might 
have of your testimony.
    Excuse me, I am reminded by counsel that it is ten working 
days.
    Dr. Rabkin. Thank you, Madam Chairman.
    Mrs. Chenoweth. You are welcome.
    Mr. Vento. Will we get the testimony from Jeane Kirkpatrick 
today?
    Mrs. Chenoweth. Yes, I think it will come up through the 
recorder.
    I want to thank these witnesses very much and excuse this 
panel of witnesses. Thank you for your time.
    Now I would like to turn the Committee over to Barbara 
Cubin. I have to go to the floor for a speech and she will take 
the Chair for a while. Thank you.
    Mrs. Cubin. [presiding] We will now hear from our second 
panel. We have Mr. Stephen Lindsey from Elgin, Arizona; Mr. 
David B. Rovig, President, Greystar Resources, Billings, 
Montana; Ms. Ann Webster Smith, Chairman Emeritus, U.S. 
Committee of the International Council on Monuments and Sites, 
Washington, DC; and Ms. Laurel MacLeod, Director of Legislation 
and Public Policy, Concerned Women for America, Washington, DC.
    Mr. Vento. Madam Chair, I am going to have to excuse 
myself, but I do want to welcome the witnesses, especially the 
witness from ICOMOS who is a long-time witness before the 
Committee on these particular issues. We have oversight 
hearings every year on the budget and we would bring them in 
when I had that responsibility, and I am pleased to see her 
back.
    Ms. Smith. Thank you.
    Mrs. Cubin. All right, everyone is at the witness table 
now.
    I would like to recognize Mr. Lindsey for his oral 
testimony. As Chairman Chenoweth mentioned, we do limit the 
oral testimony to five minutes but your entire statement will 
be printed in the record. And if you will just watch the lights 
there, the yellow light tells you when you have sixty seconds 
left. And we will be better about watching our time, too.
    So, Mr. Lindsey?

        STATEMENT OF STEPHEN G. LINDSEY, ELGIN, ARIZONA

    Mr. Lindsey. I really thank you for letting me come here. I 
do appreciate being asked to come. There are a lot of doctors 
and folks who have a lot more knowledge than me. I work the 
land. I am a rancher in Southeast Arizona. My name is Steve 
Lindsey, and I live in Canelo, Arizona, a little burg there as 
you are headed towards Parker Canyon Lake, about 75 miles 
Southeast of Tucson on the west side of the Hoecake Mountains. 
The ranch that my family owns borders the Fort Hoecake on the 
e<plus-minus><plus-minus><plus-minus>ast side.
    The history of the ranch, my great-great-grandfather moved 
into the area in 1866 and homesteaded in what is now Parker 
Canyon. In 1910, my great-grandfather moved down to Canelo 
where we live now and homesteaded a piece. His house burned 
down in 1923 and he bought the adjacent homestead. We are now 
living in that house that he bought in 1923.
    In 1996, the Southwest Center for Biodiversity petitioned 
the U.S. Fish and Wildlife Service to list as endangered the 
Canelo Hills Ladies Tresses along with two other cienegas 
species, cienega being a wetland, in Spanish it means a swamp. 
Everybody now calls them ``riparian areas'' but for years we 
just called them cienegas. They petitioned them to list these 
species.
    The Canelo Hills Ladies Tresses grows there on our place. 
It is found in five different places around the country that 
they know of and is doing best on our place where it is grazed, 
is doing the worst on the Nature Conservancy where it is not 
grazed. So as you can see in the Federal Register, you can look 
this up and you can see that the grazing is not detrimental to 
this plant.
    After it was listed in 1997, through a lot of public input 
and a lot of fights and a lot of things--I didn't figure it 
needed to be listed, my family didn't figure it needed to be 
listed--after it was listed in January of 1997, in February of 
1997, through the paper--Mr. Vento was talking about a 
newspaper article--through the paper the Phoenix Republic we 
found out that the Southwest Center for Biodiversity was now 
petitioning Interior Secretary Bruce Babbitt to put our 310 
acres, well 60 acres of wetland, under the RAMSAR Treaty. I 
didn't even know what a RAMSAR Treaty was back then. I made 
some phone calls and that's what I am doing here now is trying 
to figure out what in the world is going on petitioning Bruce 
Babbitt instead of why aren't we coming to Congress and why are 
we making my private property part of the public input. What is 
going on here? That is what I am doing here is trying to find 
out.
    I read the other day that a country's most important 
natural resource is their children. How true that is. I have 
got nine children. My wife is my staff, she came with me here 
today. We have been ranching on this place since fourth 
generation right there on that place, fifth generation rancher 
in Southeast Arizona. I am desiring with all my heart to pass 
this ranch on down to my sons and my daughters. I don't see 
why, being that we have been ranching and we have had a viable 
cattle outfit for all of those years, why we now need 
international oversight.
    I have heard a lot of the discussions today about different 
things that will be able to be done through these conventions. 
And Karen Suckling, of the Southwest Center for Biodiversity, 
said in the newspaper article, ``By protecting these Arizona 
wetlands through the RAMSAR Convention, we get international 
oversight.'' I am a little concerned with that, with why we 
need international oversight on our property that has been in 
my family since 1910. We have been ranching now for 89 years on 
60 acres of wetland. I have got some pictures here if you would 
want to see them of this wetland. I understand that the 
Chesapeake Bay is a RAMSAR site and Chesapeake Bay sure has a 
heck of a lot more water in it than our 60 acres down there in 
Southeast Arizona.
    I just have a little bit more time, so I will shut up. 
Thank you very much.
    [The prepared statement of Mr. Lindsey may be found at the 
end of the hearing.]
    Mrs. Cubin. Thank you, Mr. Lindsey.
    Mr. Rovig?

  STATEMENT OF DAVID B. ROVIG, PRESIDENT, GREYSTAR RESOURCES 
                    LTD., BILLINGS, MONTANA

    Mr. Rovig. Madam Chairman, I ask that my prepared statement 
be made part of the official record.
    Mrs. Cubin. Without objection.
    Mr. Rovig. Madam Chairman and members of the Committee, I 
am David B. Rovig, a mining engineer from Billings, Montana. I 
want to testify in support of H.R. 883, the American Land 
Sovereignty Protection Act. H.R. 883 addresses several key 
issues that are of great importance to protecting private 
property rights, access to strategic resources, and our 
Nation's sovereignty. These issues are, and have been, the 
cornerstones of our country's success.
    No nation has ever achieved or sustained greatness without 
access to natural resources, and certainly no great nation has 
ever allowed other nations to dictate its resource policy. 
Likewise, only those nations respecting private property rights 
have ever sustained greatness. These very important tenets have 
worked well for over 200 years but now seem to be tested at 
almost every turn by those who now manage our government's 
affairs and their handlers in the pseudo-environmental 
community.
    Let me place in personal terms the need for H.R. 883. In 
1987, I was one of the founders of Crown Butte Resources Ltd., 
a company that acquired a few claims in the mountains, and $40 
million later had discovered a world-class gold deposit called 
the New World Mine in south-central Montana. Unfortunately, as 
it turned out, it was within three miles of a remote corner of 
Yellowstone Park.
    That project made business sense from the very beginning. 
It also was a project that we knew from the beginning would be 
very closely monitored and it would have to meet or exceed a 
mountain of regulations and requirements. After a very careful 
review, we knew those hurdles would be difficult but passable. 
Crown Butte worked with the State of Montana and Wyoming and 
several Federal agencies to chart a course for the completion 
of an Environmental Impact Statement. That process alone would 
take several years and cost several millions of dollars.
    The now well-known piracy of the process began in late 
February 1995 when fourteen environmental groups requested that 
Yellowstone National Park be listed as a World Heritage Site in 
Danger. They saw that we were meeting all the legal and 
regulatory tests, so they felt a scare tactic of placing 
Yellowstone on the World Heritage List of Sites in Danger might 
be their only chance to stop the mine. They did this with the 
full support of Yellowstone Park management.
    The Administration's bullying tactics and complete sell-out 
to the obstructionist agenda of a few elitist pseudo-
environmental groups resulted in an unparalleled government 
denial of the free enterprise system, unparalleled at least 
until it was used as a stepping stone to the even larger and 
more egregious intrusion known as Escalante-Grand Staircase 
land grab. What a horrible precedent. Now every objection to 
development in the West includes a demand for government buy-
outs.
    Mining in this area was nothing new. Only with today's 
standards, it was to be done with a minimal impact on the 
environment and with the approval and oversight of many State 
and Federal agencies. As I mentioned before, we were in that 
very structured and deliberative process when a committee 
operating under the umbrella of the United Nations came to 
Yellowstone National Park, already a World Heritage Site, to 
see if it should be added as a site in danger. Incredibly, when 
the visit was first publicly announced, the Interior Department 
was going to pay for the travel costs of the U.N. members.
    These three or four committee members, from such places as 
Thailand, made a three-day tourist type visit to the park 
during which a three-hour road tour of the New World Mine site 
was made. After this short visit, which consisted largely of 
media events and photo ops, this group of ``experts'' concluded 
that the New World project did endanger Yellowstone Park. In 
arriving at this outrageous decision, they chose to ignore the 
many volumes of scientific evidence that had been gathered on 
the project over several years and at great cost by some of the 
world's true experts from industry and government.
    The nearly completed New World Mine Environmental Impact 
Statement was probably the most comprehensive technical 
document ever assembled for such a project. The negation of 
this document was a slap in the face of the many agency 
professionals, primarily from the Forest Service in the State 
of Montana, who had justifiably developed a great professional 
pride in their management of such a complex effort.
    Past Congresses and Administrations, in conjunction with 
Federal agencies and State governments, have developed a very 
detailed and extensive review process with full public 
involvement. The studies and information required are extensive 
and exhaustive by any measure. That process should have been 
honored. Instead, it was scuttled. All who played by the rules 
paid a dear price in doing so. The State of Montana, which had 
invested time and talent of its best regulators, were left out 
of the decision altogether. Montana paid the price of losing 
all the economic benefit of this project and others that might 
have followed could bring. Partly because of decisions like 
this, Montana currently ranks fiftieth in the Nation's per 
capita income. The miners, the engineers, the businessmen, the 
property owners, the counties, the municipalities were all left 
in the economic lurch.
    To this day, I know the New World Mine could have been 
developed and operated in a manner that fully protected 
Yellowstone's resources while contributing to the Nation's 
economy. Please do not forget that I am a life-long Montanan 
and I want Yellowstone to be there for my children and 
grandchildren as well as yours. I was trained from a very early 
age that if you played by the rules you would be judged 
accordingly. That was not the case with the New World Mine. 
Three other directors and I resigned from the Crown Butte board 
rather than agree to take a piddling amount of Federal money 
and pull the plug on the project. A great deal of hard work 
went into a viable project and it went out the window with an 
ill-conceived political/media decision.
    In closing, I would make three recommendations. First, pass 
H.R. 883 with strong provisions protecting our sovereignty. Our 
country developed the concept of a system of national parks. We 
don't now need others to tell us how they should be managed. 
Second, let the system work. How can we continue to invest vast 
sums of money in projects where a very comprehensive evaluation 
system is in place and then, when a select group decides it 
should not go forward, have the Federal Treasury pick up the 
bill? No mining business or other business should take on 
complex projects with the idea that Uncle will buy them out if 
the politics get too hot. And lastly, Mr. Chairman, common 
sense and reason have to be placed back in the process. Every 
day a new layer of regulation is added at some level in the 
process. Every day some obstructionist group uses that new 
regulation or some mutation of it to effect new barriers the 
Congress could not possibly have imagined. And every day we in 
the business world are forced to look outside our borders for 
new projects. I hope that is not what America is about. Thank 
you.
    [The prepared statement of Mr. Rovig may be found at the 
end of the hearing.]
    Mr. Pombo. [presiding] Thank you, Mr. Rovig.
    Ms. Smith?

    STATEMENT OF ANN WEBSTER SMITH, CHAIRMAN EMERITUS, U.S. 
COMMITTEE OF THE INTERNATIONAL COUNCIL ON MONUMENTS AND SITES, 
                         WASHINGTON, DC

    Ms. Smith. Mr. Chairman, members of the Committee, thank 
you for an opportunity to be here today. I am going to 
summarize my remarks and ask that the full remarks be included 
in the record.
    On behalf of some 600 members of the United States 
Committee of the International Council on Monuments and Sites, 
we oppose H.R. 883 because we feel that it would limit or deny 
to Americans the opportunity to protect, recognize, and honor 
that of their cultural and natural patrimony which is or could 
be recognized to be, in the language of the World Heritage 
Convention, ``of outstanding universal value'' and worthy of 
the prestige that such recognition by 156 other nations and the 
international community would imply.
    We are a professional membership organization with members 
who represent architecture, archeology, art and architectural 
history, town planning, urban history, archives. Our 
organization was established in 1965 and we're concerned with 
the conservation, protection, rehabilitation, and enhancement 
of historic properties and groups of buildings, historic 
districts and sites, including archaeological sites, and in 
educational and informational programs designed to reflect that 
concern. U.S./ICOMOS is one of a network of independent non-
governmental national committees representing similar 
professions, with more than five thousand members in almost a 
hundred countries, the International Council on Monuments and 
Sites, ICOMOS.
    Membership in ICOMOS, like ratification of the World 
Heritage Convention, we have found seems to be a mark of 
nationhood especially on the part of the newly independent 
states. We heard conversations today about the fact that 
developing countries are not as interested in some of this 
legislation and some of these international conventions as more 
developed countries are. We don't think that is true. We think 
that the ``new'' countries and developing countries are even 
more proud of what they have and even more anxious to have what 
is theirs recognized and protected within their own countries 
and in educational terms by listing on the World Heritage list.
    More importantly in terms of the proposed legislation, H.R. 
883, ICOMOS is one of the two non-governmental bodies, the 
other one being the International Union for the Conservation of 
Nature (IUCN), which are named in the Convention as the 
professional consulting bodies on nominations to the 
Convention. As you know, the Convention is a list of natural 
and cultural or man-made properties that have been determined 
to be of ``outstanding universal value'' to each nation and all 
nations.
    We would like to address those aspects of this bill which 
address the Convention and U.S. participation in it. Rather 
than reducing or limiting U.S. participation, like Russell 
Train, who was instrumental in the development of the 
legislation in the first place and had a long and brilliant 
career on behalf of the American Government under President 
Nixon and others, U.S./ICOMOS would encourage this Committee to 
strengthen and encourage measures which would lead to greater 
U.S. participation in the World Heritage Convention.
    The Convention has its roots in proposals put forward 
during the first Nixon Administration at the Stockholm 
Conference on the Environment in 1972. Russell Train headed 
that U.S. delegation. Subsequently, the U.S. was the first 
nation to ratify that Convention. Since that time, 156 other 
nations have ratified the Convention and some 582 properties, 
117 natural properties, and 445 cultural or man-made, and 20 
mixed, which are both natural and cultural, have been listed on 
the World Heritage list and recognized for their outstanding 
universal value. It is the single most accepted international 
convention or treaty in history.
    In this country, important historic properties such as 
Thomas Jefferson's Monticello and Independence Hall have been 
listed, eight historic properties, and twelve natural 
properties of unique distinction, such as the Everglades and 
Grand Canyon National Park. In other countries, cultural 
properties of such undeniable outstanding universal value as 
the Acropolis, Westminster Abbey, and the Great Wall of China 
have been listed, along with whole towns or urban areas, such 
as Quebec City, Venice and its lagoon, and Islamic Cairo.
    In this country, as in other countries, the nomination of 
properties is a governmental process which determines which 
properties from among its national patrimony it considers to be 
of such ``outstanding universal value.'' In the United States, 
this process is directed by the National Park Service, proposed 
nominations are given careful professional review within the 
Park Service, nominations are reviewed and discussion 
concerning them is then published in the Federal Register. It 
is not a secret process.
    Listing on the World Heritage List includes no 
international legal protection or sanction. Protection for 
nomination or listed properties grows out of the laws and 
statutes of the U.S. or any other nominating countries and the 
country's protective measures must be stated as a part of the 
nomination. In nominating a property, the U.S. or other 
nominating countries are neither limited nor prohibited from 
any proposed use or action except those limits or prohibitions 
that have been established by the country's own laws.
    Nomination forms for properties listed call for a statement 
of laws or decrees which govern the protection of monuments and 
sites, including evidence of a master plan, a land-use plan, 
other plans. The nomination form asks for information as to 
whether these legislative or statutory measures prevent 
uncontrolled exploitation of the ground below the property, the 
demolition or reconstruction of buildings located on the 
property, or permit other significant changes. The nominations 
must also indicate what, if any, measures exist to encourage 
the revitalization of the property.
    To examine specific provisions of H.R. 883, section 2(a), 
nomination and listing do not affect or diminish private 
interest in real property, does not impinge in any way on 
private property rights, does not conflict with congressional 
or constitutional responsibilities, and does not diminish 
private interest in real property.
    What is the value of the Convention and the World Heritage 
list? Those countries that are State Parties participate in the 
convention and that it as a mechanism for encouraging national 
pride, for stimulating education concerning each country's own 
national treasures whether they represent history, cultural, or 
natural wonders. The countries where properties are located see 
listing on the list as a means for economic development, 
particularly in terms of encouraging tourism and visitation, a 
major source of local and foreign investment in many countries. 
In most countries that adhere to the Convention, a World 
Heritage Convention listing is sought because they know that it 
works to stimulate local pride, economic development, and to 
encourage private investment.
    In the United States--I am sorry, I am beyond my time but I 
would like to say this--in the United States, in spite of our 
own heritage, in spite of our beautiful and well-planned 
historic areas such as Savannah, Charleston, New Orleans, 
Georgetown, Annapolis, or San Antonio, no towns are listed. Why 
is that? It is because an element of the 1980 amendments to the 
National Historic Preservation Act had limited the nomination 
process. Even though in other countries their historic 
districts, their historic ensembles or quarters are listed, we 
in the United States cannot nominate ours because of our own 
limiting legislatioin and guidelines for its implementation. 
Many historic communities or towns are very aware of this and 
are very frustrated by the fact that they are not entitled to 
the recognition which historic districts in other countries 
receive.
    We would encourage the House Committee on Resources to give 
serious consideration to the negative impact that H.R. 883 
would have on existing measures for recognition such as the 
World Heritage process. The process grew out of a U.S. 
initiative, the U.S. was the first nation to ratify it, and it 
is a measure which has done much to achieve recognition and 
protection of the cultural and natural heritage which are found 
to be of ``outstanding universal value.'' We see this as a 
program which is benign, constructive, educational, and 
enriching. We would encourage that you try to find ways in 
which it can be strengthened rather than diminished or 
weakened. Thank you.
    [The prepared statement of Ms. Smith may be found at the 
end of the hearing.]
    Mr. Pombo. Thank you.
    Ms. MacLeod?

STATEMENT OF LAUREL MACLEOD, DIRECTOR OF LEGISLATION AND PUBLIC 
      POLICY, CONCERNED WOMEN FOR AMERICA, WASHINGTON, DC

    Ms. MacLeod. Good afternoon. I would like to thank members 
of the Committee for giving me the opportunity to address you 
today. I also request that the full text of my remarks be 
placed in the record.
    I am the Director of Legislation for Concerned Women for 
America and I am here today representing CWA, which is the 
nation's largest public policy women's organization in the 
country, and here representing over 500,000 members.
    As a women's organization, we first became concerned about 
Biosphere Reserves and World Heritage Sites after receiving 
many letters from individuals across the country who claimed 
that their private property rights were being infringed upon. 
We researched the subject and discovered a number of disturbing 
things.
    The biosphere reserve philosophy, as we have already heard 
today, was the brainchild of the United Nations Educational, 
Scientific, and Cultural Organizations, UNESCO. UNESCO still 
directs the international Man and Biosphere Program, which 
coordinates the creation and use of biosphere reserves around 
the world. Here in the United States, our Man and the Biosphere 
Reserve subsidiary, called USMAB, is run through the State 
Department. USMAB nominates land or water sites for Biosphere 
Reserve designation, then UNESCO makes the final designation 
and approves the site. Incredibly, Congress plays no role in 
this process even though there are now 47 Biosphere Reserves in 
the United States, comprising about 44 million acres of land.
    Practically, Biosphere Reserves already have a detrimental 
effect upon private property ownership. For example, the 
boundaries of the Champlain Adirondack Biosphere Reserve, 
called CABR, which is the largest reserve in this nation, 
encompasses land owned by both Federal and State Governments as 
well as private property owners. One USMAB document called 
``Biosphere Reserves in Action'' explains that the biosphere 
reserve managers of CABR are trying to find ``environmentally 
sound solutions'' to problems of ``conflicting'' uses. In other 
words, people, industry, consumption, and technology are the 
``conflicting'' uses that are in the way of environmental 
goals.
    While the USMAB sings the praises of this biosphere reserve 
philosophy, many of the 400,000 people living in it are singing 
a very different song. Hardest hit are the people living on the 
3 million acres of private property that was arbitrarily turned 
into a heavily regulated buffer zone around the Adirondack 
State Park. They were not compensated and reportedly these land 
management decisions have resulted in much poverty and 
unemployment.
    Our members are also very concerned about American 
sovereignty as it relates to the World Heritage Sites. As you 
know, the Statue of Liberty, Independence Hall, Monticello, the 
Florida Everglades, and many other places like that in the 
United States are designated World Heritage Sites in accordance 
with the Convention Concerning the Protection of World and 
Natural Heritage. This ratified treaty requires our government 
to choose monuments and historical sites for special 
designation and preservation. A very reasonable and worthwhile 
activity. However, there is a catch.
    Once a World Heritage Site is designated and approved, any 
preservation questions that arise are sent to the World 
Heritage Committee, and that is a United Nations body that 
answers to UNESCO, not to Congress. This process of dealing 
with preservation questions invites sovereignty problems. For 
example, in 1995, the Crown Butte Mine Company decided to start 
a mining project that was one mountain range removed from 
Yellowstone National Park, which is a World Heritage Site and 
also a Biosphere Reserve. Ninety percent of the proposed mine 
consisted of private mining claims. Yet a coalition of 
environmental groups wrote to the U.N. World Heritage Committee 
and cited the proposed mine along with ``timber harvest, 
homebuilding, new population clusters, and human-bear 
conflicts'' as the dangers that were threatening Yellowstone. 
But remember, these were the things outside the boundaries of 
Yellowstone.
    In response, UNESCO's World Heritage Committee chastened 
the Interior Department, which in turn invited the U.N. 
Committee to come to the United States and examine Yellowstone 
and the mine proposal. The committee came and held a hearing on 
September 8, 1995, and the Committee Chairman from Thailand 
stated that the ``United States has a duty to take steps to 
preserve the Yellowstone ecosystem across administrative 
boundaries of the park. Some 12 million acres of national 
forest and wilderness that surround Yellowstone must be 
considered an extension of the National Park if the whole 
system is to be preserved.'' In other words, a United Nations 
representative came into this country and told our government, 
a sovereign nation, that a large buffer zone should be built 
around Yellowstone, despite the fact that it would certainly 
affect and harm private property owners.
    Later, the World Heritage Committee decided that 
Yellowstone is, indeed, a World Heritage Site in Danger, and in 
1997 Congress appropriated the funds to buy the New World Mine, 
ending the publicity that had highlighted the harm to private 
property rights.
    Members of the Committee, you are the men and women elected 
by citizens in this country to legislate in the United States. 
And it is up to you to defend the private property rights of 
citizens when they are being, in effect, taken away by the 
implementation of decisions made by unelected bureaucrats. The 
over 500,000 members of Concerned Women for America 
wholeheartedly believe that H.R. 883 is needed to bring 
Congress back into a process from which it has been too long 
excluded. Only Congress, not UNESCO, not the Interior 
Department, or the World Heritage Committee can best represent 
the needs of the American people and of our land.
    We applaud Representative Don Young for his tireless work 
on this important legislation, and we respectfully request your 
favorable disposition of this bill. Thank you so much for your 
time and attention to this important matter.
    [The prepared statement of Ms. MacLeod may be found at the 
end of the hearing.]
    Mr. Pombo. Thank you.
    Ms. Smith, do you believe that all of the sites that have 
been designated under these three Acts were deserving of that 
designation, at least the ones within the United States, not 
worldwide?
    Ms. Smith. I can only speak to the World Heritage List and 
the World Heritage Convention.
    Mr. Pombo. Okay, in terms to those?
    Ms. Smith. I would say that the process has been scholarly, 
professional, and with enormous attention to detail. The Park 
Service has been extremely conscientious about its role in the 
nomination of properties. As a matter of fact, in the United 
States we have been even more conscientious about our role in 
terms of the nomination of properties than some other countries 
have been I would say.
    The Convention is such a wonderful tool for education. It 
is such a wonderful tool for making school children and adults 
understand the value of our past and the importance of 
retaining that past for our future. I think that everything 
that we have nominated indeed merited listing.
    Mr. Pombo. May I ask, why are you concerned that if there 
was another step in the process that required congressional 
approval that it would somehow, and I don't remember your exact 
quote, but in your oral testimony you said something to the 
effect that this would take away from the American people 
something. Do you believe that Congress would take away any of 
the current World Heritage Sites that are listed in this 
country?
    Ms. Smith. No, I don't think there would be--I can't 
imagine that there would be any measures to reduce our current 
listings.
    Mr. Pombo. That is a pretty inflammatory statement that you 
made in your oral testimony. I am just wondering which sites 
you think were not deserving or you believe that Congress would 
not approve.
    Ms. Smith. No, on the contrary, I think that there are 
others which should be listed. That is my concern.
    Mr. Pombo. Are they not as deserving as the ones that are 
on the list? Would the case be much harder to make on the ones 
that you think should be listed?
    Ms. Smith. No. It is a very deliberative process.
    Mr. Pombo. Why do you believe then that if this bill were 
enacted into law and it required another step that said 
Congress had to approve that we would somehow not find these 
sites deserving or not find these sites up to snuff in terms of 
putting them on the World Heritage List?
    Ms. Smith. I have two concerns. One is that I have long 
been concerned about the fact that no historic district in this 
country is listed on the World Heritage List whereas every 
other country in the world has nominated historic districts to 
the World Heritage List.
    Mr. Pombo. I will give you that. I am just wondering what 
another step in the process that required congressional 
approval would--do you believe that Congress would look at the 
historical districts and say these are not worthy of being 
listed and we don't want to nominate them?
    Ms. Smith. The process for the nomination of historic 
districts includes the requirement that all private property 
owners consent to the listing of their properties. That is what 
has limited their nomination.
    Mr. Pombo. That is under current law?
    Ms. Smith. Yes. The 1980 amendments and Interior's 
guidelines for their implementation.
    Mr. Pombo. So if we had another step in the process that 
required congressional approval, it would not affect what you 
are speaking to right now?
    Ms. Smith. I would like to see the Congress look 
differently at the nomination of districts because World 
Heritage Listing does not affect anything that a private 
property owner can do with his property in a city or in a rural 
area.
    But as far as the other properties, the National Park 
Service has not nominated a U.S. property to the World Heritage 
List for about five or eight years. And for the last five or 
eight years every other country in the world has been 
nominating properties and they have been going on and on and 
on. Next week ICOMOS in Paris will consider 57 new nominations 
which have been put forward this year, none from the United 
States. None last year. None the year before. And all of this 
is because the Park Service is very reluctant to nominate 
properties and because of the limits on historic district 
nominations.
    Mr. Pombo. It is very confusing to me, and I am sure to 
others as well, that proponents of these programs always say 
that there is nothing here, there are no restrictions, there 
are no problems, there is no power, there is no regulatory 
authority, there is nothing to be afraid of under these 
programs. But you are so concerned that Congress might have to 
approve this. I don't understand how you get from a totally 
voluntary program that is just a recognition of the importance 
and everything, that you are so terrified that Congress would 
have to approve those that you come in here and you say this is 
going to deny future generations the historical areas if we 
have congressional approval of nominations. How do you get from 
that to that?
    That is very inflammatory rhetoric that has very little to 
do with what we are talking about. We are saying, and there 
many people, including myself, who believe that there is a 
constitutional duty on the part of Congress to approve joining 
in on any of these. And whether it is the World Heritage Sites 
or the Man and the Biosphere, whatever it is, maybe some of 
them are deserving, maybe some of them are not, I don't know, I 
have not, like you, spent all the time studying these and 
learning all about them. Maybe it is a good program, maybe it 
is not. But why is everybody so afraid of saying Congress has 
to approve it?
    Ms. Smith. I don't think anybody is afraid and we certainly 
don't wish to inflame the rhetoric on the question of the World 
Heritage List. I think that we feel that Congress should be 
encouraging the listing of properties on the World Heritage 
List.
    Mr. Pombo. And they may. That may be exactly what happens. 
Myself or Mr. Inslee, or any other member of the Committee, may 
be in here saying I have got a great site in my district that 
should be on the World Heritage Site list. I would venture to 
say that Mr. Lindsey and his representative is probably not 
going to be in here saying that is the perfect site to be on 
there. But I am sure there will be members in here saying they 
have something they think ought to be put on there and would 
become the strongest advocates of the program. But everybody is 
so terrified. If there is nothing here, you know, don't pay 
attention to the man behind the curtain, if there is nothing 
here, then why are you afraid? And I am not putting words in 
your mouth. You said this would take away from future 
generations the enjoyment of our history and culture--for 
Congress to approve these?
    Ms. Smith. Another layer of approvals makes it even more 
difficult to nominate and recognize properties than is the case 
today.
    Mr. Pombo. That very well may be true and I will not 
quibble with you on whether or not that is in fact true, 
because I believe it is true. But there are many people, 
including myself, who believe that we have a constitutional 
duty and responsibility that before any American properties, 
whether voluntarily or not, are put in a World Heritage Site we 
have a responsibility to act. I don't know why that should 
concern you.
    Unfortunately, my time has expired. I am going to recognize 
Mr. Inslee for any questions he may have at this point.
    Mr. Inslee. Mr. Chair, our side of the aisle would 
certainly defer to the Chair if you want to proceed for a 
period, if I could reserve some time at the end.
    Mr. Pombo. I would be happy to. I will keep going, so if 
you want to--Just give me another five minutes and I will pass 
on the next round.
    Mr. Inslee. That is great. If you would just reserve a 
couple minutes for me at the end, I would appreciate it.
    Mr. Pombo. Thank you.
    Mr. Lindsey, so that I understand the process that you went 
through, how did you find out that your property was being 
suggested for listing under the RAMSAR Treaty?
    Mr. Lindsey. Our neighbor read it in the paper, actually, 
in the Phoenix Republic and sent us the article from the paper.
    Mr. Pombo. You were not the one who went forward and 
suggested that? From the previous testimony that we heard from 
the Administration, I was led to believe that all of these 
sites are nominated by the property owners and by the local 
people. That is not the case?
    Mr. Lindsey. No. It took us very much by surprise. We don't 
figure we need to be under the RAMSAR Convention, sir. So no, 
that is not the case.
    Mr. Pombo. So it wasn't your idea? In fact, you opposed it?
    Mr. Lindsey. In fact, I am opposing it. Yes, sir.
    Mr. Pombo. And was it your neighbors who had nominated the 
property? Was it a group of neighbors that all got together and 
nominated the property and they just didn't talk to you about 
it?
    Mr. Lindsey. No, sir. It was a local environmental group 
based in Tucson called the Southwest Center for Biological 
Diversity.
    Mr. Pombo. And you said Tucson was 75 miles?
    Mr. Lindsey. Yes, sir, 75 miles.
    Mr. Pombo. So it was not local people that were doing this?
    Mr. Lindsey. No, sir.
    Mr. Pombo. Do any of your neighbors belong to that group? 
Are they the ones who brought that group in and said this is 
something we should do?
    Mr. Lindsey. No, sir. I believe the reason they petitioned 
to have it listed was because of the Endangered Species Act. 
They did find that orchid there and it states in the article 
that it will give them international oversight over these 
endangered species.
    Mr. Pombo. Are you familiar with the Endangered Species 
Act?
    Mr. Lindsey. Very much so, yes, sir.
    Mr. Pombo. Would you under current law be able to change, 
destroy, harm, harass the habitat of the endangered species?
    Mr. Lindsey. Not of the plants, sir. The way the Endangered 
Species Act is written, actually the Federal Government, thank 
you, Lord, has no jurisdiction over a plant on private 
property. And this is one of the reasons I feel that this same 
environmental group that sued for that listing, by the way, 
this is why I feel that they went ahead and petitioned Babbitt 
to have this listed as a RAMSAR site so they could have that 
oversight of our private property.
    Mr. Pombo. This is interesting because under current U.S. 
law under the Endangered Species Act, plants that are listed as 
endangered are not regulated on private property.
    Mr. Lindsey. Exactly.
    Mr. Pombo. If this was listed as a RAMSAR site and there 
were some international designation over this property, how 
could that possibly affect you?
    Mr. Lindsey. I don't know, sir, if you have read anything 
in the RAMSAR Treaty, Convention on Wetlands of International 
Importance. This is the Convention's strategic plan for 1997 to 
2002. It states the Convention of Wetlands of International 
Importance, Especially Waterfowl Habitat, ``to integrate 
conservation and wise use of wetlands and all contracting 
parties into national, provincial, and local planning and 
decision-making on land-use, ground water management, 
catchment, river basin, and coastal zone planning, and all 
other environmental planning and management.'' That's a broad 
brush, sir. Something, as I say, we don't feel that we need to 
have implemented on our private property.
    Second, the introduction states that ``Through this plan, 
the Convention's long-standing technical work in wetlands is 
strengthened and new catalytic role in the development and 
assistance of community is established. The Convention's 
technical and policy work becomes more closely related to the 
broader concerns of the Convention on Biological Diversity and 
its traditional involvement with water fowl is related more 
clearly to the Convention of Migratory Species.'' This is 
mission creep, sir. This is not what this RAMSAR Treaty was 
written to do.
    Mr. Pombo. The interesting point about it is that 
proponents of these programs, opponents of this legislation 
continue to say that there is no regulatory authority, there is 
nothing that they can do.
    Mr. Lindsey. I wonder how many of those people, sir, have 
landed inside those biosphere regions, how many of those 
people's private land that has been in their family for years 
is being considered for a RAMSAR Treaty? It is all right for us 
out West. Out West, we are a whole different ball of wax, it is 
a whole different game out there, as you well know being from 
California, sir.
    Mr. Pombo. I am seventh generation cattleman and fifth 
generation on my ranch. So I can understand what you are 
talking about.
    Mr. Lindsey. Yes, sir.
    Mr. Pombo. Mr. Rovig, I had a question about the situation 
that you found yourself in. Did you ask to be included within 
the World Heritage Site, the Yellowstone listing? Did you 
invite people----
    Mr. Rovig. Absolutely not. We, too, read about it in the 
paper.
    Mr. Pombo. You read about it in the paper?
    Mr. Rovig. Correct.
    Mr. Pombo. So in your case it was not voluntary?
    Mr. Rovig. Absolutely not.
    Mr. Pombo. Was it your neighbors that wanted to include you 
within the site?
    Mr. Rovig. By any normal definition of neighbor, certainly 
not.
    Mr. Pombo. The adjoining property owners?
    Mr. Rovig. No, none of them.
    Mr. Pombo. Who wanted to include you?
    Mr. Rovig. A group of environmentalists primarily out of 
the Bozeman area. The Greater Yellowstone Coalition took it 
upon themselves to----
    Mr. Pombo. Forgive me. How close is that to your property?
    Mr. Rovig. By road, Bozeman would be about 150 miles.
    Mr. Pombo. So they would not be considered locals?
    Mr. Rovig. No.
    Mr. Pombo. Was it a grassroots movement from within the 
local community that----
    Mr. Rovig. Of course not. It is a coalition of national and 
possibly even international environmental groups.
    Mr. Pombo. I am just trying to square the testimony that we 
received earlier with what actually happens. We are told that 
it is a grassroots movement, it is local people, it is people 
nominating their own properties. Tell me about the site that 
you had. Is it somewhat unique from the surrounding properties?
    Mr. Rovig. It is unique in that it is private ground. 
Nearly everything around us is Federal ground in some fashion 
or another. But topographically and geographically, no, it is 
not unique. It is in a mountain range that goes tens if not 
hundreds of miles in every direction.
    Mr. Pombo. I have had the opportunity to fly over that 
particular area in a little Cessna and it looked the same for a 
long time.
    Mr. Rovig. It looks the same for a very long time. You fly 
over it in a 727 and it looks the same for quite a while.
    Mr. Pombo. That it does.
    Mr. Rovig. This property was oftentimes portrayed as being 
in Yellowstone Park when, in fact, it is about three miles 
northeast of the most northeastern corner of the park. As Ms. 
MacLeod indicated, it was a mountain range away. In fact, it is 
two mountain ranges away where all of the facilities would be. 
There would have been no possibility of any visual intrusion 
into the park from the proposed operation.
    Mr. Pombo. You have been in the mining business for a long 
time.
    Mr. Rovig. Yes, sir.
    Mr. Pombo. I looked at your biography. If you were to go 
out and start a mine today, how difficult would it be to go 
through U.S. environmental standards before you could open that 
mine?
    Mr. Rovig. Difficult enough that I am not going to try it 
again.
    Mr. Pombo. Give me an estimate of months it would take to 
get it approved.
    Mr. Rovig. Well, to give you some specific examples. In the 
State of Montana, one mine trying to be permitted by Asarco, a 
major corporation, has been in the Environmental Impact 
Statement process for twelve years.
    Mr. Pombo. Twelve years?
    Mr. Rovig. Yes, sir. It is not uncommon in the United 
States for mine permitting to take in excess of five years. 
That one, I agree, is perhaps a bit of an anomaly. But five or 
more years is not out of the norm.
    Mr. Pombo. In your experience, would you be fairly 
comfortable in testifying here today that any mine that would 
be approved for operation within the United States would be 
environmentally safe and sound?
    Mr. Rovig. Every modern mine that is permitted under the 
NEPA and various State policies in recent years has proven to 
be a very good neighbor, environmentally and in every other 
way. Too often, people are trying to make the case that a mine 
today will result in events that happened yesteryear. But in 
fact, there are more regulations put I think on the mining 
industry than anything but maybe the nuclear industry now. At 
the New World, we were going to have to achieve I believe it 
was 37 Federal permits and about 14 State permits to take that 
thing forward.
    Mr. Pombo. The folks that took I think you said a bus tour 
of the site, are you familiar with what countries all of those 
folks were from?
    Mr. Rovig. Right now, I can't tell you where they were 
from. They were all from well outside the U.S. The chairman was 
from Thailand, I believe one was from Germany, and I don't know 
where the other two were from.
    Mr. Pombo. All right. Thank you.
    Mr. Inslee, I will give you an opportunity, or I will go to 
Ms. Chenoweth if you want to question.
    Mr. Inslee is recognized.
    Mr. Inslee. Thank you.
    Mr. Lindsey, what does a Ladies Tress look like, that 
plant?
    Mr. Lindsey. It grows six to twelve inches high. You know 
how an orchid looks, it has got little spikelets on it that go 
like that.
    Mr. Inslee. It is not a problem for your cattle operations 
itself, there are no toxins or anything involved?
    Mr. Lindsey. No, sir. Actually, like I said, it is found in 
five different places that they know of in Southeast Arizona, 
four of those places are grazed, one place isn't. It is doing 
the best, according to the Federal Register, on our place, and 
the other three grazed follow in suit. It is not doing well 
where it isn't grazed because, of course, plants grow up around 
it and nothing poops on it, so it doesn't get the fertilizer 
and the sunlight that it needs.
    Mr. Inslee. How do you feel, generally speaking, about 
efforts to preserve that plant? Do you think that is a good 
idea or not a good idea, or does it matter to you?
    Mr. Lindsey. It is a good idea. My family has been 
preserving it for 89 years now. We have been ranching cattle on 
that place and my family has been preserving it for 89 years. 
See, they don't have a history on this plant. It was found on 
our place in 1968 by some school teachers that took us on a 
little field trip when I was a young kid and they discovered it 
there. They don't know if this plant grew in every canyon. They 
don't know anything about this plant. Just all of a sudden it 
shows up and now we have got an environmental group here that 
has an agenda and so they want it listed as endangered.
    Mr. Inslee. Do I take it then that you sort of agree with 
reasonable steps to preserve it, that's okay with you?
    Mr. Lindsey. Sure.
    Mr. Inslee. Okay.
    Mr. Lindsey. Let me restate that. I'm sorry. Reasonable 
steps to preserve it as long as nobody comes on my private land 
and tells me how to do it.
    Mr. Inslee. Okay. What do you think should be done to help 
preserve it?
    Mr. Lindsey. I think we better leave it like it is because 
if we start helping to preserve it, after 89 years in my family 
of cattle grazing and historically from the 1700s cattle have 
been in that area, if we start fencing it off and trying to 
preserve it, as we as humans do, that bugger is going to die.
    Mr. Inslee. Has anybody attempted to restrict your cattle 
operations or ordered you to reduce your number of head or 
anything like that?
    Mr. Lindsey. No, sir, not as of yet. As I said, the Federal 
Government, the U.S. Fish and Wildlife Service does not have 
any jurisdiction over that plant and it is not listed with the 
State yet.
    Mr. Inslee. So at least to date there is no intrusion on 
your operations by the Federal Government or these RAMSAR 
agreement folks?
    Mr. Lindsey. Exactly. Today.
    Mr. Inslee. So as I understand it, as of this moment nobody 
has tried to interfere with your operation?
    Mr. Lindsey. No, sir.
    Mr. Inslee. So I guess you are saying you are just 
concerned that could happen in the future?
    Mr. Lindsey. You bet.
    Mr. Inslee. Okay. Now let me tell you what I know about 
this and then I'm going to ask a question. What I know about 
this treaty, as far as I can tell, it doesn't give any 
international authority the right or privilege in any way, 
shape, or form to impose a regulatory burden on a property 
owner in the United States. It doesn't give them the ability to 
order you to reduce your head, it doesn't give them the ability 
to order you not to graze on that 60 acres where this cienega--
how do you pronounce that?
    Mr. Lindsey. Cienega.
    Mr. Inslee. Cienega, where that is. It doesn't give any of 
these groups that authority to do that. What it does do is it 
allows them apparently to shine some public attention to this 
issue, but it does not give them ability to regulate 
specifically your operations.
    Now if that is true, if that is true that nobody can 
regulate your land under these treaties, I am not asking you to 
accept that, if that is true, do you have a problem with it 
then if they can't regulate it?
    Mr. Lindsey. You bet, because this is my private property, 
sir. That is something that my great-grandfather homesteaded. 
The pursuit of happiness, okay, he wanted to do this. He 
settled there with the Federal Government's blessing. We don't 
need that. The Endangered Species Act was signed into law in 
1972 and it didn't start biting us on the rear ends until the 
1990s. So if that happens now, you understand what I am saying. 
Why do that on private property, especially if it doesn't let 
anybody have any jurisdiction? That is what I asked them about 
this species, why list it, why go through all those hoops, why 
spend the taxpayers' money when it is found in five places and 
everyone of those places is private property? Why list it 
period? Why not just leave us alone?
    Mr. Inslee. I appreciate your comments. My time has run 
out.
    Mr. Rovig, do I understand that the property you are 
describing that was subject to this potential mine, none of it 
was in an area listed or designated by any of these treaties? 
Is that accurate?
    Mr. Rovig. When we got there, that is correct.
    Mr. Inslee. Was there a proposal to list your specific 
identified fee-title held property or property that held 
mineral rights on it, was there any designation of your 
property by any of these treaties?
    Mr. Rovig. I don't know how specific the designation was, 
but certainly the whole visit was based on the idea that the 
New World Mine was somehow or other going to endanger 
Yellowstone Park and the area. The whole effort was focused on 
that point.
    Mr. Inslee. But do I understand correctly, and I have been 
told this is true, I just need you to confirm it or say it is 
inaccurate, that in fact there was no designation of your 
property under these treaties? Is that accurate?
    Mr. Rovig. Specifically, that is correct, yes.
    Mr. Inslee. Thank you, Mr. Chairman.
    Mr. Pombo. Thank you.
    Mrs. Chenoweth. [presiding] It looks like we are going to 
be calling for a vote right away. So I will just finish up with 
my questioning.
    Mr. Lindsey, welcome to the Committee. I have heard you 
before and I appreciate your coming. Regarding the Canelo Hills 
Lady Tresses, I understand that the Nature Conservancy has some 
property adjacent to yours or very close to yours.
    Mr. Lindsey. Yes, ma'am.
    Mrs. Chenoweth. And are they one of the four properties 
that you were referring to with regards to how successful this 
endangered species is?
    Mr. Lindsey. No, ma'am. No, not successful.
    Mrs. Chenoweth. Can you tell me, do both properties have 
similar densities of this particular species?
    Mr. Lindsey. No, ma'am. We have more on our property. 
According to the biologist for the Nature Conservancy, there 
are more plants growing on our property.
    Mrs. Chenoweth. And you are grazing on your property?
    Mr. Lindsey. Yes, ma'am.
    Mrs. Chenoweth. Okay. Thank you.
    Mr. Rovig, with regards to any potential designation on the 
New World Mine, wasn't it true that there was an understanding 
there was a buffer zone outside of the designated border for a 
Biosphere Reserve and the World Heritage Site?
    Mr. Rovig. The folks that have self-appointed themselves to 
take care of that area have continually called it the Greater 
Yellowstone Ecosystem, and I believe that is what the World 
Heritage Committee was focusing on is that, yes, there would 
clearly have to be a buffer zone of who knows how large 
surrounding it.
    Mrs. Chenoweth. But you did not realize that this may 
impact your operation of the mine? You had not been advised of 
that ahead of time?
    Mr. Rovig. We were advised of nothing regarding the U.N. 
visit, that is correct.
    Mrs. Chenoweth. Do you think that the World Heritage 
Committee's action regarding the New World Mine had an adverse 
effect on the New World property at all?
    Mr. Rovig. Oh, I don't think there is any question about 
it. It was just one of several stepping stones that were used 
to hijack the process. There was an EIS in place that was soon 
to come out in draft form and I think the general consensus was 
that it would come out showing the New World Mine could have 
gone ahead rather smartly and complied with all environmental 
concerns. I think that is the reason that this hijacking took 
place.
    Mrs. Chenoweth. Are you pleased with the outcome?
    Mr. Rovig. I am disgusted with the outcome.
    Mrs. Chenoweth. I am glad to get that on the record. I am, 
too.
    Mr. Rovig. I am glad to put it on the record.
    [Laughter.]
    Mrs. Chenoweth. Again for the record, wasn't the New World 
Mine project on private land outside the World Heritage Site?
    Mr. Rovig. It clearly was outside the Yellowstone Park 
boundary by about three miles. It was largely on private land. 
The reserve was about 90 percent under private holdings. Yes, 
there were some mining claims on Forest Service land that would 
have been part of the project. They would have been primarily 
mill sites.
    Mrs. Chenoweth. When did discovery take place at that site?
    Mr. Rovig. Discovery of that site took place, as far as we 
know, in the 1860s. But as far as my involvement, I bought the 
first piece of property up there in 1982, acquired the second 
piece in 1987, and we really from 1987 forward made the world 
class discovery of the New World Mine.
    Mrs. Chenoweth. But from discovery until it was taken over, 
it had been in continuous operation? What was the history 
there?
    Mr. Rovig. From 1987, we had continual operations save 
during some of the winter months when it just was impossible. 
But the project certainly was going forward but without some of 
those site operations. We tried drilling through one winter and 
it just was not physically possible up there.
    Mrs. Chenoweth. Okay. But there had been enough activity on 
the mine to keep the site active from discovery until 1987?
    Mr. Rovig. Oh, absolutely. We had six or seven drills 
running most of the time that we could access the property.
    Mrs. Chenoweth. Thank you, Mr. Rovig.
    Mr. Lindsey, I understand that you wrote a poem about the 
proposal to designate your property as a RAMSAR wetland.
    Mr. Lindsey. Yes, ma'am.
    Mrs. Chenoweth. For the record, I wonder if you would share 
that with the Committee?
    Mr. Lindsey. Yes, ma'am. When I first started, I said a 
country's most important natural resource is their children and 
I said that my wife and I have nine children, five boys and 
four girls. With all my heart, I want to pass this ranch on to 
them. Only 2 percent of the Nation, as we know, is raising the 
food for the rest of the 98 percent because it is a hard way to 
make a living, and now with government regulations it is even 
harder. And I wrote this poem, and I can get kind of emotional 
when I quote this poem.
    ``We was riding on the mountain up above the old Page 
place, right smack dab on top of Page Peak overlooking a lot of 
space.
    To the northeast lay Aljarita and to south there lay the 
rough, and gathering cows in this country is usually pretty 
tough.
    But today I wasn't worried cause I knew I had the best, I 
had my five boys with me, there was Joshua, and Jake, and Nest,
    And little Joe and Nathan they was riding with us too, and 
when it comes to catching wild cows, these boys has caught a 
few.
    So I sent Joshua and Jake to the northeast and the rest 
they all went south, that left me and my cow dog Sally and 
she's a foaming at the mouth.
    But I says wait a minute Sally, I need some time to think, 
and I leans across my saddle and my heart begins to sink.
    I says there goes the sixth generation to ranch this old 
rock pile, the cowboy life is what they want, they don't want 
that city style.
    But it seems some arm-chair ecologists don't think that 
sixth generations is enough, cause they've got that college 
learning and all that book-reading stuff.
    Well they found an endangered orchid and a water dog and a 
floating plant, and next you know they'll find a bug or some 
endangered ant.
    They want to take away this ranch and take away my right to 
graze, and now an international treaty has been added to this 
maze.
    Soon, one nation indivisible will be governed by foreign 
laws, by countries that can't even run themselves they've got 
so many flaws.
    Well my great-great-grandpa, my great-grandpa, my grandpa, 
and my dad, each passed this ranch on to their boys and, be it 
good or bad,
    This country is in good enough shape to run javelina, and 
lions, and deer, things I see most everyday and their 
extinction isn't near.
    Well I guess I'll just quit worrying. Sally she's chomping 
at my leg, she wants to catch a cow so bad she's like a powder 
keg.
    And look, them boys they've caught a cow and they've tied 
her to a tree, but I guess I'll just quit worrying and ride on 
down and see.''
    Thank you.
    Mrs. Chenoweth. Thank you, Mr. Lindsey. That's a fitting 
closure to this very interesting hearing.
    I want to thank the panelists for your witness and your 
testimony on this issue. Thank you very, very much. And as you 
know, you have ten working days to amend your testimony should 
you wish.
    The staff may have questions, likely they will, and so we 
would appreciate your answers to additional questions as 
quickly as possible.
    Thank you very much.
    This hearing is adjourned.
    [Whereupon, at 4:30 p.m., the Committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional material submitted for the record follows.]
           AMERICAN LAND SOVEREIGNTY PROTECTION ACT--H.R. 883

BRIEFING PAPER

INTRODUCTION

    Designation of United Nations' World Heritage Sites, RAMSAR 
Sites and Biosphere Reserves results in centralization of 
policy-making authority at the Federal level, particularly in 
the Executive Branch. It also results in reduced input into 
land use decisions by state and local government and 
individuals. These designations also affect the use and market 
value of private lands adjacent to or intermixed with Federal 
lands. The American Land Sovereignty Protection Act (H.R. 883) 
requires specific approval of Congress before any area within 
the U.S. is included in an international land reserve and 
protects the property rights of neighboring landowners. The 
bill currently has 142 cosponsors. A similar bill, H.R. 901, 
passed the House in the 105th Congress by a vote of 236-191.

BACKGROUND

    The objectives of H.R. 883 are to preserve the sovereignty 
of the United States over our own lands and to protect state 
sovereignty and property rights in adjacent non-Federal lands.
    H.R. 883 asserts the power of Congress, established by the 
Constitution, over management and use of lands belonging to the 
United States. The international agreement covering World 
Heritage Sites, for example, largely leaves Congress out of the 
process. The bill reforms this process by requiring clear 
Congressional approval before lands within the United States 
can be included in these international agreements.
    United Nations Biosphere Reserves, RAMSAR Sites and World 
Heritage Sites are under the jurisdiction of the United Nations 
Educational, Scientific and Cultural Organization (UNESCO). 
World Heritage Sites are natural sites or cultural monuments 
recognized by UNESCO under ``The Convention Concerning 
Protection of the World Cultural and Natural Heritage.'' RAMSAR 
Sites are wetlands recognized by UNESCO under the ``Convention 
on Wetlands of International Importance especially as Waterfowl 
Habitat.'' Biosphere Reserves are part of the U.S. Man and 
Biosphere Program which operates in conjunction with a 
worldwide program under UNESCO. The U.S. program operates 
without legislative direction, is not authorized by Congress, 
nor is the program part of an international treaty. Over 68 
percent of the land in our National Parks, Preserves and 
Monuments have been designated as a United Nations World 
Heritage Site, Biosphere Reserve or both. Biosphere Reserves 
alone cover an area about the size of Colorado, our eighth 
largest state. There are now 47 UNESCO Biosphere Reserves, 15 
RAMSAR Sites and 20 World Heritage Sites in the United States.

ANALYSIS

    In creating international land use designations, such as 
Biosphere Reserves, World Heritage and RAMSAR Sites, through 
Executive Branch action, the United States may be indirectly 
implementing international treaties, such as the Convention on 
Biological Diversity, to which the United States is not a party 
or which the United States Senate has refused to ratify. For 
example, the Strategic Plan for the U.S. Biosphere Reserve 
Program published in 1994 by the U.S. State Department states 
that a goal of the U.S. Biosphere Reserve Program is to 
``create a national network of biosphere reserves that 
represents the biogeographical diversity of the United States 
and fulfills the internationally established roles and 
functions of biosphere reserves [emphasis added].'' 
Furthermore, the Seville Strategy for Biosphere Reserves, which 
was adopted in late 1995 and establishes the international 
goals of the Man and Biosphere Program, recommends that 
participating countries ``integrate biosphere reserves in 
strategies for biodiversity conservation and sustainable use, 
in plans for protected areas, and in the national biological 
diversity, strategies and action plans provided for in Article 
6 of the Convention on Biological diversity.''
    Also disturbing is that designation of Biosphere Reserves 
and World Heritage Sites rarely involve consulting the public 
and local governments. In fact, UNESCO policy apparently 
discourages an open nomination process for World Heritage 
Sites. The Operational Guidelines for the Implementation of the 
World Heritage Convention state:

    ``In all cases, as to maintain the objectivity of the evaluation 
process and to avoid possible embarrassment to those concerned, State 
[national] parties should refrain from giving undue publicity to the 
fact that a property has been nominated for inscription pending the 
final decision of the Committee on the nomination in question. 
Participation of the local people in the nomination process is 
essential to make them feel a shared responsibility with the State 
party in the maintenance of the site, but should not prejudice future 
decision-making by the committee.''
    A number of local elected officials have testified in previous 
oversight hearings that they were never consulted about plans to 
designate Biosphere Reserves and World Heritage Sites in their areas.
    In making these international land designations, the United States 
promises to protect designated areas and regulate surrounding lands if 
necessary to protect the designated site. Honoring these agreements 
could force the Federal Government to prohibit or limit some uses of 
private lands outside the boundaries of the designated area unless our 
country wants to break a pledge to other nations. At a minimum, this 
puts U.S. land policy-makers in an awkward position. Federal regulatory 
actions could cause a significant adverse impact on the value of 
private property and on the local and regional economy. The involvement 
of the World Heritage Committee in the Environmental Impact Statement 
process for the New World Mine Project, which was located on privately 
owned land near Yellowstone National Park, exemplifies this problem. 
Creation of a buffer zone, possibly ten times as large as the park was 
suggested by at least one member of the Committee.
    It is clear from the Yellowstone example, that at best, World 
Heritage Site and Biosphere Reserve designations give the international 
community an open invitation to interfere in domestic land use 
decisions. More seriously, the underlying international land use 
agreements potentially have several significant adverse effects on the 
American system of government. The policy-making authority is farther 
centralized at the Federal/Executive Branch level, and the role that 
the ordinary citizen has in the making of this policy through their 
elected representatives is diminished. The Executive Branch may also 
invoke these agreements in an attempt to administratively achieve an 
action within the jurisdiction of Congress, but without consulting 
Congress.

LEGISLATIVE HEARING

    Ten witnesses, including the Hon. Jeane J. Kirkpatrick, Ambassador 
to the U.N. during President Reagan's Administration, will testify at 
the legislative hearing on H.R. 883, at 1:30 p.m. on March 18, 1999. 
For the Administration, Ms. Melinda L. Kimble, Acting Assistant 
Secretary of State for Oceans and International Environmental and 
Scientific Affairs, will testify on behalf of the State Department and 
Ms. Kate Stevenson, Associate Director for Cultural Resources, 
Stewardship and Partnership, National Park Service, will testify on 
behalf of the Interior Department. Dr. Jeremy Rabkin, a professor in 
the Department of Government at Cornell University, will discuss the 
Constitutional problems with international agreements such as the 
Convention Concerning Protection of the World Cultural and Natural 
Heritage. Remaining witnesses include a former mining executive 
associated with the New World Project, an Arizona rancher, a 
representative from the Concerned Women for America, a representative 
from a historical preservation group and a representative from a labor 
organization.

Staff Contact: John Rishel (x60242).
                                 ______
                                 
     Statement of Jeane Kirkpatrick, Leavey Professor, Georgetown 
        University, Senior Fellow, American Enterprise Institute
    I thank the Committee for inviting me to comment on H.R. 883. My 
comments will be brief and reflect my U.N. experience and reflection on 
that experience.
    1. I served as U.S. Permanent Representative to the United Nations 
at the time the United States made the decision to withdraw from 
UNESCO. We made that decision slowly and carefully because the fraud, 
waste and mismanagement of that organization had reached truly shocking 
levels and resisted our serious efforts at reform. I note that neither 
the Bush nor the Clinton Administration has proposed rejoining UNESCO. 
(There is general agreement that very modest progress has been made in 
UNESCO's practices.) The United States, however, continued to 
participate in the Biosphere Reserve Program and the World Heritage 
List Program sponsored by UNESCO.
    2. I note that the United Nations is a highly political body in 
which most countries act on most issues on the basis of group 
identifications and blocs, (rather than a conception of a general 
good). A large portion of the issues with which the U.N. deals pit 
haves against have nots even though these dimensions have little 
relevance to the issues at hand in any particular case. Most alignments 
on most issues are highly unfavorable to the United States and there is 
little we can do to change this. The most powerful, more less permanent 
majority, is the bloc of less developed countries still usually called 
the G-77. It's positions usually reflect ``Third World'' ideology. The 
continuing influence of formerly colonial countries--United Kingdom, 
France, Belgium, Netherlands--in these countries gives those 
governments a substantially larger influence in and on the G-77 than 
the United States. It is also worth noting that the European Union 
itself constitutes a bloc of 16-17 members (votes) while the United 
States is one. The point is that the United States has a permanent 
disadvantage in U.N. arenas.
    3. The 1972 Convention Concerning the Protection of the World 
Cultural and Natural Heritage provides a system for international 
recognition for sites of great cultural, historic or natural 
significance. The World Heritage Committee developed a list of World 
Heritage Sites of which there are now some four dozen sites in the 
United States. Like the ``Man and the Biosphere Program,'' RAMSAR and 
Biosphere Reserves, the World Heritage Sites are ``overseen'' by 
UNESCO. These oversight functions are sometimes intrusive and these 
programs have become very controversial, especially after the 
involvement of the World Heritage Committee in the Crown Butte Mine 
controversy by putting Yellowstone Park on its list of sites ``in 
danger.''
    Currently, over one hundred Congressmen have responded to this 
growing controversy by sponsoring an ``American land Sovereignty 
Protection Act,'' which will require that Congress approve on a case by 
case basis international land designations in the United States, 
restore Congressional oversight of these programs, protect the rights 
of private owners since the Article 4, Section 3 of the U.S. 
Constitution states: ``The Congress shall have Power to dispose of and 
make all needful Rules and Regulations respecting the Territory or 
other Property belonging to the United States.''
    At issue is who will decide, who should decide, and what would be 
the consequences of giving Congress a larger role versus permitting the 
role of UNESCO oversight in the United States to continue and to 
continue to expand.
    The Administration considers this legislation an unnecessary and 
undesirable violation of international obligation; which have been 
assumed and not compatible with sound conservation and environmental 
policy.
    Supporters of this legislation believe that it restores Congress' 
constitutional role, protects property rights and American sovereignty, 
and will result in a solid, sound environmental policy.
    I agree. International committees--whatever the substance of their 
decisions--do not represent the American people and cannot be held 
accountable by them. They do not know American problems in detail, do 
not feel the consequences of their decisions and suffer no penalties 
for their mistakes. Nothing less than self-government and private 
property are at stake.
                                 ______
                                 
Statement of Melinda L. Kimble, Acting Assistant Secretary of State for 
    Oceans and International Environmental and Scientific Affairs, 
                          Department of State
    Mr. Chairman and Members of the Committee:
    Thank you for providing the opportunity to comment on H.R. 883. I 
am here today because this bill includes specific provisions relating 
to oversight of the Convention on the Protection of the World Cultural 
and Natural Heritage (known as ``the World Heritage Convention''), the 
U.S. Man and the Biosphere Program (called ``U.S. MAB'') and also has 
impact upon the Ramsar Convention on Wetlands. These are initiatives 
that the Department of State supports, either administratively or 
financially, or both. They are components of the Administration's 
international strategy for environmental diplomacy.
    As you know, environmental issues form a cornerstone of United 
States foreign policy. Modest investments on behalf of the environment, 
at home and abroad, bring significant payoffs to our national economy, 
health, domestic environment, and quality of life. In pursuing this 
mandate, the United States has a strong policy of international 
engagement on environmental issues. Secretary Albright has stated: 
``Today, environmental issues are part of the mainstream of American 
foreign policy.''
    The World Heritage Convention and the U.S. Man and the Biosphere 
Program contribute to this overall mission. Both function well, at 
minimal cost and with minimal burden on our government and our 
citizens. Aside from aiding in international environmental diplomacy 
and providing a forum by which the United States has been able to 
assert successfully influence and leadership, they provide economic 
benefits to the U.S. (especially with regard to tourism), and our U.S. 
Man and the Biosphere Program provides a valuable framework for 
international scientific cooperation on the environment.
    The Administration agrees that the public and the Congress have the 
right to participate in decisions related to the nomination and 
recognition process for World Heritage Sites and Biosphere Reserves, 
and should have a reasonable opportunity to do so. However, this 
legislation also addresses concerns that are not grounded in the actual 
provisions or implementation of these existing international agreements 
or programs. This bill would take what is currently a bottom-up, grass-
roots approach and impose cumbersome top-down approval processes. 
Therefore, the Department of State strongly opposes H.R. 883. If this 
legislation were to pass, the Secretary of State would recommend a 
veto.

World Heritage Convention

    The Convention on the Protection of the World Cultural and Natural 
Heritage is a landmark conservation agreement that helps draw 
international attention to the unique natural or cultural significance 
of sites such as the Cathedral of Chartres, the Pyramids at Giza, the 
Serengeti National Park, the Taj Mahal, and the Grand Canyon.
    The United States was the principal architect of the Convention. 
President Nixon stated at the time:

    ``It would befitting . . . for the nations of the world to agree to 
the principle that there are certain areas of such unique worldwide 
value that they should be treated as part of the heritage of all 
mankind and accorded special recognition as a World Heritage Trust. 
Such an arrangement would impose no limitations on the sovereignty of 
those nations which choose to participate, but would extend special 
international recognition to the areas which qualify and would make 
available technical and other assistance to assist in their protection 
and management.'' Statement by Richard Nixon, Feb. 8, 1971, in Dept. of 
State Bulletin, Vol. LVIX, No. 1653, 1971, P. 256.
    Following the conclusion of negotiations in 1972, the United States 
became the first country to ratify the Convention, in December, 1973. 
The U.S. plays a strong leadership role in the Convention and is 
currently completing its second six-year term on the twenty-one member 
World Heritage Committee.
    The Convention respects the sovereignty of countries on whose 
territory World Heritage sites are located. It makes clear that the 
responsibility for identifying and delineating such sites rests with 
the national governments that are Party to the Convention. It specifies 
in article 6(l) that the international community's duty to cooperate 
for the protection of world heritage occurs within a context of full 
deference to ``the sovereignty of the . . . [nations] . . . on whose 
territory the cultural and natural heritage'' is located, and ``without 
prejudice to property rights provided by national legislation.''
    The World Heritage Convention plays a key role in promoting global 
support for environmental conservation and cultural preservation, 
advances U.S. interests in these global values, and serves as a key 
element in our international environmental conservation program. With 
its 152 participating nations, the Convention is one of the most widely 
accepted international conservation treaties. It provides a mechanism 
for U.S. leadership and influence with many of its international 
partners.
    Under the World Heritage Convention, each nation nominates its own 
most important natural and cultural sites and pledges to take the 
necessary steps to preserve and protect them under their own legal 
systems. The treaty, implementing legislation, and program regulations 
mandate a process that is orderly, predictable, and exacting, requiring 
a minimum of more than two years between the proposal of a site and its 
consideration by the World Heritage Committee.
    The U.S. nomination process is clearly delineated in law and 
regulation (Title IV of the Historic Preservation Act Amendments of 
1980 and 36 CFR 73--World Heritage Convention). Under the regulations, 
the National Park Service staffs the Interagency Panel on World 
Heritage, which is advisory to and chaired by the Assistant Secretary 
for Fish and Wildlife and Parks. The Panel meets in public sessions to 
consider proposed nominations and to review completed studies.
    Relevant Committees of the House and Senate are notified of all 
pending proposals and are again informed when the Department of the 
Interior has decided to nominate a site. Over the years, when Members 
of Congress have commented, they have commonly supported proposed 
nominations in their respective states.

U.S. Man and The Biosphere Program

    The Man and the Biosphere (MAB) Program was established by 
resolution of the 16th General Conference of UNESCO in 1971 as a 
voluntary and cooperative science program to promote the study of the 
interaction of the earth's human and natural systems. Contrary to the 
assertions of many opponents of the program, MAB is intended to explore 
the relationship between people and their environment and not to remove 
people from their land.
    The U.S. began to participate in MAB in 1974. When the U.S. left 
UNESCO in 1984, the Reagan Administration recommended that Congress 
continue to provide funds to allow for an independent U.S. Man and the 
Biosphere Program, given the benefits of voluntary scientific 
cooperation. This was done with the understanding that there would be 
continued cooperation as appropriate between U.S. MAB and the UNESCO 
MAB Program.
    In this capacity the U.S. MAB Program continues today, pursuing 
national and international efforts in cooperative environmental 
science. The Department of State provides a small administrative 
Secretariat to coordinate the U.S. Man and the Biosphere program, with 
the voluntary collaboration and support of about a dozen Federal 
agencies.
    At the international level, U.S. MAB promotes pairings of biosphere 
reserves for comparative study. On a regional scale, cooperation among 
biosphere reserves is facilitating scientific and technical exchanges 
that benefit both scientists and land managers. For example, in the 
tri-national region of the Petan Rainforest of Mexico, Guatemala and 
Belize, U.S. MAB supports efforts that bring park managers and 
scientists together across boundaries to deal with common conservation 
issues. In Kentucky, county land managers and development authorities 
utilize the biosphere reserve to protect water quality in Mammoth Cave 
National Park and the surrounding area.
    The U.S. MAB Program promotes information sharing among MAB sites 
around the world. U.S. MAB's various software innovations have been 
adopted in North America, Europe, and Latin America. MABFauna and 
MABFlora are highly successful database products produced by U.S. MAB 
for sharing information about plants and animals in protected areas. 
Another initiative, MABNet Americas, was highlighted by the Bolivia 
Summit on Sustainable Development as a model for integrated scientific 
data exchange in this hemisphere. These U.S. MAB efforts towards data 
standardization are an important contribution to the on-going 
development of the InterAmerican Biodiversity Information Network 
(IABIN) and network through which biological information is shared 
throughout the Western Hemisphere.
    U.S. biosphere reserves are an important part of the U.S. MAB 
Program. However, we recognize there has been considerable confusion 
about the definition of a biosphere reserve. ``Biosphere reserve'' is a 
title granted to a protected area or series of protected areas that 
conduct exemplary programs in conservation, science, and management of 
natural resources. Biosphere reserves foster cooperation and voluntary 
implementation of activities that improve the relationship among 
communities, economic enterprises, and those who manage natural 
resources. Although U.S. biosphere reserves take various forms, the 
typical U.S. biosphere reserve is synonymous with a national park or 
national forest. However, private conservation organizations and even a 
private landowner have sought biosphere reserve status for their lands. 
The added recognition as a biosphere reserve provides national and 
international prestige. At present there are 47 biosphere reserves in 
the United States.
    At this time, nominations for U.S. biosphere reserves are initiated 
at the local level by volunteers who form a committee to seek 
international recognition for their conservation efforts. Letters of 
concurrence are generated by local interest groups and local and state 
government representatives; these letters must be attached to each 
nomination package. Landowner approval is required for a property to be 
included. Participation in the U.S. Biosphere Reserve program is 
voluntary and does not alter the rights of private landowners or those 
of local, state, or national land management authorities.
    The global network of biosphere reserves includes areas where 
national and local commitments have been made to long-term 
environmental monitoring, interdisciplinary research, and environmental 
education. As with World Heritage and Ramsar wetlands sites, the MAB 
sites in the U.S. are managed under the relevant Federal and/or state 
laws and regulations. There is no international regulatory framework. 
The day-to-day management of these areas does not change because of 
Biosphere Reserve recognition.
    MAB activities that further U.S. interests include projects that:

        <bullet> Brought together policy makers, social scientists and 
        natural scientists to produce specific strategies for restoring 
        a healthy Everglades while also preserving the social and 
        economic structures of South Florida.
        <bullet> Fostered an agreement signed by former Governor 
        Symington of Arizona in 1996 and his counterpart from the 
        adjacent Mexican state of Sonora, Manlio Beltrones to promote 
        cooperation between the protected areas of the region.
        <bullet> Developed a local tourism plan for the Southern 
        Appalachian Biosphere Reserve which benefited the community of 
        Pittman Center, Tennessee.
        <bullet> Played a key role in the effort to restore the Coho 
        salmon to areas of Northern California through the Golden Gate 
        Biosphere Reserve.
    Continuing international collaborations (mainly with nations in 
Latin America, Europe, and the Newly Independent States of the Former 
Soviet Union) are of importance to the Department of State because they 
further the Administration's goal of fostering wise environmental 
stewardship around the world while at the same time strengthening 
relations between the U.S. and key counterpart nations. The Man and the 
Biosphere Program has a significant role here, especially in 
international scientific exchange.

H.R. 883

    H.R. 883, like its predecessors H.R. 901 and S. 691, appears to be 
based on the mistaken belief that the World Heritage Convention and the 
U.S. Man and the Biosphere Program threaten U.S. sovereignty, mandate 
land-use regimes, restrict the rights of private landowners or exclude 
the public from the nomination and recognition process. The main 
purpose of World Heritage and the MAB Biosphere Reserve Program is to 
award recognition to sites of exceptional ecological, scientific, or 
cultural importance. Neither program regulates the management of these 
sites nor affects the land-use rights of the country in which they are 
located.
    H.R. 883 seeks to legislate the process of nomination of World 
Heritage or Biosphere Reserve sites. In fact, local initiative already 
plays a key role in the nomination process for U.S. sites, involving 
local stakeholders, state and local governments, and the Federal 
Government. As mentioned earlier, the nomination process for World 
Heritage Sites is clearly delineated in law and regulation and includes 
full and appropriate public and congressional participation. This 
legislation could pose an unwarranted barrier to site nominations by 
local communities.
    The process of Biosphere Reserve recognition and the functioning of 
recognized Biosphere Reserves is increasingly based on consultation and 
initiative of local stakeholders, state, and local governments. We 
believe these initiatives work well and with ample local involvement. 
In the Catskills there was disagreement about biosphere reserve 
nomination and as a result the nomination was duly withdrawn. In the 
Ozarks, there was citizen concern over nomination, and, again, it 
proceeded no further. The State Department has not received a single 
letter from any state governor or any local elected official requesting 
the abolition or de-listing of any U.S. biosphere reserve or World 
Heritage site. Also, we have not received any letters or studies 
documenting that any past listing of a biosphere reserve or World 
Heritage site has harmed the value of adjacent private property.
    It is clear, however, that MAB is often misunderstood. We are 
committed to both clarifying the program's operations and ensuring 
appropriate public and congressional notification and consultation 
during the nomination process. We believe that the bill, H.R. 1801, 
introduced in the 105th Congress by Congressmen George Brown and George 
Miller, addresses these issues and provides a good legislative base for 
improved functioning of U.S. MAB.
    Moreover, section 5 of H.R. 883 restricts international agreements 
generally, with respect to the nomination, classification, or 
designation of Federal lands for conservation purposes. The effects of 
this more general section are difficult to evaluate. We are concerned 
that, given the provision's current breadth, it would likely have 
unintended impacts that could hamper the United States' ability to 
fully participate in existing bilateral and multilateral agreements.
    Specifically, we are concerned about the effect of this section on 
U.S. implementation of and participation in the Ramsar Convention on 
Wetlands. President Reagan submitted this Convention to the Senate, 
which provided advice and consent to ratification in 1986. The 
Convention reflects a broad-based concern over the loss of wetland 
habitats and their dependent resources, and recognition of their vital 
role in preservation of migratory birds.
    Our membership and international participation in the Ramsar 
Convention provides many benefits. Most prominent is reinforcement of 
the protection of a whole range of wetland-loving migratory birds, 
including many important game species (ducks, geese, coots, rails, 
etc.). The network of Ramsar sites in Canada, the U.S. and Mexico 
supports safe breeding and wintering sites for these waterfowl and 
gamebirds--birds that generate significant income in the U.S. through 
hunting related enterprises as well as those associated with nature 
appreciation and bird watching.
    Like the World Heritage Convention, the Ramsar Convention makes 
clear that the responsibility for identifying and for protecting 
wetlands of international importance that are suitable for listing 
under the Convention rests with the country in whose territory the site 
is located. It also states that the inclusion of a wetland in the 
Ramsar list, ``does not prejudice the exclusive sovereign rights of the 
Contracting Party in whose territory the wetland is situated.'' There 
are currently 17 designated Ramsar sites in the United States.

Conclusion:

    We believe that U.S. participation in the World Heritage 
Convention, the U.S. Man and the Biosphere Program and the Ramsar 
Convention on Wetlands serve important national interests and help link 
national and international initiatives with local stakeholders. 
Recognition of Everglades National Park as a World Heritage site, as a 
biosphere reserve and as a Ramsar site has added no management 
restrictions and yet has provided worldwide recognition that is a 
source of pride and additional economic opportunity to the local 
communities. Moreover, U.S. leadership in the World Heritage 
Convention, the Man and the Biosphere Program, and the Ramsar 
Convention encourages other nations to similarly cherish and care for 
significant sites in their countries.
    In conclusion, the Department of State strongly opposes H.R. 883. 
Recognition of a U.S. site as a World Heritage site, a biosphere 
reserve or a Ramsar Wetlands of International Importance in no way 
undermines U.S. sovereignty over such sites. Such recognition does not 
impose additional Federal land use restrictions over such areas or the 
abutting region. H.R. 883 would create unnecessary bureaucratic burdens 
on U.S. government agencies and would impose top-down controls on what 
is currently a bottoms-up nomination process. We believe this 
legislation runs counter to the U.S. role in supporting both local and 
global environmental cooperation. This bill would greatly impede the 
nomination of new sites under the World Heritage Convention, biosphere 
reserves under the MAB Program and Wetlands of International Importance 
under the Ramsar Convention.
    This concludes my statement, Mr. Chairman. I will be happy to take 
any questions that you may have.
                                 ______
                                 
 Statement of Brooks B. Yeager, Deputy Assistant Secretary for Policy 
         and International Affairs, Department of the Interior
    Mr. Chairman, members of the Committee, thank you for the 
opportunity to appear before you today to present the views of the 
Department of the Interior on H.R. 883, the American Land Sovereignty 
Protection Act. The chief effect of this legislation would be to place 
cumbersome and unwise restrictions on U.S. participation in the World 
Heritage Convention and other international conservation agreements. 
Ironically, these agreements were, in many cases, the product of U.S. 
world conservation leadership and have been supported by Presidents of 
both parties going back to President Nixon. Through them, the United 
States has been successful in engaging many other nations of the world 
in the effort to establish and protect national parks and to better 
conserve unique and important natural and cultural resources worldwide. 
The restrictions on participation and the burdensome new requirements 
of H.R. 883 appear to be a response to worries that these agreements in 
some way diminish U.S. sovereignty over our own parks and refuges--but 
nothing could be further from the truth. Because the restrictions of 
H.R. 883 are unnecessary, and would unwisely weaken the worldwide 
conservation leadership and influence that the United States has 
earned, we must strongly oppose this bill. If this legislation were to 
pass, the Secretary of the Interior would recommend a veto.
    U.S. participation in the World Heritage Convention and other 
international conservation agreements has benefited parks and adjacent 
communities and has been helpful to U.S. foreign policy objectives. 
Both the idea of national parks and the World Heritage Convention, 
originating a century apart, are American ideas that are universally 
acclaimed and accepted worldwide. Their international acceptance is a 
continuous affirmation of the United States' prestige and global 
influence. U.S. participation in international conservation agreements 
insures that these ideals continue to extend their reach and also that 
U.S. sites receive the prestige and recognition they deserve, on par 
with that enjoyed internationally by the Great Pyramids of Egypt, 
Victoria Falls, the Serengeti Plain, and Vatican City.
    World Heritage designation does not impose any particular new 
management requirements; it often presents new opportunities. In 
Hawaii, the World Heritage designation of Hawaii Volcanoes National 
Park is serving as the linchpin in a strategy to draw more tourists to 
the island, and is an element of the town of Volcano's strategic 
planning. At Wrangell-St. Elias and Glacier Bay, two parks that are 
listed jointly with Canadian parks across the border, World Heritage 
designation has resulted in direct cooperation with Canada on mountain 
rescue, managing traffic, and rescue operations on the Alsek River. The 
Reagan administration recognized the value of such designations when it 
chose to highlight one of its major initiatives in private-sector 
fundraising for parks--the restoration of the Statue of Liberty--by 
nominating the Statue to the World Heritage List in 1984.
    H.R. 883 attempts to fix alleged problems that do not exist. 
American sovereignty is not at risk. First, international agreements, 
such as the World Heritage Convention, do not in any way exclude 
Congress from exercising oversight of land management decisions, nor 
could they ever do so. Second, the nomination processes for the various 
international conservation designations are generally consultative and 
are based on conservation measures already in place at the local level. 
Third, land-use decisions pertaining to internationally recognized 
sites remain the sole responsibility of the sovereign nation in which 
the site is located. In the United States, such decisions fall under 
the jurisdiction of the appropriate Federal, state, or local 
governments, tribes, or private property owners, and are subject to the 
domestic laws already in place.
    The designation of sites under the World Heritage Convention and 
other such agreements has no more effect on national law in the U.S. or 
elsewhere, than does the winning of a Nobel Prize or an Olympic Medal. 
The United Nations does not gain any authority to dictate land-
management decisions in any country or at any level. This 
Administration has no intention to cede sovereignty over U.S. lands to 
international organizations; neither did the five previous 
administrations, both Republican and Democratic, which have all 
participated enthusiastically in the international conservation 
agreements targeted by this bill.
    Nor is there any evidence that international recognition restricts 
land use or stops economic growth. To the contrary, World Heritage 
sites, U.S. Biosphere Reserves, and Ramsar designations have been 
embraced in many local areas of the U.S. as value-added designations, 
which increase partnerships among Federal, state and local governments, 
and private property owners for mutual benefit. Additionally, they have 
contributed to increases in tourism, which is especially vital to local 
economies, and have fostered research on important environmental 
problems.
    Rather than being harmful to local and community interests, a World 
Heritage designation appears to be economically beneficial to those 
near designated sites, especially an attraction for foreign tourists. 
During the period 1990-1995, visitation to U.S. World Heritage parks 
increased 9.4 percent, as opposed to a 4.2 percent increase for all 
national parks. There is evidence to suggest that a significant part of 
the increase derived from increased international tourism; World 
Heritage designation makes it more likely that foreign visitors, 
especially those with specialized interests, will learn about and visit 
the parks.
    For example, Wrangell-St. Elias National Park reports that an 
increase in foreign visitation from Europe, currently at 10 percent, 
may be due to its World Heritage designation. Grand Canyon National 
Park, where foreign visitation is roughly 40 percent, reports that 
foreign visitation is more likely as a result of a World Heritage 
designation than to an individual nation's ``national park'' 
designation. Given that the total economic benefit of the Grand Canyon 
to the surrounding region is estimated at $350 to $700 million per 
year, the impact of the World Heritage designation is clearly salutary 
there.

H.R. 883

    H.R. 883 would unduly restrict the legal and administrative 
framework for implementation of important U.S. commitments to 
international environmental cooperation, which have traditionally 
enjoyed bipartisan support in Congress and the Executive Branch. It 
would also allow those who oppose cooperative efforts in international 
conservation on ideological grounds to block the efforts of communities 
to utilize these agreements for their own benefit. Section 3 of the 
bill would amend the National Historic Preservation Act of 1966, as 
amended, to require express authorization by Congress of each future 
nomination of Federal sites for inclusion in the World Heritage List. 
It would also instruct the Secretary of the Interior to object to the 
inclusion of any property (including private lands) in the U.S. on the 
List of World Heritage in Danger, absent authorization by a Joint 
Resolution of Congress. Section 4 would establish a similar 
congressional authorization process for biosphere reserve designations. 
It would prohibit the nomination of new biosphere reserves for 
international recognition under UNESCO and void the designation of all 
existing biosphere reserves unless authorizing legislation is passed by 
December 31, 2000. The bill unnecessarily encumbers what are now 
modest, grass roots-based programs that fulfill our commitment to 
environmental stewardship in the world.
    The amendments to the National Historic Preservation Act, that 
would be made under Section 3, would require the Secretary of the 
Interior to make a determination of any adverse effects on commercially 
viable uses should an area be nominated as a World Heritage site or be 
placed on the List of World Heritage in Danger. The adverse effects 
must be considered for lands being nominated or listed and also for all 
lands within 10 miles of the area. However, since designating an area 
as a World Heritage site or listing it as ``in danger'' does not change 
U.S. law, nor impose land-use restrictions, the designation cannot 
adversely affect commercially viable uses. Also, sections 3 and 4 of 
the bill set additional reporting requirements for all areas that have 
been recognized as World Heritage Sites or Biosphere Reserves. This is 
a burdensome and unnecessary requirement and flies in the face of 
recent congressional action to eliminate unneeded reports to Congress.
    With respect to the legal effect of the World Heritage Convention, 
the Congressional Research Service said in its May 3, 1996 report, 
``World Heritage Convention and U.S. National Parks,'' that: ``The 
Convention has no role or authority beyond listing sites and offering 
technical advice and assistance.'' The clear understanding that the 
Convention carries no land management authority or obligation goes back 
to President Nixon's statement on the issue.
    The case of ``biosphere reserves'' established in connection with 
UNESCO's Man and the Biosphere program similarly admits no 
international control of U.S. lands. Indeed, the charter document for 
the UNESCO program clearly states that, ``Biosphere Reserves, each of 
which remain under the sole sovereignty of the State where it is 
situated and thereby submitted to State legislation only, form a world 
network in which participation by States is voluntary.'' (As used in 
this quote the word ``State'' refers to sovereign nations.)

World Heritage

    The World Heritage Convention, a foreign policy initiative of the 
Nixon Administration, has been a cornerstone of U.S. international 
environmental foreign policy for a quarter century. The U.S. played a 
notable leadership role in drafting the Convention and was the first 
signatory in 1973. The Senate ratified the Treaty by a margin of 95-0. 
Although 156 nations now participate, the U.S. has continued its 
leadership role, twice serving as chair, and currently completing a 
second consecutive 6-year term on the World Heritage Committee.
    It is noteworthy that, although the Reagan Administration chose to 
withdraw the United States from UNESCO, that Administration opted to 
remain active in World Heritage and promulgated the program 
regulations, still in force, that made the program fully operative in 
the U.S. Under President Bush, in 1992, Secretary of the Interior 
Manuel Lujan hosted the meeting of the World Heritage Committee, in 
Santa Fe, New Mexico, the second time in the Committee's more than 20 
years of active work that it met in the U.S.
    Under the World Heritage Convention, each nation nominates its own 
most important natural and cultural sites and agrees to take the 
necessary steps to preserve and protect them under its own legal 
systems. In fact, a nation can only nominate a site within its own 
border and no nation can nominate a site in another nation. The treaty, 
implementing legislation, and program regulations mandate a process 
that is orderly, predictable, and exacting, requiring a minimum of more 
than two years between the proposal of a site for study and its 
consideration by the World Heritage Committee.
    The U.S. nomination process is completely voluntary and clearly 
delineated in law and regulation (Title IV of the Historic Preservation 
Act Amendments of 1980 and 36 CFR Part 73). Under the regulations, the 
National Park Service staffs the Interagency Panel on World Heritage, 
which is advisory to and chaired by the Assistant Secretary for Fish 
and Wildlife and Parks. The Panel meets in public sessions to consider 
proposed nominations and to review completed studies. Proposals to 
nominate sites have originated from private organizations and citizens 
and local governments as well as from park superintendents. Every 
proposed nomination must have a strictly defined boundary. The criteria 
and documentation requirements for nomination are highly selective; 
many proposed properties have been turned down or deferred for cause. 
Relevant committees of the House and Senate are notified of all pending 
proposals and again informed when the Department has decided to 
nominate a property. Over the years, when Members of Congress have 
commented on proposed sites, they have overwhelmingly supported 
proposed nominations in their respective states. This existing 
congressional input has worked very well. No site has been nominated if 
its nomination did not enjoy overwhelming support from both local 
leaders and the State's congressional delegation.
    Since 1979, when Yellowstone and Mesa Verde were placed on the 
World Heritage List, 18 other U.S. sites have been added, for a total 
of 20. A handful of others have been nominated but not listed. No new 
proposed nominations are being actively considered. The World Heritage 
Committee, composed of representatives elected from 21 member 
countries, reviews all national nominations. At present, 582 properties 
have been listed. The Committee also places properties on the List of 
World Heritage in Danger. Only the Committee can place properties on 
either List. Neither listing as a World Heritage Site nor inclusion on 
the List of World Heritage in Danger supersedes or diminishes United 
States sovereignty. Neither imposes any legal requirement for U.S. 
sites beyond those already contained in U.S. law. The World Heritage 
Committee does not acquire management authority over World Heritage 
Sites by virtue of any listing.
    The U.S. World Heritage nomination process is fully respectful of 
private property rights. Affirmative concurrence is required from all 
non-Federal owners before properties can be nominated for inclusion on 
the World Heritage List. The two private U.S. properties on the World 
Heritage List are Monticello and Taos Pueblo. Three other properties in 
the United States or Puerto Rico are on the World Heritage List. These 
are the University of Virginia in Charlottesville, Virginia owned by 
the Commonwealth of Virginia and Cahokia Mounds and La Fortaleza in San 
Juan, Puerto Rico owned by the Commonwealth of Puerto Rico. The 
nominations for all these sites enjoyed the full support of all 
relevant stakeholders.

U.S. Biosphere Reserves

    Though the Department of the Interior plays a leading role for the 
U.S. under the World Heritage Convention, it plays a cooperative role 
in our participation in the Man and the Biosphere Program. As with 
World Heritage Sites, the designation and management of U.S. Biosphere 
Reserves provide benefits from international recognition, and allow 
U.S. sites to be linked to a global network for cooperation in science, 
education, and technical assistance. Recognition does not pose a threat 
to the sovereignty of American lands, it does not impose new management 
requirements on public lands, and it does not impose new land-use or 
regulatory restrictions on private property owners. In addition, 
designation does not imply any intent on the part of the Federal 
Government to acquire property in the surrounding area.
    There are 47 designated biosphere reserves in the United States. 
Biosphere reserves represent purely voluntary commitments on the part 
of land managers to emphasize conservation, science and education as 
they seek solutions to issues of conservation and development in 
cooperation with local residents, governments, and other parties in 
their region. The purposes of these associations are to facilitate the 
discovery of practical solutions to complex conservation and 
development problems by providing a science-based framework for 
pursuing common goals. This cooperative setting allows each party to 
share resource and economic expertise that no one group could obtain on 
its own. Biosphere reserve recognition is proposed by local entities, 
in consultation with local governments and other interested parties. 
Approval by landowners, public and private, is required. As a matter of 
practice, when such proposals appear to have been developed without 
sufficient local consultation, or where local opposition is obvious, 
they have been returned with guidance regarding the need for local 
support.
    Mammoth Cave is a good example of this program. The Mammoth Cave 
Area Biosphere Reserve was designated in 1990 and includes Mammoth Cave 
National Park and its primary groundwater recharge basins. The Barren 
River Area Development District (BRADD), which is chartered by the 
Commonwealth of Kentucky and is responsible for regional planning 
within the ten-county area surrounding Mammoth Cave, selected the U.S. 
biosphere reserve model as the tool to address regional water quality 
issues. The biosphere reserve activities are coordinated through the 
BRADD, whose Board of Directors is made up of locally elected 
officials, and is viewed as a locally managed effort rather than a 
Federal undertaking. To coordinate resource management activities, the 
BRADD established a Biosphere Reserve Council which consists of Western 
Kentucky University, USDA Forest Service, USDA Farm Service Agency, 
USDA Natural Resource Conservation Service, Tennessee Valley Authority, 
U.S. Economic Development Administration, Army Corps of Engineers, 
agencies of the Kentucky Natural Resources Cabinet, the Resource 
Conservation and Development District, the Caveland Sanitation 
District, and the National Park Service. Together, these previously 
unlikely partners have made significant accomplishments that have 
directly benefited the area. These accomplishments include:

          The Mammoth Cave Area Water Quality Project--A partnership 
        approach to protecting the Mammoth Cave Watershed, which 
        includes significant financial resources available to farmers 
        from the USDA on a cost-sharing basis, significant investment 
        by the NPS for monitoring, and support from the EPA to continue 
        this effort.
          Regional GIS/GPS and Development of a Geospatial Data 
        Center--Members of the Biosphere Reserve Council have pooled 
        their resources to enhance data sharing and analysis capability 
        and to establish a geographic information system and global 
        positioning base station which has a variety of applications of 
        benefit to all members. Additionally, a grant from the U.S. 
        Geological Survey has established a Geospatial Data Center at 
        Western Kentucky University.
          Economic Development and Impact Studies--The Economic 
        Development Administration funded a study in the area to assess 
        the potential for compatible industrial development. The 
        results of this study have been made available to the community 
        to assist in economic and infrastructure planning. Also, the 
        USGS in partnership with local universities is working on an 
        economic impact study of the park and local area to assess the 
        impact of tourism expenditures.
    The Mammoth Cave Area Biosphere Reserve, with the national park as 
its core protected area, has therefore utilized its stature to better 
address local conservation and development issues, including securing 
additional financial resources not previously available. Landowners and 
communities have derived tangible benefits and received recognition for 
working together to resolve complex conservation and development issues 
and protect resource values. A survey of biosphere reserve managers in 
1995 suggests that, in cases where their cooperative endeavors are 
identified explicitly with the biosphere reserve concept, there are 
more cooperating parties and more participation of local organizations 
than in other types of cooperative efforts.
    Biosphere Reserves are also important internationally because they 
provide a network of protected areas, particularly essential as 
stopovers for migratory birds that U.S. shares with other nations. For 
example, Mexico's newly created Sian Ka'an Biosphere Reserve in the 
Yucatan Peninsula provides wintering habitat for species seen during 
the summer in the United States, many of which are in decline because 
of habitat loss. Each year more than 65 million Americans watch and 
feed birds and more than 25 million Americans travel away from their 
homes specifically to watch birds. These bird-watching Americans spend 
$5.2 billion annually, generating an annual total economic return to 
the U.S. economy of nearly $20 billion. U.S. citizens also are frequent 
visitors to internationally recognized sites of other countries. 
American businesses directly benefit from this visitation of U.S. 
citizens to foreign countries, as they operate tour companies that 
frequent biosphere reserve sites abroad.

RAMSAR

    Finally, Section 5 of the bill restricts international agreements 
in general with respect to the nomination, classification or 
designation of Federal lands for conservation purposes. This general 
language will have a detrimental effect on the United States ability to 
provide world leadership in environmental conservation efforts. 
Specifically, it will hamper the U.S. ability to implement the Ramsar 
Convention on Wetlands, an international agreement submitted by 
President Reagan in 1986, that recognizes the vital role wetlands play 
in local communities for water quality, migratory bird habitat and 
aesthetic and recreational enjoyment.
    Designations of appropriate sites as ``wetlands of international 
importance'' under the Ramsar Convention have been a positive force for 
conservation of these sites. Since the Convention was ratified in 1986, 
17 sites have been designated, all at the request of the local 
communities where the sites occur. The U.S. Fish and Wildlife Service, 
the agency which oversees the Ramsar Convention, does not actively seek 
out and designate Ramsar sites, one of the reasons that the 
implementation of the Convention in the United States has been 
successful without major controversies. The Service considers educating 
and informing citizens about the Convention a starting point; then the 
genesis of a nomination must begin with the community. This approach 
sparks interest by citizens, helps bring a community together, and 
builds support for a nomination. Sometimes it can develop partnerships 
between unlikely groups. Citizens take pride in their special places 
and international recognition can only improve this pride.
    A number of States and local communities have used designation as a 
means of enhancing locally based conservation and economic efforts. A 
review conducted by the Fish and Wildlife Service in 1996 found a 
number of positive values from Ramsar designations, all as a result of 
the voluntary, cooperative spirit in which designations are made. For 
example, the New Jersey Department of Environmental Protection noted 
that Ramsar designation has been used as a non-regulatory tool to 
achieve wetland protections, and found a significant increase in 
tourism to designated sites, increasing local revenue. On the Lower 
Connecticut River, the State of Connecticut found that their 
designation of the lower Connecticut River wetlands complex as a Ramsar 
site has had a positive impact upon property values. Realtors are 
actively using this designation to attract buyers to abutting 
properties and the sale prices for these lands have increased. The 
State expects to see a positive impact on the tax base for Connecticut 
River townships from the Ramsar designation. And in Southern Illinois, 
the local communities are depending on the Ramsar designation of the 
unique cypress and tupelo swamps on the Cache River to help draw 
tourists and improve the economic viability of this depressed region.
    Policy and guidelines for nomination of sites to the List of 
Wetlands of International Importance was published in a Federal 
Register Notice dated April 12, 1990, Vol. 55, No. 77. This action was 
taken in accordance with the articles of the Convention. These 
guidelines are needed to (1) assure that petitions for listing are 
consistent with the Convention's criteria and obligations, and (2) 
allow mechanisms for appropriate review of proposed site nominations. 
It is important to note that Article 2, Part 3, of the Convention 
document specifically states ``the inclusion of a wetland in the List 
does not prejudice the exclusive sovereign rights of the Contracting 
Party in whose territory the wetland is situated.''
    The Fish and Wildlife Service will continue its policy to consider 
proposed sites only if (1) there is concurrence from the State, 
Commonwealth, or Territory where the site is located; (2) the ownership 
rights of the lands being considered are free from encumbrances or 
dispute; and (3) the lands are in public or private management that is 
conducive with the conservation of wetlands. In all cases where private 
lands are involved, endorsement of a potential listing by the 
landowners is mandatory. In addition, the Fish and Wildlife Service has 
made it a requirement for all nominating organizations to provide 
written approval from the appropriate member(s) of the Congressional 
Delegation.
    The Administration believes that the requirement under H.R. 883 
that would require Congressional approval for listing sites under the 
Convention on Wetlands would substantially delay the benefits which 
designation of sites under the Convention can bring and would make the 
process much more time-consuming and bureaucratic. It would also remove 
the locally driven designation process and replace it with a 
prescriptive Federal process if the entire Congress would have to 
approve every designation. Why should a member from New York be able to 
deny a Ramsar designation from a community in Texas that is seeking the 
designation? On the other hand, the required approvals from any private 
property owner(s), the State, Commonwealth, or Territory in which the 
property resides, and the Congressional delegation, should ensure that 
citizens directly effected by a designation are supportive and make a 
formal Congressional approval process unnecessary.

Conclusion:

    International site recognitions such as World Heritage and U.S. 
Biosphere Reserves do not threaten U.S. sovereignty or interests. 
Rather, they enhance the prestige and recognition of areas already 
protected under domestic law and provide economic benefits to 
communities that benefit from being internationally recognized. The 
``national park'' idea was something inherently American that has been 
extended internationally through these programs; to inhibit them would 
be a disservice to this idea in the United States and would diminish 
U.S. influence abroad. We strongly believe that the United States 
should continue to play a leading role in these worldwide efforts that 
benefit the citizens and the environment of both our nation and of the 
entire world.
    This concludes my prepared remarks.
                                 ______
                                 
            Statement of Stephen G. Lindsey, Canelo, Arizona
    Hello, my name is Steve Lindsey, and I live in Canelo, Arizona. 
Canelo is located in Southeastern Arizona on the west side of the 
Huachuca Mountains, about 14 miles north of the Mexican border. My 
mother, my father, my wife and I and nine children make up the 
population of Canelo.
    My great-great grandfather came to this area in the late 1860's. He 
homesteaded in what is now called Parker Canyon, which is 10 miles to 
the south of Canelo.
    His son, my great-grandfather, homesteaded in Canelo on Turkey 
Creek in 1910. He started running his cattle on the creek at that time, 
but prior to that, the country was considered open range and had 
supported cattle from the early 1800's.
    My father and I are still operating a cow-calf operation on that 
same homestead, along with the help of my sons and daughters. The 
private property that we own lies in Turkey Creek, and 320 acres 
private are deeded land. Probably 60 acres of that is all that would be 
considered a wetlands. The vision most people, especially in the east, 
have of a creek is very different from that in the arid Southwest. 
Turkey Creek, known as a ``cienega'' which means wetland in Spanish, 
only has flowing water four months of the year. Most of the cienga is 
actually a bog with little standing water, but the soil is saturated. 
There are a few cottonwood and willow trees along the cienega with a 
few ephemeral springs that I call wet weather springs because they are 
only evident after the spring and summer rains.
    The deeded land we own is also the property we legally need to own 
in order to qualify for a U.S. Forest Service grazing lease on about 
11,500 acres.
    So all together my family has been operating a successful cattle 
ranch on Turkey Creek for 87 years. We hope to keep this a way of life 
for years to come, not only to keep the land in the family, but to 
supply a commodity, our beef calves, to the nation. My three sons and 
two of my daughters have shown an active interest in the cattle 
operation, especially my oldest son who is with me quite consistently 
on the land learning about the grasses and continuing the process to 
show that we don't so much raise beef as we raise the grass to support 
the beef. I want my children in the type of lifestyle that promotes the 
character of living off the land and how we must be self sufficient, 
hard working, moral and ethical in all of our dealings. Without this 
land we would be forced to live in the city and rear our children in an 
environment that I don't feel is the best for their learning and young 
adulthood.
    I have heard that in some family businesses that after the founders 
die the second generation either is not committed to the business or 
does not have the knowledge to run the business and make it 
economically viable. But in the ranching industry this does not seem to 
be the case. Ranches such as ours have been passed on from generation 
to generation and kept as viable businesses, operations and ways of 
life. My children, who without this ranch, would not have the work 
ethics they have and would not be active in their desire to keep not 
only the environment healthy, but also 320 intact and not subdivide it.
    On June 3, 1993 the Southwest Center for Biological Diversity 
(SWCBD) petitioned the U.S. Fish and Wildlife Service to list the 
Canelo Hills ladies tresses (Spiranthes Delitesens) as an endangered 
species. Then in 1995 SWCBD sued U.S. Fish and Wildlife to list the 
ladies tresses.
    These plants seem to require a perpetually moist soil, and are 
reported to grow in five known places, all of them in Southeastern 
Arizona. One of these places is Turkey Creek, on my family's private 
property.
    The ladies tresses was listed this year on January 6, 1997. The 
SWCBD states that cattle grazing may damage the ladies tresses, when in 
fact, even the Federal Register (Vol. 62, No. 3, January 6, 1997) 
states that the Canelo Hills ladies tresses grow much better where the 
cattle have disturbed the land. These plants only flower in July and 
August when the rains come, and that is the same time that we have 
moved our cattle, on a rotational basis, to the pastures out the 
riparian area where the tresses flower. We manage our cattle on 
rotation. We do this so that the cattle will not be in the same 
pastures more than once in any given year. We practice this rotation 
method because cattle will find a locale and stay there if we don't 
move them. Rotating them ensures healthy pastures and a healthy 
environment.
    We have a film from the 1940's of our land, but there is much more 
willow and cottonwood growth and regeneration now than there was then. 
We know that our good management practices on the practices on the 
ranch and using a holistic resource management system to rejuvenate the 
riparian area have been very successful.
    Sam Spiller, Arizona state supervisor for U.S. Fish and Wildlife 
Service, said at a U.S. Forest Service permitee meeting in the old 
Canelo school house on Saturday May 17, 1997 that he wasn't sure the 
reason why there were so many endangered species in Southeastern 
Arizona. I felt like telling him that the that the reason we have these 
endangered species is because we still have the open areas and habitat 
where these species can live. But endangered species are scarce or do 
not live in areas that have already been developed like Phoenix and 
Tucson. It is because people like myself and my family and the past 
generations have chosen to continue to ranch and uphold a way of life 
that has virtually disappeared and been paved over in the larger urban 
areas. Because we have chosen this way of life and because I have a 
strong desire to pass this way of life on to my children and leave this 
land open and undeveloped that I feel I am being singled out. There is 
a potential threat that I will be punished for the choices my family 
has made. I hope that this does not happen and we can continue ranching 
this land as we have for 5 generations.
    Furthermore, the Canelo Hills ladies tresses on our private 
property in Turkey Creek are doing much better than the ladies tresses 
on the The Nature Conservancy (TNC) property in O'Donnel Canyon, one 
mile west of our property. Dr. Peter Warren, a botanist with TNC, 
specifically told me that the population of tresses on our property are 
doing much better than does on TNC's land in O'Donnel Canyon. The 
ladies tresses on TNC property are not grazed.
    The benefit of grazing was also noted in the Federal Register rule 
(Vol. 62, No. 3, p.677) listing the ladies tresses: ``Discussions of 
well-managed livestock grazing and Spiranthes presented in the proposed 
rule did not indicate a detrimental effect. The Service stated that our 
preliminary conclusion is that well-managed livestock grazing does not 
harm Spiranthes populations. Additionally, the Service acknowledges 
that Spiranthes may favor some form of mild disturbance and would not 
recommend the removal of grazing as a component of responsible 
stewardship.''
    When I heard the ladies tresses was proposed to be listed I was 
very concerned that the Federal Government would be able to put 
restrictions on our private property and on our cattle operation. But I 
was reassured by the U.S. Fish and Wildlife Service that there would be 
no detrimental impacts to our way of life. I was not reassured (are you 
ever reassured when the government says ``don't worry''?). In fact I 
was very concerned because I am very well aware of implications of the 
Endangered Species Act and how it has restricted land use of private 
property owners, especially across the west. I feared that I would lose 
my way of life and no longer be able to operate the cattle ranch and 
operate it as generations had done in the past and also pass it on to 
my children.
    Then just 22 days after the listing of the ladies tresses I learned 
that the SWCBD decided to use a little known international wetlands 
treaty to designate our 60 acre wetland as a wetland of international 
significance under the RAMSAR convention. I very much in shock at how 
quickly the SWCBD, the same group that petitioned to have the ladies 
tresses listed, then tried to use an international treaty to influence 
or control the uses of our land. Kieran Suckling of SWCBD said, in a 
newspaper article in the Arizona Republic on February 1, 1997, ``By 
protecting these Arizona wetlands through the RAMSAR Convention, we get 
international oversight.'' This scared me when I read this article 
knowing that I might not only be regulated by the state and Federal 
Government because of the endangered ladies tresses orchid but now 
because of an international treaty to protect wetlands. Now I feared 
that there would global oversight of my small piece of land.
    My first thoughts went then to the pledge of Allegiance that we are 
a nation indivisible and that this sovereign nation would be governed 
by other countries and their governments. I feared greatly not only for 
my family but also for the families in the United States that would be 
affected in coming years by the lack of sovereignty that this 
convention represented. Sovereignty is what has made this nation great 
and strong for over 200 years, and that is why I cherish my and my 
family's freedom and rights that the Constitution of the United States 
has promised us.
    In the small amount of information I have been able to obtain on 
the RAMSAR convention I have learned some interesting facts. The 
convention was signed in February 1971 in Ramsar, Iran and 93 countries 
have joined the convention. Over 800 wetlands covering over 500,000 
square kilometers (which is the size of France) have been designated 
under the convention.
    I have also taken a look at the convention's Strategic Plan for 
1997-2002. It states that official name of the treaty is ``Convention 
on Wetlands of International Importance especially as Waterfowl 
Habitat.'' The only time I see waterfowl on my land is in the fall and 
spring when they are migrating for four weeks in each season. I see at 
most 25 ducks at any one time but the average number of ducks I see is 
around 6. I would hardly see my land as wetlands of international 
importance especially for waterfowl habitat. I think it is ridiculous 
that my land is being considered for designation under this treaty. I 
do understand that the Chesapeake Bay is under the same convention, and 
I think anyone will agree that the Chesapeake Bay is a wetlands of 
international importance for waterfowl, unlike my 60 acres in 
Southeastern Arizona.
    The Plan's Action 5.2.5 says, ``Promote the establishment and 
implementation of strict protection measures certain Ramsar sites and 
other wetlands of small size and/or particular sensitivity.'' That is 
what my wetland is, and I do not want or need more protection measures. 
I already have to worry about the Endangered Species Act.
    I also found some other disturbing things in the Strategic Plan.
    First, the thing that worries me most is Operational Objective 2.2. 
``To integrate conservation and wise use of wetlands in all Contracting 
Parties into national, provincial and local planning and decision-
making on land use, groundwater management, catchment/river basin and 
coastal zone planning, and all other environmental planning and 
management.'' I see this that for the past five generation that my 
family has not been doing a good enough job protecting our wetlands and 
now someone is trying to tell us how to manage our private property and 
cattle operation. I thought this convention was not supposed to have 
any land use regulations. This does not seem to be the case. I don't 
want the United Nations helping put more land use restrictions on my 
family's property.
    Second, the Introduction states, ``Through this Plan, the 
Convention's long-standing technical work in wetlands is strengthened, 
and a new catalytic role vis-a-vis the development assistance community 
is established. The Convention's technical and policy work becomes more 
closely related to the broader concerns of the Convention on Biological 
Diversity, and its traditional involvement with waterfowl is related 
more clearly to the Convention on Migratory Species.'' This mission 
creep worries me because now the true intent of the Convention has 
grown, and there is more chance that it will encroach on my property 
rights.
    Third, General Objective 2 states, ``The Conference of the 
Contracting Parties has determined that the concept of wise use applies 
to broad planning affecting wetlands.'' It also says, ``the greatest 
emphasis in Ramsar implementation will be placed on wetlands in the 
context of land-use planning, water resource management and other 
decisions affecting wetlands. Where Contracting Parties are developing 
national wetland policies (or other policies encompassing conservation 
and wise use of wetlands), such policies should be in conformity with 
other national environmental planning measures. Legislative changes may 
also be necessary.'' This sounds like land use regulation that will 
affect my private property rights and restrict my land use.
    Fourth, the Mission Statement says, ``The Convention's mission is 
the conservation and wise use of wetlands by national action and 
international cooperation as a means to achieving sustainable 
development throughout the world.'' Sustainable development seems to be 
a far cry from protecting waterfowl. Also, ``national action'' sounds a 
lot like more Federal regulations to me. The Introduction states the 
Convention is ``stressing the need to integrate the conservation of 
wetland biodiversity with sustainable development . . . and the health 
and well-being of people everywhere.'' This worries me for the same 
reasons that the Mission Statement does.
    Fifth, Operational Objective 3.2 states, ``To develop and encourage 
national programs of EPA [Education and Public Awareness] on wetlands, 
targeted at a wide range of people, including key decision-makers, 
people living in and around wetlands, other wetlands users and the 
public at large.''
    Operational Objective 4.2. states, ``To identify the training needs 
of institutions and individuals concerned with the conservation and 
wise use of wetlands and to implement follow-up actions.''
    Operational Objective 7.2 states, ``To strengthen and formalize 
linkages between Ramsar and other international and/or regional 
environmental conventions and agencies, so as to advance the 
achievement of shared goals and objectives relating to wetland species 
or issues.''
    What this seems like to me is that they are seeking public input 
from people that have absolutely no rights to my land. As I said 
before, this mission creep worries me very much. I see this language 
and I can only conclude that my rights as a private property owner are 
threatened.
    In the Arizona Republic story on February 1, 1997 the SWCBD 
contends that ``. . . wetlands are being systematically destroyed, 
drained or polluted by urban sprawl, mining, livestock grazing and 
timber cutting.'' This does not apply to my wetland, but I worry that 
much of the language from the Strategic Plan can be used by groups like 
SWCBD to violate my property rights and deprive me of the use of my 
land.
    My family and I strongly feel that the past 89 years of history 
speak for themselves. If we were not true stewards of the land, we 
could not have run a successful cattle operation for the past 5 
generations.
    As I said before, my heart's desire is to live on this land and 
pass it down to my sons and daughters knowing that they too can be good 
stewards of the land without having to fear more government land use 
regulations. I plead with the people present here today to consider 
these words. The same government that promised my great-great-
grandfather and my great grandfather, the land, through the Homestead 
Act, and pursuit of happiness is now the same government that is 
helping destroy these dreams.
    It is absolutely necessary that this bill, H.R. 883, include the 
Ramsar convention and that this bill is passed and implemented. As a 
sovereign nation we cannot give any more power to those whose desire is 
to control our very existence.
                                 ______
                                 
          Statement of David B. Rovig, P.E., Billings, Montana
    Mr. Chairman and members of the Committee, I am David B. Rovig, a 
mining engineer from Billings, Montana. I want to testify in support of 
H.R. 883, The American Land Sovereignty Protection Act. H.R. 883 
addresses several key issues that are of great importance to protecting 
private property rights, access to strategic resources and our Nation's 
sovereignty. These issues are, and have been, the cornerstones of our 
country's success. No nation has ever achieved or sustained greatness 
without access to natural resources and, certainly, no great nation has 
ever allowed other nations to dictate its resource policy. Likewise, 
only those nations respecting private property rights have ever 
sustained greatness. These very important tenets have worked well for 
over two hundred years, but now seem to be tested at almost every turn 
by those who now manage our government's affairs and their handlers in 
the pseudo-environmental community. I know this legislation passed in 
the 105th Congress and hopefully that will be the case again.
    Let me place in personal terms the need for H.R. 883. In 1987, I 
was one of the founders of Crown Butte Resources Ltd., a company that 
acquired a few claims in the mountains, and $40,000,000 later had 
discovered a world class gold deposit called the New World Mine in 
south-central Montana. Unfortunately, as it turned out, it was within 3 
miles of a remote corner of Yellowstone Park. That project made 
business sense from the very beginning. It was also a project that we 
knew from the very beginning would be very closely monitored and that 
would have to meet or exceed a mountain of regulations and 
requirements. After a very careful review, we knew those hurdles would 
be difficult but passable. Crown Butte worked with the State of Montana 
and several Federal agencies to chart a course for the completion of an 
Environmental Impact Statement. That process alone would take several 
years and cost several millions of dollars. Every concern of the State 
and Federal governments was addressed and we were well on our way to 
receiving the required permits. The challenge was enormous, expensive, 
and unpredictable, but through numerous changes to mining plans, 
ranging from how we handled tailings to where our facilities would be 
located progress was made.
    The now well-known piracy of the process began late February 1995 
when fourteen environmental groups requested that Yellowstone National 
Park be listed as a World Heritage Site in Danger. They saw that we 
were meeting all the legal and regulatory tests so they felt the scare 
tactic of placing Yellowstone on the World Heritage Sites in Danger 
list might be their only chance to stop the mine. They did this with 
the full support of the administration and Yellowstone Park management. 
It seems the New World Mine was a project the radical environmentalists 
and the Clinton Administration loved to hate. However, if one looks at 
the facts that are associated with the New World Mine they tell a 
vastly different story than what you have heard or read in the media or 
in information provided by the Clinton Administration. The 
Administration's bullying tactics and complete sellout to the 
obstructionist agenda of a few elitist pseudo-environmental groups 
resulted in an unparalleled government denial of the free enterprise 
system. Unparalleled, at least until it was used as a stepping stone to 
the even larger and more egregious intrusion known as the Escalante-
Grand Staircase Land Grab. What horrible precedents--now every 
objection to development in the West includes a demand for government 
buyouts.
    There is a great deal of history tied to the New World Mine project 
dating back to the mid-1800's. Mining in this area is nothing new. 
Only, with today's standards, it was to be done with minimal impact on 
the environment and with the approval and oversight of State and 
Federal agencies. As I mentioned before, we were in that very 
structured and deliberative process when a committee operating under 
the umbrella of the United Nations came to Yellowstone National Park, 
already a World Heritage Site, to see if it should be added as a Site 
in Danger. Incredibly, when the visit was first publicly announced, the 
Interior Department was going to pay for the travel costs of the U.N. 
members. Fortunately, public outcry resulted in that decision being 
withdrawn. These three or four committee members from such places as 
Thailand paid a three-day tourist-type visit to the Park during which a 
three-hour road tour of the New World Mine site was made. After this 
short visit, which consisted largely of media events and photo ops, 
this group of ``experts'' concluded that the New World project did 
endanger Yellowstone Park. In arriving at this outrageous decision they 
chose to ignore the many volumes of scientific evidence that had been 
gathered on the project over several years and at great cost by some of 
the world's true experts from industry and government. The nearly 
completed New World Mine Environmental Impact Statement was probably 
the most comprehensive technical document ever assembled for such a 
project. The negation of this document was a slap in the face to the 
many agency professionals, primarily from the Forest Service and the 
State of Montana, who had justifiably developed great professional 
pride in their management of such a complex effort. I ask you, how 
could they make those findings: (A) after a short visit to Yellowstone 
Park and the mine site, (B) without even a basic understanding of the 
environmental review process that was taking place, and (C) without 
consulting with our elected representatives in Congress? These three 
failings are inexcusable in America.
    Past Congresses and Administrations, in conjunction with Federal 
agencies and State governments, developed a very detailed and extensive 
review process with full public involvement. The studies and 
information required are extensive and exhaustive by any measure. Many 
agencies were in the process of doing all the necessary reviews and 
requiring Crown Butte to provide all the necessary data for an 
Environmental Impact Statement. That process should have been honored. 
Instead, it was scuttled. All who played by all the rules paid a dear 
price in doing so. The State of Montana which had invested the time and 
talent of its best regulators was left out of the decision. Montana 
paid the price of losing all the economic benefit this project and 
others that might have followed could bring. Partly because of 
decisions like this, Montana currently ranks fiftieth in the nation's 
per capita income. The miners, the engineers, the businessmen, the 
property owners, the counties and municipalities, all were left in the 
economic lurch which was facilitated in part by three day visitors from 
other continents.
    To this day, I know the New World Mine could have been developed 
and operated in a manner that fully protected Yellowstone's resources 
while contributing to the Nation's economy. Please do not forget that I 
am a life-long Montanan and I want Yellowstone to be there for my 
children and grandchildren, as well as yours. I was trained from a very 
early age that if you play by the rules you will be judged accordingly. 
That was not the case with the New World Mine. Three other directors 
and I resigned from the Crown Butte Board rather than agree to take a 
piddling amount of Federal money and pull the plug on the project. A 
great deal of hard work went into a viable project and it went out the 
window with an ill-conceived political/media decision. If that is to be 
the future process we must follow, our country has lost its focus and 
its fairness. You always hear the naysayers say, ``put your mine some 
place else because this area or this site is too special.'' I have a 
simple reply to that. The Creator put both on earth, the grandeur of 
Yellowstone, and the gold of the New World Mine. Gold is where you find 
it, not where you wish it to be.
    In closing, I would make three recommendations. First, pass H.R. 
883 with strong provisions protecting our sovereignty. Our country 
developed the concept of a System of National Parks. Do we now need 
others to tell us how they should be managed? Second, let the system 
work. How can we continue to invest vast sums of money in projects 
where a very comprehensive evaluation system is in place and then, when 
a select group decides it should not go forward, have the Federal 
treasury pick up the bill? I do not think any business, mining or 
otherwise, should take on complex projects with the idea that ``Uncle'' 
will buy them out if the politics get too hot. Lastly, Mr. Chairman, 
common sense and reason have to be placed back in the process. Everyday 
a new layer of regulation is added at some level in the process. 
Everyday some obstructionist group uses that new regulation, or some 
mutation of it, to effect new barriers the Congress could not possibly 
have imagined and everyday we, in the business world, are forced to 
look outside our borders for new projects. I hope that is not what 
America is about. Your actions on H.R. 883 and other similar types of 
legislation are one small step in arriving at an answer.
    Thank you, Mr. Chairman, I would be happy to answer any questions.
                                 ______
                                 
 Statement of Ann Webster Smith, Chairman Emeritus, U.S. Committee of 
the International Council on Monuments and Sites (U.S./ICOMOS) and Vice 
    President, International Council on Monuments and Sites (ICOMOS)
    Mr. Chairman, members of the Committee. Thank you for the 
opportunity to appear before you to testify on legislation which would 
amend the Antiquities Act of 1906 and Section 401 of the National 
Historic Preservation Act dealing with U.S. participation in the World 
Heritage Convention, H.R. 883, the American Land Sovereignty Protection 
Act, a bill ``to preserve the sovereignty of the United States over 
public lands and acquired lands owned by the United States, and to 
preserve State sovereignty and private property rights in non-Federal 
lands surrounding those public lands and acquired lands.''
    On behalf of some 600 members, the U.S. Committee of the 
International Council on Monuments and Sites (U.S./ICOMOS) opposes this 
bill because it would deny Americans the opportunity to protect, 
recognize and honor that of their cultural and natural patrimony which 
is or could be recognized to be, in the language of the World Heritage 
Convention, ``of outstanding universal value'' and worthy of the 
prestige that such recognition by 156 other nations and the 
international community implies.
    U.S./ICOMOS is a professional membership organization with some 600 
members who represent the fields of architecture, town planning, 
history and architectural history, archaeology and archives. U.S./
ICOMOS is a non-governmental cultural heritage organization established 
in 1965 and is concerned with the conservation, protection, 
rehabilitation and enhancement of historic properties and groups of 
buildings, historic districts and site, and in educational and 
information programs designed to reflect that concern. U.S./ICOMOS is 
one of a network of independent non-governmental national committees 
representing similar professions in more than 90 countries, the 
International Council on Monuments and Sites (ICOMOS).
    More importantly, in terms of the proposed legislation, H.R. 883, 
ICOMOS is one of two non-governmental bodies (the other being the 
International Union for the Conservation of Nature) which are named in 
the World Heritage Convention as professional consulting bodies on 
nominations to the World Heritage List, a list of natural and cultural 
or man-made properties determined to be ``of outstanding universal 
value,'' to each nation and to all nations.
    U.S./ICOMOS would like to address those aspects of H.R. 883 which 
deal with the World Heritage Convention and U.S. participation in that 
Convention or treaty. Rather than reducing U.S. participation in the 
Convention, we would encourage the Committee on Resources to strengthen 
and encourage measures which would lead to a greater United States 
participation in the World Heritage Convention. For that reason, we 
would oppose any steps such as those proposed in H.R. 883 which would 
diminish or limit the level of U.S. actions concerning the Convention 
and the World Heritage List which the Convention has created.
    The World Heritage Convention has its roots in proposals put 
forward during the first Nixon Administration at the Stockholm 
Conference on the Environment in 1972 where the Hon. Russell Train 
headed the U.S. delegation. Subsequently the United States was the 
first nation to ratify the Convention. Since that time 156 nations have 
ratified the Convention and some 582 properties (117 natural, 445 
cultural or man-made and 20 ``mixed'' or combining both cultural and 
natural features) have been listed on the World Heritage List of 
Cultural and Natural Heritage ``of outstanding universal value.''
    In this country, important historic properties such as Thomas 
Jefferson's Monticello and Independence Hall have been listed along 
with natural properties of unique distinction such as Everglades and 
Grand Canyon National Parks. In other countries, cultural properties of 
such undeniable ``outstanding universal value'' as the Acropolis, 
Westminster Abbey, and the Great Wall of China have been listed along 
with whole towns or urban areas such as Old Jerusalem, Venice and its 
Lagoon and Islamic Cairo.
    The nomination of properties is a governmental process in each 
country (or State Party to the Convention) which determines which 
properties from among its national patrimony it considers to be ``of 
outstanding universal value.'' Listing on the World Heritage List 
includes no international legal protection or sanctions. Protection for 
nominated or listed properties grows out of the laws and statutes of 
the nominating country and the country's protective measures must be 
stated as a part of the nomination. In nominating a property, the 
nominating country is neither limited nor prohibited from any proposed 
use or action except those limits or prohibitions that have been 
established by the country's own laws. Nomination forms for properties 
proposed for listing call for a statement of laws or decrees which 
govern the protection of nominated monuments and sites, including the 
nominated property, evidence of a master plan for the historic 
preservation of the nominated property, together with a land-use plan, 
an urban development plan or a regional development plan if any exist. 
The nomination form asks for information as to whether these 
legislative or statutory measures prevent uncontrolled exploitation of 
the ground below the property, the demolition and reconstruction of 
buildings located on the property or permit other significant changes 
such as raising building height or other transformation of the urban 
fabric. The nomination must also indicate what if any measures exist to 
encourage revitalization of the property.
    The nomination form seeks to identify protective measures whether 
national or Federal, state or provincial, regional or local, which may 
apply to the property. There are no measures for international 
protection and no international sanctions set forth within the 
provisions of the Convention guidelines. Any protective measures which 
may exist are, in the parlance of the United States, national, state or 
local. No international protection is claimed or implied except the 
protection which might grow out of moral suasion or concern for a 
property believed to be ``of outstanding universal value.'' And there 
is no international mechanism for enforcement at any level.
    To examine the specific provisions of H.R. 883 section 2(a), 
nomination to and listing on the World Heritage List do not affect or 
diminish private interests in real property (4), do not impinge in any 
way on private property rights, and (6) do not conflict with 
congressional constitutional responsibilities (7). As for section 2(b), 
nomination and listing do not impose restrictions on the use of 
nominated or listed lands (3), and do not diminish private interests in 
real property (4) Following the nomination by a national government 
(``State Party''), an intense professional evaluation is made of each 
property or group of properties by experts in different fields of 
expertise who also examine the case that the nominating country has 
made for inclusion in the World Heritage List. In the case of natural 
properties, that evaluation is made by the International Union for the 
Conservation of Nature (IUCN); in the case of cultural properties, that 
evaluation is made by ICOMOS. In all cases, the evaluations are 
conducted as a part of a several-tier process, thoughtful, scholarly, 
deliberate and positive.
    What is the value of the Convention and its World Heritage List? 
Those countries (or States Party) participating in the Convention see 
it as a mechanism for encouraging national pride, for stimulating 
education concerning each country's own national treasures whether they 
represent history, culture or natural wonders. The countries where 
properties are located see listing on the World Heritage List as the 
means for economic development especially in terms of encouraging 
tourism and visitation, a major source of local and foreign investment 
in many countries.
    In most countries of the world, historic cities, towns and historic 
districts under the leadership of their local, state or regional and 
national officials, seek listing because they know that such 
recognition serves to stimulate local pride, economic development, to 
encourage private investment and public recognition of the quality of 
the area that is so recognized. The Ancient Cities of Aleppo and 
Damascus are listed, the historic quarters of Budapest are listed as 
are the historic centers of Florence and Rome, of Cracow and Warsaw, of 
Bath in England, of Segovia and Toledo in Spain, of Berne in 
Switzerland, of the historic areas of Istanbul, of Dubrovnik, of Potosi 
in Bolivia, of the towns of Ouro Preto, Olinda and Salvador de Bahia in 
Brazil, of Quebec City in Canada where another property, the small 
historic town of Lunenberg was recently inscribed, of Quito, and of 
Mexico City. These are among the many historic towns and centers that 
other countries have seen fit to nominate and have listed for those 
qualities which give them their ``of outstanding universal value.''
    In each country and in each of these cities and towns, all dynamic 
and living urban areas as well as being areas rich in history and 
tradition, the people of the community, the pride of the community and 
the economy of the community have all benefited in real financial terms 
as a result of listing as well as in terms of pride and a sense of 
community and patriotism.
    But in the United States, in spite of our own rich heritage and in 
spite of our own beautiful, historic, well planned and widely visited 
historic areas such as Savannah, Charleston and New Orleans, such as 
Georgetown, Annapolis and San Antonio, and many many more, no historic 
towns and areas are listed. Why is that? Because an element of the 1980 
amendments to the National Historic Preservation Act, has limited the 
nomination process by calling for the consent of each owner in an 
historic district to such listing.
    This statutory limitation on the nomination of historic properties 
in the United States has been frustrating for the citizenry of those 
historic communities which greatly desire the honor and distinction 
that World Heritage listing implies and which would like to join other 
historic communities on this honor roll of the cultural heritage. 
Equally frustrating to them is the fact that they are being denied the 
unmistakable economic benefits of tourism and private investment which 
such international recognition would bring them.
    Several years ago residents of Savannah sought to nominate that 
beautiful and historic city to the World Heritage List. Savannah has 
long been listed on the National Park Service's list of National 
Historic Landmarks. But because of the 1980 statutory requirement for 
owner consent for properties covered by the nomination, the city chose 
to nominate only the publicly owned spaces, the streets, the parks and 
the plan of Savannah, to the World Heritage List. Much Georgia's 
Congressional delegation including Savannah's own Congressional 
representative, supported and endorsed the Savannah nomination.
    Procedures for nomination to the List for properties categorized as 
``cultural'' creates no criterion for the listing of such properties 
but instead, in relation to inhabited historic towns, distinguishes 
four categories:

        (1) ``Towns which are typical of a specific period or culture, 
        which have been almost wholly preserved which have remained 
        largely unaffected by subsequent developments.
        (2) ``Towns that have evolved along characteristic lines and 
        have preserved, sometimes in the midst of exceptional natural 
        surroundings, spatial arrangements and structures that are 
        typical of the successive stages in their history
        (3) ``Historic centers' that cover exactly the same area as 
        historic towns and are now enclosed within modern cities
        (4) ``Sectors, areas or isolated units which, even in the 
        residual state in which they have survived, provide coherent 
        evidence of the character of a historic town which has 
        disappeared. . . .''
    In reviewing the Savannah nomination of its parks, streets, open 
spaces and publicly owned areas, it was determined that the proposed 
listing did not fall into any of the specified categories of properties 
or inhabited historic towns that might be listed under the World 
Heritage criteria. Those reviewing the nomination called on the city of 
Savannah to nominate the whole historic area but because of the 1980 
Historic Preservation Act's limitations on U.S. nominations (i.e. the 
owner consent provision), the city was unable to do so. This was a 
great disappointment to the residents of Savannah and similarly a 
disappointment for those other historic towns and cities in the U.S. 
who were considering the nomination of their own historic areas, many 
of which are still seeking the recognition and positive benefits that 
World Heritage listing would bring. Indeed, their property rights are 
denied by virtue of the 1980 amendments and would be further impinged 
by enactment of H.R. 883.
    This is viewed with deep concern by those Americans who recognize 
and cherish their historic and culturally significant areas. Beyond the 
situation which exists today, however, H.R. 883 would, in effect, 
further limit the ability of the United States to place its treasures 
on the rolls of the world's patrimony where they might enjoy the 
recognition and the benefits that other countries have seen in their 
own nominations of their national treasures.
    World Heritage listing is designed to protect properties, to 
protect and to preserve communities, and to serve as a mechanism for 
encouraging investment and economic development designed to further 
enhance such properties. H.R. 883, in seeking to limit the recognition 
of quality which World Heritage listing encourages, is diminishing 
rather than enhancing measures such as World Heritage listing which 
serves to educate, to stimulate pride, to encourage public and private 
investment, to benefit communities as well as those who live in them 
and those who visit them.
    We would encourage the House Committee on Resources to give serious 
consideration to the negative impact that H.R. 883 would have on 
existing measures for recognition such as the World Heritage process, a 
process which grew out of a United States initiative, a Convention 
which the United States was the first of 156 nations to ratify, a 
measure which has done much to achieve recognition and protection of 
the cultural and natural heritage which is found to be ``of outstanding 
universal value.''
    The World Heritage Convention for which the United States was the 
initiator and standard bearer is the single most popular international 
convention in the world today. And yet, rather than seeking to expand 
the impact of the Convention and the very real benefits that it has 
brought to other comers of the world, H.R. 883 seeks to deny American 
communities an opportunity to participate in this benevolent, 
constructive, educational, enriching program. The enactment of H.R. 883 
would largely eliminate U.S. participation in the World Heritage 
Convention, a Convention which resulted from a U.S. initiative, a 
Convention which in 1972, during the Nixon Administration, the U.S. was 
the first nation to ratify, a Convention which has brought pride to its 
participants and appreciation of the values imparted by recognition of 
the cultural and natural heritage to schoolchildren and scholars alike.
[GRAPHIC] [TIFF OMITTED] T6693.001

[GRAPHIC] [TIFF OMITTED] T6693.002

[GRAPHIC] [TIFF OMITTED] T6693.003

[GRAPHIC] [TIFF OMITTED] T6693.004

[GRAPHIC] [TIFF OMITTED] T6693.005

[GRAPHIC] [TIFF OMITTED] T6693.006

[GRAPHIC] [TIFF OMITTED] T6693.007

[GRAPHIC] [TIFF OMITTED] T6693.008

[GRAPHIC] [TIFF OMITTED] T6693.009

[GRAPHIC] [TIFF OMITTED] T6693.010

[GRAPHIC] [TIFF OMITTED] T6693.011

[GRAPHIC] [TIFF OMITTED] T6693.012

[GRAPHIC] [TIFF OMITTED] T6693.013

[GRAPHIC] [TIFF OMITTED] T6693.014

[GRAPHIC] [TIFF OMITTED] T6693.015

[GRAPHIC] [TIFF OMITTED] T6693.016

[GRAPHIC] [TIFF OMITTED] T6693.017

[GRAPHIC] [TIFF OMITTED] T6693.018

[GRAPHIC] [TIFF OMITTED] T6693.019

[GRAPHIC] [TIFF OMITTED] T6693.020

[GRAPHIC] [TIFF OMITTED] T6693.021

[GRAPHIC] [TIFF OMITTED] T6693.022

[GRAPHIC] [TIFF OMITTED] T6693.023

[GRAPHIC] [TIFF OMITTED] T6693.024

[GRAPHIC] [TIFF OMITTED] T6693.025

[GRAPHIC] [TIFF OMITTED] T6693.026

[GRAPHIC] [TIFF OMITTED] T6693.027

[GRAPHIC] [TIFF OMITTED] T6693.028

[GRAPHIC] [TIFF OMITTED] T6693.029

[GRAPHIC] [TIFF OMITTED] T6693.030

[GRAPHIC] [TIFF OMITTED] T6693.031

[GRAPHIC] [TIFF OMITTED] T6693.032

[GRAPHIC] [TIFF OMITTED] T6693.033

[GRAPHIC] [TIFF OMITTED] T6693.034

[GRAPHIC] [TIFF OMITTED] T6693.035

[GRAPHIC] [TIFF OMITTED] T6693.036

[GRAPHIC] [TIFF OMITTED] T6693.037

[GRAPHIC] [TIFF OMITTED] T6693.038

[GRAPHIC] [TIFF OMITTED] T6693.039

[GRAPHIC] [TIFF OMITTED] T6693.040

[GRAPHIC] [TIFF OMITTED] T6693.041

[GRAPHIC] [TIFF OMITTED] T6693.042

[GRAPHIC] [TIFF OMITTED] T6693.043

[GRAPHIC] [TIFF OMITTED] T6693.044

[GRAPHIC] [TIFF OMITTED] T6693.045

[GRAPHIC] [TIFF OMITTED] T6693.046

[GRAPHIC] [TIFF OMITTED] T6693.047

[GRAPHIC] [TIFF OMITTED] T6693.048

[GRAPHIC] [TIFF OMITTED] T6693.049

[GRAPHIC] [TIFF OMITTED] T6693.050

[GRAPHIC] [TIFF OMITTED] T6693.051

[GRAPHIC] [TIFF OMITTED] T6693.052

[GRAPHIC] [TIFF OMITTED] T6693.053

[GRAPHIC] [TIFF OMITTED] T6693.054

[GRAPHIC] [TIFF OMITTED] T6693.055

[GRAPHIC] [TIFF OMITTED] T6693.056

[GRAPHIC] [TIFF OMITTED] T6693.057

[GRAPHIC] [TIFF OMITTED] T6693.058

[GRAPHIC] [TIFF OMITTED] T6693.059

[GRAPHIC] [TIFF OMITTED] T6693.060



  FIELD HEARING ON H.R. 883, AMERICAN LAND SOVEREIGNTY PROTECTION ACT

                              ----------                              


                         SATURDAY, MAY 1, 1999

                          House of Representatives,
                                    Committee on Resources,
                                                   Rolla, Missouri.
    The Committee met, pursuant to call, at 10:26 a.m., in the 
Rolla Miles Auditorium, University of Missouri, Rolla, 
Missouri, Hon. Helen Chenoweth, presiding.

OPENING STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IDAHO

    Mrs. Chenoweth. The Committee on Resources will come to 
order. The Committee is meeting today to hear testimony on H.R. 
883, the American Land Sovereignty Protection Act. And I am so 
pleased, as I said before, to be so welcomed into JoAnn 
Emerson's District.
    I want to welcome our witnesses. Today we will hear 
testimony on the U.S. Man and Biosphere Reserve Program.
    I represent the 1st District in Idaho in Congress and 
although my district is 1,000 miles from here, forestry, 
mining, ranching, private property rights are very important 
there, as they are here in this beautiful part of southern 
Missouri.
    Over the last 25 years, an increasing expansion of our 
nation's territory has been incorporated in the United Nations 
Biosphere Reserves. Now under Article IV, Section 3 of the 
United States Constitution, the power to make all needful rules 
and regulations governing lands belonging to the United States 
is vested in the Congress, and yet United Nations Biosphere 
Reserve designations, as well as World Heritage Sites, have 
been created without the authorization or the input of 
Congress; and therefore, the public and local governments are 
left out of the loop and rarely, if ever, are they consulted.
    I understand that the biosphere reserve program is 
controversial here in Missouri. I also understand that it is 
taking a nap right now. But I want us to remember, it will wake 
up if we do not stay vigilant. So Congressman Emerson invited 
the Committee on Resources to come to her district and listen 
to the concerns that local residents here in Missouri have 
about this program. I invite her to join me as an official 
member of the panel and she will be participating in the 
hearing.
    So that everyone understands, my concern is that the United 
States Congress--and therefore, the people of the United States 
of America--who have been left of the domestic process to 
designate Biosphere Reserves and World Heritage Sites, have a 
chance at every turn to have the local input they need.
    The Biosphere Reserve Program is not even authorized by a 
single U.S. law or even an international treaty. And that is 
wrong. Executive Branch appointees cannot and should not do 
things that the law does not authorize. But this is an example 
of where they are doing that.
    Today, we will also hear testimony on H.R. 883, which gives 
the Congress a role in approving international land 
designations, primarily United Nations World Heritage Sites and 
Biosphere Reserve Sites. H.R. 883 has now more than 160 co-
sponsors, including Representatives Emerson, Danner, Talent, 
Hulshof and Blunt. Now in Arkansas, Representative Dickey, 
Berry and Hutchinson are original co-sponsors of H.R. 883. We 
intend to move this legislation from the Committee to the House 
floor for a vote very soon.
    Both biosphere reserves and world heritage site programs 
are administered through the United Nations Educational, 
Scientific and Cultural Organization (UNESCO). However, it is 
interesting to note that the United States withdrew from UNESCO 
in 1984 because the Reagan Administration found it riddled with 
gross financial mismanagement. Fifteen years later, even the 
Clinton Administration has not rejoined UNESCO. And yet, they 
are becoming partners with the United States in joint 
jurisdiction over enough land now in our country with the 
present designations to fill up the entire state of Colorado. 
As a result, it defies the imagination why our government is 
still participating in these UNESCO programs.
    We, as the Congress, have a responsibility to ensure that 
the representatives of the people are engaged on these 
important international land designations. I do not think that 
the Constitution advises that the governing of our Federal 
lands--that we simply opt out of policies that may appear 
ineffectual. But instead, it expressly requires that we, the 
Congress, make all needful rules and regulations regarding 
Federal land, as if to suggest that we, your Congressmen, are 
to jealously guard against the slightest possibility that 
foreign entities have any power over what belongs under the 
strict purview of the United States.
    Until now, no one has lifted an eyebrow to examine how the 
U.S. domestic implementation of these very programs has eaten 
away at the power and sovereignty of the U.S. Congress to 
exercise its constitutional power to make the laws that govern 
what goes on on Federal land. Today, we will begin to look at 
these issues.
    With that, it is time to begin. I am sorry that none of the 
representatives from The Nature Conservancy or the Sierra Club 
or the Audubon Society, who were invited to testify today, 
chose not to come and do so. I would have liked to hear their 
perspective on this issue.
    I am pleased to welcome the 12 witnesses who will testify 
today. If time permits at the end of testimony from these 
witnesses, we will also hear testimony from those of you who 
have signed up to give testimony in the open mike session.
    The first panel is presently seated and I want to recognize 
them. And I do want to say that we swear all of the panelists 
under the oath. And I think that you have received rules from 
the Committee with regard to the fact that we do swear 
witnesses under the oath.
    So I wonder if you would mind rising and raise your right 
hand to the square.
    [Witnesses sworn.]
    Mrs. Chenoweth. Please be seated.
    I want to explain, before we start the testimony for the 
hearing, about our light system. They are right up here and 
they are just like stop lights. When the green light is on, you 
can proceed; when the yellow light is on, you step on the gas 
and go like heck; and when the red light is on, you need to 
stop. So we give the witnesses five minutes each.
    I am so pleased to welcome Wanda Benton from Salem, 
Missouri; Connie Burks from Jasper, Arkansas; Bobby Simpson, 
Dent County Commissioner, Salem, Missouri and Ron Hardecke, 
Citizens for Private Property Rights, Owensville, Missouri.
    We will open up with Wanda Benton's testimony. Wanda.
    [The prepared statement of Mrs. Chenoweth follows:]

 Statement of Hon. Helen Chenoweth, a Representative in Congress from 
                           the State of Idaho

    Welcome to our witnesses. Today we will hear testimony on 
the U.S. Man and Biosphere Program.
    I represent the lst District of Idaho in Congress. Although 
my district is 1,000 miles from here, forestry, mining, and 
ranching are important there as they are here in southern 
Missouri.
    Over the last 25 years, an increasing expanse of our 
nation's territory has been incorporated into United Nations 
Biosphere Reserves. Under article IV, section 3 of the United 
States Constitution, the power to make all needful rules and 
regulations governing lands belonging to the United States is 
vested in Congress, yet United Nations Biosphere Reserve 
designations have been created without the authorization or 
input of Congress. The public and local governments are rarely 
consulted.
    I understand that the biosphere reserve program is 
controversial here in Missouri. Congresswoman Emerson invited 
the Committee on Resources to come to her district and listen 
to the concerns that local residents here in Missouri have 
about this program. I invite her to join me and participate in 
this hearing.
    So that everyone understands, my concern is that the United 
States Congress--and therefore the people of the United 
States--have been left out of the domestic process to designate 
Biosphere Reserves and World Heritage sites.
    The Biosphere Reserve program is not even authorized by a 
single U.S. law or even an international treaty. That is wrong. 
Executive branch appointees cannot and should not do things 
that the law does not authorize.
    Today we will also hear testimony on H.R. 883--which gives 
the Congress a role in approving international land 
designations, primarily United Nations World Heritage Sites and 
Biosphere Reserves. H.R. 883 now has more than 160 cosponsors, 
including Representatives Emerson, Danner, Talent, Hulshof and 
Blunt. In Arkansas, Representatives Dickey, Berry and 
Hutchinson are cosponsors of H.R. 883. We intend to move this 
legislation from the Committee to the House floor for a vote 
soon.
    Both biosphere reserves and the world heritage site 
programs are administered through the United Nations 
Educational, Scientific and Cultural Organization (UNESCO). 
However, the United States withdrew from UNESCO in 1984 because 
the Reagan Administration found it riddled with gross financial 
mismanagement. Fifteen years later, even the Clinton 
Administration has not rejoined UNESCO. As a result, it defies 
the imagination why our government is still participating in 
these UNESCO programs.
    We, as the Congress, have a responsibility to ensure that 
the representatives of the people are engaged on these 
important international land designations. I do not think that 
the Constitution advises that in governing our Federal lands 
that we simply ``opt out'' of policies that may appear 
ineffectual. But instead, it expressly requires that we, the 
Congress, make all needful rules and regulations regarding 
Federal land, as if to suggest that we are to jealously guard 
against the slightest possibility that foreign entities have 
any power over what belongs under the strict purview of the 
United States.
    Until now, no one has lifted an eyebrow to examine how U.S. 
domestic implementation of these programs has eaten away at the 
power and sovereignty of the Congress to exercise its 
constitutional power to make the laws that govern what goes on 
Federal land. Today we will begin to look at these issues.
    With that it is time to begin. I am sorry that none 
representatives from the Nature Conservancy, Sierra Club and 
Audubon Society who were invited to testify today chose not to 
do so. I would have liked to hear their perspective on this 
issue. I am pleased to welcome the twelve witnesses who will 
testify today. If time permits, at the end of testimony from 
these witnesses, we will also hear testimony from those of you 
who signed up for the open mike session. Will the first panel 
please be seated.

           STATEMENT OF WANDA BENTON, SALEM, MISSOURI

    Ms. Benton. Honorable Chairperson, distinguished Committee 
members, I wish to thank you for the opportunity----
    Ms. Emerson. You might want to grab the mike and put it up 
next to you. Sorry.
    Ms. Benton. Okay. Is this better?
    Mrs. Chenoweth. That is better, hold it close.
    Ms. Benton. Honorable Chairperson, distinguished Committee 
members, I wish to thank you for the opportunity to address 
this Committee.
    My name is Wanda Benton. My husband and I have a farm in 
Salem, Missouri. I am a property rights activist as a direct 
result of the proposed United Nations Biosphere Reserve in 
Missouri.
    I discovered in June of 1995 that the Missouri Department 
of Conservation, MDC, as lead agency, combined with five 
Federal regulatory agencies and others, had plans to manage 
Missouri lands, including private property. I was later to 
discover evidence that Coordinated Resource Management, CRM, 
was to become a United Nations Biosphere Reserve. Armed with 
that suspicion, I called the Conservation Department and asked 
for more information about CRM and I mentioned the biosphere 
reserve program, indicating that I was very interested in 
learning more. The young lady I spoke with inadvertently, in my 
opinion, sent me The Nature Conservancy proposal to the 
Missouri Department of Conservation, called ``The Lower Ozark 
Bioreserve,'' containing Exhibit Number 1, a map of the 
proposed bioreserve.
    The introduction of TNC's proposal described inviolate core 
preserves surrounded by buffer zones of human activity and 
corridors and networks of buffer lands linking protected core 
habitats for migration of animals who require large areas. 
Exhibit Number 2. Under key partners who are expected to play 
an important role in accomplishing the bioreserve strategy is 
listed the UNESCO Man and the Biosphere Program--Ozark Man and 
the Biosphere. In the feasibility study, the Missouri 
Department of Conservation is listed on the signatory page. 
Included in this paperwork was the Draft of the Ozark Highlands 
Man and the Biosphere Cooperative, showing a map of the larger 
picture, taking in portions of four states and crossing 
political boundaries. Exhibit Number 3. Page one, objective 
two, seeks designation through the U.S. MAB Program. Exhibit 
Number 4.
    Realizing that our land, resources and human activity were 
to be severely regulated, I joined Citizens for Private 
Property Rights and People for the USA. We proceeded to inform 
the public through town meetings, press releases and talk 
shows. We helped organize

several public meetings throughout the Ozarks. Due to lack of 
public input in CRM and little public knowledge, we invited MDC 
representatives who attended and answered questions from the 
audience, and at our request furnished copies of the CRM Draft. 
After the commentary period on the draft, due to public outcry, 
MDC withdrew the CRM plan.
    MDC would in April of 1997 publicly deny endorsing the MAB 
Program and pretty much called the rest of us liars. To refute 
this, I submit Exhibit Number 5, page 58 of the CRM Draft, goal 
number nine.
    In November, 1996, the following appeared in the Salem 
News: ``Nature Conservancy Announces Study of Lower Ozark Area. 
The Nature Conservancy has designated this land one of the 
world's last great places.'' Exhibit Number 6.
    In an article from November, 1995 Eco-logic, researcher 
Henry Lamb's publication entitled ``Rewilding America'' is the 
following statement referring to a piece of property TNC had 
purchased in 1990. ``A Smithsonian article in February, 1992 
described the acquisition as the `flagship' for a whole new 
program of bioreserves, called Last Great Places.'' Exhibit 
Number 7.
    I have learned from researchers and environmental writings 
that bioreserves, bioregions, biosphere reserves and eco-
regions are generally synonymous. Is The Nature Conservancy 
continuing to develop a biosphere reserve here in Missouri? 
This is a question that perhaps representatives of TNC could 
answer for us.
    I see coincidences that frighten me, such as this article 
from the TNC 1998 Annual Report, ``Saving The Last Great 
Places,'' entitled Lower Ozarks Project Area/Ozarks Eco-Region. 
Exhibit Number 8. The little map in the article is of the same 
configuration as the one in The Nature Conservancy Bioreserve 
Proposal to our Missouri Conservation Department, which listed 
the UNESCO Man and the Biosphere Program as a key partner. That 
is Exhibit Number 1.
    The end of May, 1998, Nature Conservancy publication, pages 
8 and 9, Exhibits 9 and 10, names 62 eco-regions, the Ozarks 
being number 38 on their map. Ironically, the shape of the 
Ozark eco-region is of the same configuration as the drawing of 
the Ozark Highlands, Exhibit Number 3, whose draft called for 
designation through the U.S. MAB Program. Other TNC paperwork 
shows the same configuration.
    It would be helpful to know what these similarities 
represent. Biosphere reserves are designed to destroy 
economies, lower land values and to move populations out. In 
our case, we have invested everything we have in a farm and a 
home built around our handicapped daughter's needs. She is 
severely handicapped and requires complete handicap access. 
Because of this, the house was very expensive and we could not 
do this again. If we are forced to sell our home for pennies on 
the dollar, we will not be able to take care of her in our old 
age. I ask this Committee to support H.R. 883, the American 
Sovereignty Land Protection Act, to protect state sovereignty, 
rural economies and private land ownership.
    [Applause.]
    Mrs. Chenoweth. Thank you, Wanda. I really, really 
appreciate your testimony. But I am going to have to ask the 
audience in an official hearing if you could withhold your 
applause. Thank you very much.
    The Chair now recognizes Connie Burks.
    [The prepared statement of Ms. Benton follows:]
    [GRAPHIC] [TIFF OMITTED] T6693.061
    
    [GRAPHIC] [TIFF OMITTED] T6693.062
    
    [GRAPHIC] [TIFF OMITTED] T6693.063
    
    [GRAPHIC] [TIFF OMITTED] T6693.064
    
    [GRAPHIC] [TIFF OMITTED] T6693.065
    
    [GRAPHIC] [TIFF OMITTED] T6693.066
    
    [GRAPHIC] [TIFF OMITTED] T6693.067
    
    [GRAPHIC] [TIFF OMITTED] T6693.068
    
    [GRAPHIC] [TIFF OMITTED] T6693.069
    
    [GRAPHIC] [TIFF OMITTED] T6693.070
    
    [GRAPHIC] [TIFF OMITTED] T6693.071
    
    [GRAPHIC] [TIFF OMITTED] T6693.072
    
    [GRAPHIC] [TIFF OMITTED] T6693.073
    
          STATEMENT OF CONNIE BURKS, JASPER, ARKANSAS

    Ms. Burks. To the honorable and esteemed gentlemen and 
women of the Resources Committee, I thank you for this hearing. 
My name is Connie Burks. I live near and commute twice weekly 
to Harrison, Arkansas. I am present here today with important 
documentation I obtained from the Buffalo River National Park 
Service in Harrison in July of 1996. I am not here because I 
have any training, expertise or background in this sort of 
thing, but because of my unexpected involvement in a most 
unusual situation and a series of coincidences.
    I believe the details of that story are very significant to 
the proceedings here today, but time allotments do not permit 
my telling it. I would hope that the folks who have a copy of 
my testimony in the white packet of paper accompanied by a 
green packet of documentation mostly obtained from the National 
Park Service in July of 1996--I would hope that you will peruse 
that very carefully and compare all of the information and the 
points that it refers to.
    Since this happened two or three years ago, I do not think 
a lot of people, even those who oppose this, are yet aware of 
how we came so very close to being designated as the Ozark 
Highlands Biosphere Reserve, an international designation, it 
was to have been the 48th and the second largest one in the 
country. It was within six weeks of being nominated for this 
designation after an eight-year long effort, and yet no one of 
the general public or even elected government officials knew 
anything about this.
    It just so happened that I, a mere country preacher's wife, 
happened to hear of such a program in a round-about way. I did 
not believe it at first until I visited the Southern 
Appalachian Man and Biosphere Reserve and saw the signs there. 
When I returned home, I thought, I think I will just call the 
Park Service and put in my opposition early in case they might 
ever consider that here. I was alarmed when I learned that they 
were within six weeks of designating it.
    I was invited to their office to allay my fears and they 
gave me all of this documentation at my request, and it was 
very alarming. From that point, I had another lady's help, who 
we met in a round-about way--Mary Denham, she will be testify 
later. Without her help, I probably would not have as easily 
been able to reach the new Arkansas Governor at that time.
    It was interesting, at the same time that I had come across 
this documentation, our former Governor Tucker had had to 
resign because of his connection with the Clinton scandals and 
all of a sudden a Baptist preacher was sitting in the Arkansas 
Governor's seat, and he--when we finally got this information 
to him five days before the designation was to be nominated, he 
immediately did the right thing and stopped the two agencies of 
the 12 that were under his control, that were going to submit 
us to this. As a result, all the other agencies suddenly lost 
interest and dropped out, some even denying their previous 
involvement. But we have plenty of documentation to show that 
they were involved.
    I know I do not have time to review all of this, but I 
prepared a list of 12 questions that still have not been 
answered to my satisfaction because, as the Honorable Helen 
Chenoweth said awhile ago, they are only taking a nap. It 
happened before and they will attempt it again, I have no 
doubt, unless we as citizens and elected officials continue to 
monitor the situation and to resist it.
    1. Who are the ad hoc committees, international 
coordinating councils and scientists vaguely referred to in the 
National Park Service feasibility study as being responsible 
for the outlining of biosphere boundaries and thereafter 
submitting their plans to Federal and state agencies for 
implementation? When and how are they spying out and 
cataloguing our country's great natural resources? Who is 
funding them?
    2. When this same Ozarks Man and Biosphere effort was first 
attempted through the Ozark National Scenic Riverways National 
Park headquarters in 1993 in Missouri and apparently met with 
enough opposition in Missouri to discourage it, why do you 
suppose they waited three years before quietly resuming their 
efforts to see it through to completion and why did they move 
from a Missouri National Park office to an Arkansas National 
Park office just across the state line to carry out their 
plans, and without notifying the general public or government 
officials of this move?
    3. The National Park Service could produce only one article 
of media publication for the whole eight-year long effort. That 
one article appeared in a publication of very limited 
circulation called The Rackensack Monthly, which only existed 
for four issues and was published in a place called Pelsor, 
Arkansas, which boasts only one store, a rural post office and 
five or six houses. The National Park Service cited no radio or 
television coverage. Why do you suppose they considered The 
Rackensack Monthly to be adequate notification for the 
surrounding 55,000 square miles?
    10. Questions posed by former Arkansas Congressman, now 
Senator, Tim Hutchinson, when he spoke in behalf of this same 
resolution in 1996, bear repeating here: He said, ``Promoters 
of these programs say they are voluntary and non-binding. But . 
. . what is the point of an international agreement if no one 
is going to abide by it? And if we are going to abide by it, 
what happens to the Fifth Amendment to the Constitution which 
protects private property owners? Do we let an international 
organization dictate to American citizens how they can use 
their land?''
    In studying the philosophy behind the MAB concepts, the 
pantheistic world view which equates God with the forces of 
nature and laws of the universe and considers man of no more 
consequence than the plants or animals, is the prevalent theme 
throughout all the goals, concepts and plans of MAB and its 
proponents. Adherence to this type of philosophy has produced 
societies which live in poverty, who are consistently 
destroying the ecology of their countries. On the other hand, 
the Christian nations which are maligned and vilified by the 
proponents of MAB instead have thriving economies, high 
standards of living and good ecology which is continually 
improving.
    Therefore, I make no apology for my confidence in the one, 
true and living God, whom I serve by faith in the name and 
blood of His Son, my Saviour, Jesus Christ. It is a confidence 
that He is very obviously arranging the design of the events 
and circumstances that have brought us to this assembly today. 
It is His moral law upon which the republic of our great nation 
was founded and it is only by His mercy and grace that we may 
continue to endure.
    My request to you, our public servants, is that you be 
diligent and faithful to your responsibilities to protect the 
sovereignty of our American lands as guaranteed by our 
Constitution. Surely there is a threat, but even more surely, 
there is a remedy and a cause. Will you respond by thoroughly 
investigating this matter and taking measures to end the 
unAmerican abuses of our freedom?
    My final statement comes from the ultimate authority--God's 
Holy Word.
    In Proverbs and Ecclesiastes, it says:
    ``The fear of man bringeth a snare. . . .'' But, ``Let us 
hear the conclusion of the whole matter: Fear God and keep His 
commandments, for this is the whole duty of man. For God shall 
bring every work into judgment, with every secret thing, 
whether it be good, or whether it be evil.''
    Thank you.
    [Applause.]
    Mrs. Chenoweth. I want you to know I feel like applauding 
too, but if you could withhold your applause until after the 
testimony, this is an official hearing and I would appreciate 
it very much.
    Connie, I wonder if you would like to have your whole 
testimony, including your exhibits, made a part of the record?
    Ms. Burks. Yes, ma'am.
    Ms. Chenoweth. All right, very good. And we will also 
submit the questions officially on your behalf as the Committee 
for answers.
    The Chair now recognizes Bobby Simpson, Dent County 
Commissioner from Salem, Missouri. Mr. Simpson.
    [The prepared statement of Ms. Burks follows:]
    [GRAPHIC] [TIFF OMITTED] T6693.074
    
    [GRAPHIC] [TIFF OMITTED] T6693.075
    
    [GRAPHIC] [TIFF OMITTED] T6693.076
    
    [GRAPHIC] [TIFF OMITTED] T6693.077
    
    [GRAPHIC] [TIFF OMITTED] T6693.078
    
    [GRAPHIC] [TIFF OMITTED] T6693.079
    
    [GRAPHIC] [TIFF OMITTED] T6693.080
    
    [GRAPHIC] [TIFF OMITTED] T6693.081
    
    [GRAPHIC] [TIFF OMITTED] T6693.082
    
    [GRAPHIC] [TIFF OMITTED] T6693.083
    
    [GRAPHIC] [TIFF OMITTED] T6693.084
    
    [GRAPHIC] [TIFF OMITTED] T6693.085
    
    [GRAPHIC] [TIFF OMITTED] T6693.086
    
    [GRAPHIC] [TIFF OMITTED] T6693.087
    
    [GRAPHIC] [TIFF OMITTED] T6693.088
    
    [GRAPHIC] [TIFF OMITTED] T6693.089
    
    [GRAPHIC] [TIFF OMITTED] T6693.090
    
    [GRAPHIC] [TIFF OMITTED] T6693.091
    
    [GRAPHIC] [TIFF OMITTED] T6693.092
    
    [GRAPHIC] [TIFF OMITTED] T6693.093
    
    [GRAPHIC] [TIFF OMITTED] T6693.094
    
    [GRAPHIC] [TIFF OMITTED] T6693.095
    
    [GRAPHIC] [TIFF OMITTED] T6693.096
    
    [GRAPHIC] [TIFF OMITTED] T6693.097
    
    [GRAPHIC] [TIFF OMITTED] T6693.098
    
    [GRAPHIC] [TIFF OMITTED] T6693.099
    
    [GRAPHIC] [TIFF OMITTED] T6693.100
    
    [GRAPHIC] [TIFF OMITTED] T6693.101
    
 STATEMENT OF BOBBY SIMPSON, DENT COUNTY COMMISSIONER, SALEM, 
                            MISSOURI

    Mr. Simpson. Distinguished Committee members, I would like 
to thank you for this opportunity to address this Committee and 
commend the Committee for having this hearing in Rolla, where 
an attempt was made to implement the Man in Biosphere Program. 
So often any more, the Federal Government makes polices that 
affect us, the people who make our living from the land, 
without consideration for the ones who live and work here.
    My name is Bobby Simpson. I am a third generation 
cattleman, who has grown up in the Ozarks, making most of his 
living for his family from private land, not by abusing it but 
for caring and using it wisely.
    I am the 1st District Commissioner of Dent County. I am 
also a member of the Missouri Cattlemen's Association and the 
Missouri Farm Bureau. I served as the President of the County 
Farm Bureau for seven years from 1987 to 1994. As President of 
the Farm Bureau, I became actively involved in property rights 
issues such as wetlands and here in Missouri, the Natural 
Streams Act. This Act was a state issue which would have 
severely restricted all streams and their watersheds in 
Missouri. Thankfully, this was soundly defeated.
    After the defeat of the Natural Streams Act, I decided to 
run and won the 1st District Commissioner in 1994. Little did I 
know what was lying ahead for me, but a proposed project called 
the Ozark Highlands Man in Biosphere Program. This was being 
introduced through Coordinated Resource Management, sponsored 
by the Missouri Department of Conservation. Many Federal and 
state agencies had endorsed this and had signed on. Since the 
Man in Biosphere Program included Dent County and since the 
County Commission is elected by the people, we should have been 
informed and consulted. This was not the case. In fact, I did 
not know of this program until some of my constituents, who are 
here today, informed me. As a local elected official, I should 
have been the first to know about these issues that affect both 
the public and private uses of the natural resources in my 
county. Unfortunately county government seems to be the last to 
know when it comes to Federal land use planning.
    Dent County is made up of approximately 75 percent private 
land and 25 percent public land. There are approximately 70,000 
acres of National Forest in Dent County. The National Forest 
provides thousands of dollars of income to our local school 
districts and county road departments through the sales of 
natural resources from the forests. Dent County is very 
dependent on agriculture, mostly beef cows, and the timber 
industry. But there are also many jobs for our citizens related 
to the mining industry that lies just to the east of Dent 
County. In my opinion, the Man in Biosphere Program, if 
implemented, would have totally destroyed the tax base of Dent 
County. Our whole economy is based mostly from natural 
resources such as agriculture, timber and mining. Without the 
use of these resources, the jobs and the way of life of Dent 
County would have changed or ended and many of our citizens 
would have had to relocate to make a living.
    In fact, Madam Chairman, the Man in Biosphere Program, in 
my opinion, is against everything this country was founded on--
life, liberty and the pursuit of happiness. Without freedom to 
use land wisely, how can the American farmer feed this country 
and a lot of the world?
    The Dent County Commission held a public meeting in Salem 
on the Man in Biosphere Program, and we had over 700 people 
attend. Many other meetings were held throughout the Ozarks, 
and shortly after that the Missouri Department of Conservation 
withdrew the Coordinated Resource Management Program and the 
Man in Biosphere Program kind of went the same way.
    Madam Chairman, I have a letter here from the Sierra Club 
and the reason why--one of the reasons they decided not to 
attend, I will quote him, ``Quite frankly, I fear for my 
safety----''
    [Laughter.]
    Mr. Simpson. [continuing] ``as there have been instances of 
violence directed at the Sierra Club.''
    Madam Chairman, look around you, we have the Rolla Police 
here, look at this crowd. I do not think they look very 
threatening to me.
    We are the ones who fear for our way of life. When you are 
a farmer or a logger and you are out there making your living 
from the land and somebody is trying to change your way of 
life, we are the ones who feel the threat. Frankly, they do not 
have the guts to come here today and tell us how they think 
these programs should be implemented because they have no sound 
science for evidence.
    Even though Man in Biosphere was withdrawn from our area, 
we still are feeling the effects, such as certain environmental 
groups buying huge tracts of land in southern Missouri to set 
up core areas and corridors along the National Forests. These 
programs seem to never die. No agency has ever brought to me, a 
county official, a document to verify this thing is over. Even 
when the Forest Service puts up a bid for timber nowadays, 
certain groups are filing lawsuits delaying sales and in more 
and more instances are stopping them. We feel only 25 percent 
of the timber is being harvested that should be from our 
National Forest and new mining areas are not even being 
explored, not to mention developed.
    In order to protect the tax base, the culture and the 
customs of my county, Dent County, the County Commissioners 
signed an Interim County Land Plan May 11, 1998. Land use 
planning describes the amount and type of commodity, 
recreational or other industrial or land uses which provide the 
tax base for the county. Forest Service regulations require 
that Federal land use planning efforts are both coordinated and 
consistent with local land use plans and policies. In order to 
take advantage of coordinated regulations, local governments 
must legally adopt local land use plans. Land use plans are 
completely different than local planning and zoning. Land use 
plans describe the general industrial basis needed for economic 
support of the county. We have to give a written notice to all 
Federal and state agencies of our local land use plan, because 
without it, they are under no obligation to consider the 
county's economic needs. We have to also ask all Federal and 
state agencies to protect and preserve the customs of our 
county under the National Environmental Protection Act. Only in 
this way can local government fight to protect economic base 
and private property rights of its citizens. And I have 
submitted that with my testimony.
    The Dent County Commission on April 26, 1999 signed a 
resolution in strong support of H.R. 883, the American Land 
Sovereignty Protection Act. We, the Dent County Commission, 
completely support the sovereignty of the United States, not 
the United Nations, over public lands and to preserve state 
sovereignty and private property rights in non-Federal lands 
surrounding those public lands.
    Again, I commend you for being here to listen to local 
citizens and thank you for allowing me to speak.
    Madam Chairman, we have a saying down here in the Ozarks, 
``If it ain't broke, don't fix it.''
    [Laughter and applause.]
    Mrs. Chenoweth. Thank you very much, Commissioner. The 
hearing will come to order.
    The Chair will recognize Ron Hardecke from the Citizens for 
Private Property Rights in Owensville.
    [The prepared statement of Mr. Simpson follows:]
    [GRAPHIC] [TIFF OMITTED] T6693.102
    
    [GRAPHIC] [TIFF OMITTED] T6693.103
    
    [GRAPHIC] [TIFF OMITTED] T6693.104
    
    [GRAPHIC] [TIFF OMITTED] T6693.105
    
    [GRAPHIC] [TIFF OMITTED] T6693.106
    
    [GRAPHIC] [TIFF OMITTED] T6693.107
    
    [GRAPHIC] [TIFF OMITTED] T6693.108
    
    [GRAPHIC] [TIFF OMITTED] T6693.109
    
    [GRAPHIC] [TIFF OMITTED] T6693.110
    
    [GRAPHIC] [TIFF OMITTED] T6693.111
    
    [GRAPHIC] [TIFF OMITTED] T6693.112
    
    [GRAPHIC] [TIFF OMITTED] T6693.113
    
    [GRAPHIC] [TIFF OMITTED] T6693.114
    
   STATEMENT OF RON HARDECKE, CITIZENS FOR PRIVATE PROPERTY 
                  RIGHTS, OWENSVILLE, MISSOURI

    Mr. Hardecke. Madam Chairman and distinguished Committee 
members, I want to thank you for the invitation to address this 
Committee.
    I am Ron Hardecke from Owensville, Missouri. I am a farmer 
and the Vice President of Citizens for Private Property Rights. 
As a farmer, the ability to use the land in the way we see best 
to improve it and to pass the land and the heritage of farming 
on to the next generation are lifelong goals.
    It is a privilege to offer testimony in favor of the 
American Land Sovereignty Protection Act.
    In the early 1990s, the Missouri Department of Conservation 
in collaboration with other state and Federal agencies, 
developed a program for Missouri known as Coordinated Resource 
Management. The stated mission of CRM is to inventory all the 
state's natural resources and develop 50-year goals for the use 
of those resources.
    In January of 1996, the CRM draft plan was published. Goal 
IX of that plan called for the creation of the Ozark Man and 
the Biosphere Cooperative.
    As Missouri citizens discovered the recommendations in Goal 
IX, we began to question what the designation would mean to 
private landowners. Upon researching the MAB concept, it became 
clear that it was patterned after the UNESCO Man and Biosphere 
Program. The Missouri Department of Conservation repeatedly 
denied any knowledge of or connections to the UNESCO program.
    After many questions were raised concerning the MAB 
program, the Department of Conservation stated they would drop 
Goal IX; however, it was about that time that we obtained a 
copy of the feasibility study, which was prepared for the 
steering committee which was nominating the Ozark Plateau 
Province as a potential Biosphere Reserve. This map here in 
front outlines the area which was proposed in the feasibility 
study for the Ozark Highlands Man and the Biosphere 
Cooperative.
    I want to focus on the feasibility study and how it 
disguised the true intent of the MAB concept in order to get 
support from the people who were interviewed. I have four areas 
of concern:

          1. This idea came from government agencies, not from 
        the people or local elected officials.
          2. There was and continues to be extensive influence 
        by the Nature Conservancy in the establishment of the 
        Ozark Man and the Biosphere Cooperative.
          3. The original plans intended to impose this concept 
        on private landowners without their knowledge or 
        approval.
          4. The feasibility study drew conclusions which were 
        inconsistent with the printed responses from the 
        interviewees.
    It is clear in the feasibility study that the government 
agencies and The Nature Conservancy initiated this process with 
guidance from the U.S. Man and the Biosphere Program. 
Throughout the study, references were made to UNESCO, over 25 
references in fact, and to the UNESCO Action Plan for Biosphere 
Reserves, which was used as a model for the Ozark Plan. This 
seems to contradict with what the Conservation Department told 
us when we questioned the UNESCO influence in the project.
    I want to read for you what the feasibility study has to 
say about public input, and I quote:

          ``The purpose of these meetings is to begin informing 
        the public about the MAB program. There should be no 
        press conferences or large public meetings because they 
        encourage polarized views before the story can be told 
        in an objective non-threatening manner.''
    The Nature Conservancy is listed numerous times throughout 
the study as a contributor to the process. They are also listed 
as private landowners who wish to have their property managed 
as a part of the biosphere reserve. I hardly think they are a 
true representation of private landowners in southern Missouri.
    The interviewees were told that the MAB program is not 
regulatory. Previously in the document, when describing the 
characteristics of a biosphere reserve, it states that a 
biosphere reserve must have long-term legislative, regulatory 
or institutional protection. It also states that the designated 
areas may include private land and entire watersheds may need 
to be protected in order to preserve an ecosystem.
    The proposal to link the core areas with corridors of wild 
lands such as stream corridors would involve large amounts of 
private land. With 93 percent of Missouri in private ownership, 
I think there should have been a much broader debate with 
private landowners before this designation was proposed.
    In summary, the feasibility study stated that they found 
almost universal acceptance of the concepts embodied in the MAB 
program. However, the people that were interviewed were asked 
several questions about what they perceived as needs in their 
area. And the response to one of the questions, which was what 
is one thing you would like to have for your community, brought 
almost unanimous response--and these were printed in the 
feasibility study--of various infrastructure and industry 
wishes, to use the areas natural resources and provide jobs for 
citizens. This seems to conflict with the goals of the MAB plan 
which calls for setting aside large areas to exclude 
significant human influences. I wonder if this part of the MAB 
concept was explained to the interviewees in the study?
    In my opinion, the entire feasibility was conducted in such 
a way to only solicit positive responses to the MAB program. 
Therefore, the steering committee could proceed with perceived 
widespread support, even though very few citizens of Missouri 
had any idea what was going on.
    Eventually, by the end of 1996, there was enough public 
awareness of the concept that the Missouri Department of 
Conservation even scrapped the entire CRM program.
    There has not been any law passed to keep these agencies 
from trying to implement this plan through other covert means. 
Therefore, it is imperative that H.R. 883 be passed into law to 
ensure that the U.S. Congress exercises its constitutional 
authority and responsibility over Federal lands, to protect 
state sovereignty and to protect private landowners in their 
constitutional rights. American must maintain complete 
sovereignty over all its lands from direct or indirect 
influence by any foreign power or international body.
    Thank you.
    [Applause.]
    [The prepared statement of Mr. Hardecke follows:]
    [GRAPHIC] [TIFF OMITTED] T6693.115
    
    [GRAPHIC] [TIFF OMITTED] T6693.116
    
    [GRAPHIC] [TIFF OMITTED] T6693.117
    
    [GRAPHIC] [TIFF OMITTED] T6693.118
    
    [GRAPHIC] [TIFF OMITTED] T6693.120
    
    [GRAPHIC] [TIFF OMITTED] T6693.121
    
    [GRAPHIC] [TIFF OMITTED] T6693.122
    
    [GRAPHIC] [TIFF OMITTED] T6693.123
    
    [GRAPHIC] [TIFF OMITTED] T6693.124
    
    [GRAPHIC] [TIFF OMITTED] T6693.125
    
    [GRAPHIC] [TIFF OMITTED] T6693.126
    
    [GRAPHIC] [TIFF OMITTED] T6693.127
    
    [GRAPHIC] [TIFF OMITTED] T6693.128
    
    Mrs. Chenoweth. Will the hearing come to order.
    I want to thank the witnesses very much for your 
outstanding testimony. And now we go to the section of the 
hearing where the members will ask you questions. And under 
Rule 4.G.2 also the members must confine their questions to the 
five-minute structure. Any other questions members will have--
and we will have them--we will submit them to you in writing 
and we would appreciate your returning a response within 10 
working days.
    So the Chair now recognizes Ms. Emerson for questions.
    Ms. Emerson. Thank you, Madam Chairman.
    Mr. Hardecke, tell me a little bit about your thoughts on a 
possible relationship between the Natural Streams Act that did 
get defeated in 1990 and the Man and the Biosphere Program.
    Mr. Hardecke. Well, actually I think there are some very 
significant correlations. As you know, the Natural Streams Act 
was voted down by a large majority, 75 percent opposition in 
the State of Missouri in November, 1990. It seems coincidental 
that in September, 1991, the feasibility study for the Man and 
the Biosphere Cooperative was completed, and as you look over 
the list of the committee who commissioned this feasibility 
study, the environmental groups who were involved with the 
state and Federal agencies in this proposal are the same ones 
who brought to us the Natural Streams Act. And then that led up 
to the proposal through Coordinated Resource Management here in 
Missouri for the draft plan being proposed in 1996, which 
revealed as Goal IX the Man and the Biosphere Program.
    Ms. Emerson. And you have submitted that for the record.
    Mr. Hardecke. Yes, the list is one of my exhibits.
    Ms. Emerson. And it included some of the other 
environmental groups like the Sierra Club and others?
    Mr. Hardecke. And the private landowners who were listed in 
the committee were Pioneer Forest and The Nature Conservancy 
and we know that those groups had a large influence in the 
Natural Streams Act. So I guess the bottom line is, as so often 
happens when the people say no to something, the agencies and 
the bureaucrats go about it another way.
    Ms. Emerson. Thank you. Wanda, let me ask you a question. 
One of the concerns that I have heard from a lot of people has 
to do with the signage that is near biosphere reserves, and 
that is often erected at these sites that says World Heritage 
Site designated by the United Nations. Tell me what you know 
about these types of indications that we are coming upon.
    Ms. Benton. I have not seen any evidence of any--I have had 
people call me and tell me about them, but I personally have 
not seen any evidence of any.
    Ms. Emerson. Okay. So you personally have not seen any at 
all.
    Ms. Benton. No, I have not.
    Ms. Emerson. Okay, have any of you all seen any kind of 
signage of other types of biosphere reserves or world heritage 
sites?
    Mr. Hardecke. When we were in Yellowstone Park this summer, 
it is on the sign when you enter the park there.
    Ms. Emerson. Does it say World Heritage Site or Biosphere 
Reserve?
    Mr. Hardecke. Biosphere Reserve.
    Ms. Emerson. Connie, you have as well?
    Ms. Burks. Yes, just south of Gatlinburg as you enter the 
Great Smoky Mt. National Park, it says very plainly--
International Biosphere Reserve; however, I understand that 
they did not erect these signs when they (the Biosphere 
Reserves) were first designated. It was only--Mary Denham can 
probably tell us more about that, I am not sure about the date, 
but it has been within the last few years that they began to 
erect the signs.
    Ms. Emerson. I appreciate that.
    Bobby, do you have a sense of how many other organizations 
and/or county commissions may have passed resolutions like you 
all have either at the Dent County Commission or the Cattlemen?
    Mr. Simpson. I know the Cattlemen have and I know our 
county has and I was not notified until about two weeks ago 
about the hearing, so I do not know about how many other 
counties. But we felt strongly about this and wanted to show 
you that local leaders are in support of this and I attached 
that to my testimony too.
    Ms. Emerson. Well, I do appreciate that, and actually, 
Madam Chairman, I want to submit for the record too a statement 
from the Oregon County Commission, vis-a-vis their appreciation 
of the position that we have taken on the issue of private 
property rights, and hopefully we can put that into the record.
    Mrs. Chenoweth. Without objection, so ordered.
    [The material referred to follows:]

                        Clerk of County Commission,
                                             Oregon County,
                                                     Alton,
                                                           Missouri
The Honorable Joann Emerson,
339 Broadway,
Federal Office Bldg.,
Cape Girardeau, MO
Dear Congresswoman Emerson:
    The Oregon County Commission regrets that we are not able to attend 
your meeting on Saturday, May 1st. However we did want to express our 
appreciation of the position you have taken on private property rights. 
Please express also to Congresswoman Helen Chenoweth and Congressman 
Don Young the work they have done and also coming to our state for this 
meeting. As you may know we have adopted a land use plan for our County 
in hopes it may be effective in the future should the need arise.
            Sincerely,
                                                Leo Warren,
                                       Oregon Cnty, Presiding Com.,
                                              Buddy Wright,
                                                    Associate Com.,
                                             John Wrenfrow,
                                                    Associate Com.,
                                              Gary Hensely,
                                                      County Clerk.

    Ms. Emerson. Thank you.
    You know, one of the big problems that I have with the 
whole U.S. Man and the Biosphere Program, not the least of 
which is that none of the local folks have had any input 
whatsoever, but technically it is supposed to infer wise use of 
our natural resources when in fact you all are already doing 
that. I mean I do not know anybody who as farmers and ranchers 
take better care of the land because you know if you do not 
take care of the land, the land is not going to take care of 
you. Perhaps you might enlighten for the record, Bobby, how you 
do take care of the land in a very environmentally safe way.
    Mr. Simpson. Okay. Like you said, you know, when you have 
been in the cattle business as long as my family has, it seems 
to be kind of a calling to you, you know, it is something I 
always knew when I was three or four years old what I wanted to 
do. And I have a son now who is wanting to do, I think, the 
same thing. If I abuse the land, the next generation and the 
generation after that are the ones who would suffer. We have 
stopped erosion on our farm tremendously to what it was 20 
years ago and I know it is a bad word to certain environmental 
groups, but you know, fescue has done worlds of good down here 
in the Ozarks. It does not wash very good.
    But anyway, if I do not do everything that I can to take 
care of my farm, I am the only one who suffers and my family 
suffers and the next generation suffers. So it is only to our 
advantage to do what we think is best. And I know my 
grandfather grew up in New Mexico and there were probably 
things back then that they did not do right, but they did not 
know better. But as each generation comes along, we are a 
little smarter, we look at things a little differently and we 
do things differently. And we try to do the best we can.
    Ms. Emerson. Thank you, I appreciate that.
    No further questions. The yellow light is on, I cannot talk 
that fast.
    Mrs. Chenoweth. I thank the Congressman.
    I would like to ask Wanda, have you read Ken Midkiff's 
letter to Chairman Don Young regarding this hearing?
    Ms. Benton. Yes, I did.
    Mrs. Chenoweth. Well, what is your response to the 
statement that because he fears for his safety, he could not 
attend?
    Ms. Benton. Well, do I look very threatening to you?
    [Laughter.]
    Mrs. Chenoweth. Why do you suppose he made that statement?
    Ms. Benton. Well, I cannot speak for Mr. Midkiff 
specifically, but I believe that one of the traits of paranoia 
is you transfer your desires and capabilities onto other 
people, and perhaps this is what is happening in this case, I 
do not know.
    Mrs. Chenoweth. I see, thank you.
    I wanted to ask Commissioner Simpson, could you explain for 
the record the economic impact of this program had it been 
fully implemented, to your county?
    Mr. Simpson. In my opinion, the way I read the plan was it 
was--it was going to place tremendous restrictions on the use 
of the public lands and private lands because it was all tied 
together in this master plan. I have got a school district that 
is in part of my district that is probably 75 percent inside 
the National Forest and they are tremendously dependent on the 
sale of timber and mining materials, you know, coming out of 
their district. My county here gets almost $100,000 each year 
out of sales of timber out of the National Forest and we use 
that to maintain the roads and the public use of the county 
roads inside Dent County. I know that is not a lot of money in 
Washington, DC, but that is about a 10th of my budget and it is 
very important to our county.
    Mrs. Chenoweth. A hundred thousand dollars--let me see, you 
get the PILT payments, do you not?
    Mr. Simpson. Yes, that goes in the general revenue and we 
get a portion of the sales of natural resources.
    Mrs. Chenoweth. Yeah. Well, you have a fiduciary 
responsibility to your constituents to provide an awfully lot 
of services--roads and hospitals and schools and emergency 
services, all kinds of things.
    Mr. Simpson. And that is not including all the jobs that 
are created through the National Forest, you know, independent 
jobs. From the guy who goes out there and cuts the logs to the 
sawmill operator to the processor. I know a friend of mine who 
works at Canoke Industries there in Salem and he told me if 
they stopped all the sales in the National Forest, that he 
would absolutely have to lay off 50 employees, because he is 
very dependent on that timber coming out of the forest that is 
close to our community.
    When the forest was set up years ago, I guess during the 
depression years, our county was virtually bankrupt. And they 
came in and bought that land for a little of nothing with the 
promise that it would be there to give stability to our local 
county governments and to our local citizens. That was the 
promise that they gave that in the last few years has not been 
fulfilled. Like I gave in my testimony, I feel like we are not 
getting 25 percent of what we should be getting out of that 
National Forest. It is very sustainable, it can, if managed 
properly, can be here forever, as long as we need it.
    Mrs. Chenoweth. Well, Commissioner, the National Forest 
Practices Act requires statutorily through the policies that 
the Congress has implemented that the cuts should be at a level 
equal to 90 percent of the growth rate and you are cutting in 
that forest at 25 percent?
    Mr. Simpson. That is my opinion, ma'am. You know, we live 
down there, we drive by and we see what is going on. I have 
friends who are in the logging business, they pay to go in 
there and use the roads and that money is being collected out 
of their paychecks for maintenance of the forest roads and yet 
that money goes to Washington, DC and never comes back down 
there to help us get the road systems in Dent County up to 
adequate levels. And I know they are somewhat regulated by what 
comes in Washington, but in our opinion, it is a far cry from 
being right.
    Mrs. Chenoweth. Well, I will tell you, we are trying to 
change the general tax policy, I would love to discuss that 
with you, but I guess this hearing is on something else that is 
even--well as close.
    So generally, Commissioner, what you are testifying to is 
that you would have seen not only a reduction in revenues but 
also a reduction in the tax base, so that more responsibility 
to provide for the needed tax base would fall on fewer people.
    Mr. Simpson. Yes, ma'am. If you do not have your local jobs 
there that people traditionally have had for hundreds of years, 
they are going to move somewhere else to make a living and we 
are a 13,000-14,000 population county. You know, we really 
struggle to make ends meet every year. We cannot take a loss of 
income of any kind.
    Mrs. Chenoweth. Well, boy, I sure hear you, I really do. 
Your job is not easy and I respect the job that you are doing, 
Commissioner.
    Mr. Simpson. Thank you, ma'am.
    Mrs. Chenoweth. Ron Hardecke, why do you believe that the 
Missouri Department of Conservation withdrew the Coordinated 
Resource Management plan, what happened there?
    Mr. Hardecke. Well, I think as Goal IX was exposed and the 
Man and the Biosphere concept came out in the public 
awareness--it was tucked away in Goal IX, which was clear in 
the back of the plan in just one little sentence or paragraph. 
And that drew attention to the whole plan and then when we 
found the feasibility study and you look through that, actually 
CRM was just a cloak for the Man and the Biosphere Program. So 
if they withdrew from Goal IX, the Man and the Biosphere was 
not worth them continuing, but as it was stated earlier, it is 
only asleep. And that is why we have to be vigilant and we ask 
that you pass this legislation to give that protection.
    Mrs. Chenoweth. Thank you very much. I do want to respond 
to your question. We did pass this legislation last year and 
the year before by an overwhelming majority and there was a lot 
of debate on it, but it passed by a huge majority. We need to 
find the heroes in the Senate, we will run it through the 
Senate and place it on the President's desk. And certainly 
those of you, all of you, not only the panel but the entire 
audience, will be helpful in making sure that this moves 
through the entire process.
    I do want to--my staff tells me I can take the Chairman's 
prerogative and ask Connie this question, Connie Burks. On page 
4 of your written statement, you point out that a Park Service 
feasibility study claimed almost universal support among 
community leaders for the Ozark Biosphere. I noticed that and I 
was very interested in your elaborating on what you found when 
you tried to verify this claim in the field about all that 
official support.
    Ms. Burks. Yes. Mr. Hardecke already addressed that a 
little bit in his testimony too, I noticed. When I first 
retrieved this feasibility study, I requested it from the 
National Park Service office, that was the first time it had 
ever surfaced. And from there, we have passed it on to some 
Missouri folks and what-have-you, but it is a massive document. 
When we began to read it, there are all sorts of 
inconsistencies in it. I began contacting some of these judges, 
farm bureau agents, community leaders, et cetera who were 
listed as having supported this. Some of them I knew 
personally. And first of all, they first questioned ``the 
what?'' They had never heard of it before. No one in any place 
in Arkansas, any elected government official whose name was on 
this, had ever even heard of it before.
    In my documentation I have three examples of written 
statements of these gentlemen who verified both by saying so in 
writing that they had never heard of it and had they known of 
it, they would have opposed the program. But the feasibility 
study is something that anyone who is investigating this matter 
should thoroughly study because it is full of one discrepancy 
after another.
    Mrs. Chenoweth. Thank you. Ms. Emerson.
    Ms. Emerson. Chairman Chenoweth, I might add that I am 
really rather shocked at this, but it only goes to show the 
lengths to which people will stretch the truth perhaps. I 
noticed here a letter from my late husband Bill to Jerome Smith 
of Norwood, Missouri, in which he states that, quote, ``I 
continue to have concerns about the implication that these so-
called biospheres could have on private property rights and I 
am against control of our country's crown jewels by 
international agencies.''
    Yet it is shocking that in the feasibility study, it does 
in fact say that, quote, ``His office would not be an initiator 
but if the county commissioners support the cooperative, 
Congressman Emerson will support it,'' after he just said quite 
the opposite in a letter. So I think that goes--shows you the 
lengths to which the proponents of the Man and the Biosphere 
Reserves would go.
    Mrs. Chenoweth. We have come a long ways from the 
truthfulness of George Washington, have we not?
    Ms. Emerson. We have.
    Mrs. Chenoweth. Well, I want to thank this panel very, very 
much for your very valuable and insightful testimony.
    We do have more questions for you and we will be submitting 
those questions to you in writing.
    So now I will excuse this panel and will call to the 
witness table John Powell from Rolla, Missouri; Richard Yancey, 
Black, Missouri; Mary Denham, Take Back Arkansas and Frank 
Meyers, People for the USA, Potosi, Missouri.
    [Pause.]
    Mrs. Chenoweth. The meeting will come to order, please. I 
wonder if the panelists would please stand and raise your right 
arms to the square.
    [Witnesses sworn.]
    Mrs. Chenoweth. Thank you. The Chair now is pleased to 
recognize John Powell for his testimony.

   STATEMENT OF JOHN POWELL, FRANK B. POWELL LUMBER COMPANY, 
                        ROLLA, MISSOURI

    Mr. Powell. Thank you very much, Madam Chairman and members 
of the Committee. My name is John Powell and I live right here 
in Rolla, Missouri. In fact, my house is only about three or 
four blocks from here, so I had a hard trip.
    [Laughter.]
    Mr. Powell. I am a lumberman and a tree farmer and have 
owned and managed forest lands for a half century. Our holdings 
are located about 50 miles south of here and comprise roughly 
17,000 acres.
    We have been following best management practices since we 
began buying timber land in 1949. We believe in the wise use 
of--and let me emphasize that word use--the wise use of our 
resources and that they are direly needed to satisfy the needs 
of our nation.
    I am 100 percent in favor of H.R. 883. Ladies, we are 
burdened with way too much restriction and regulation now 
throughout our nation without additional interference from the 
United Nations or the Executive Branch of our government.
    A good steward of the land believes in the wise use of the 
earth and its resources, but not abuse. Education is the only 
good answer to correcting land abuse, and if this is not 
successful then any regulation needs to be kept at the lowest 
possible local level. We definitely do not need or want 
regulations from the United Nations. Members of the Committee, 
it is bad enough having to put up with regulations from our 
Federal and state governments.
    I fortunately will admit that so far I have not been 
bothered with environmental restrictions but I can certainly 
see it coming. Take the Federal Government.
    The environmental movement, the media and some of the 
politicians have virtually shut down our nation's number one 
provider of wood fiber--of course, that is the U.S. Forest 
Service. Their annual harvest has been reduced from over 15 
billion board feet to less than three billion board feet 
annually.
    On the state level, many have or are considering 
restrictions of harvesting timber on state-owned land. Some of 
these are Minnesota, Michigan, Wisconsin, Oregon and 
Washington.
    Next, it will be the private landowner restrictions. These 
are already in place in California, Maine, Connecticut, Oregon, 
Washington, Idaho, Massachusetts, New Mexico and Alaska.
    Now the main point I want to make here this morning is that 
we now have our hands full of our own government regulations, 
so please spare us from the burden of possible international 
regulations and restrictions.
    I did not give any other background information, but if you 
have any questions, I will be happy to answer them, but I did 
want to bring out that point. We have had it with regulations 
and we do not need the whole world telling us what to do.
    Thank you very much.
    Mrs. Chenoweth. Thank you very much, Mr. Powell. The Chair 
now recognizes Richard Yancey.
    [The prepared statement of Mr. Powell follows:]

               Statement of John Powell, Rolla, Missouri

    Mr. Chairman and members of the Committee, my name is John 
Powell and I live in Rolla, MO. I'm a lumberman and tree farmer 
and have owned and managed forest lands for a half century. Our 
holdings are located about fifty miles south of here and are 
comprised of roughly 17,000 acres.
    We have been following best management practices since we 
began buying timber land in 1949. We believe in the wise use of 
our resources and that they are needed to satisfy the needs of 
our nation.
    I am 100 percent in favor of H.R. 883--``The American Land 
Sovereignty Protection Act.'' We are being burdened with way 
too much restriction and regulation now, throughout our nation, 
without this additional interference from the United Nations 
and the Executive Branch of our Government.
    A good steward of the land believes in the wise use of the 
earth and its resources but not abuse. Education is the only 
good answer to correcting land abuse and if this is not 
successful then any regulation needs to be kept at the lowest 
possible local level. We definitely do not need or want 
regulation from the United Nations--its bad enough having to 
put up with regulations from the Federal and State governments.
    I, fortunately, will admit that so far I have not been 
bothered with environmental restrictions but I can see it 
coming.
          1.The environmental movement, the media and some of the 
        politicians have virtually shut down our nations number one 
        provider of wood fiber, the U.S. Forest Service. Their annual 
        harvest has been reduced from over 15 billion board feet to 
        less than 3 billion board feet.
          2.Many states have or are considering restrictions of 
        harvesting timber on state owned lands. Some are Minnesota, 
        Michigan, Wisconsin, Oregon and Washington.
          3.Next will be private land owner restrictions. These are 
        already in place in California, Maine, Connecticut, Oregon, 
        Washington, Idaho, Massachusetts, New Mexico and Alaska.
    We have our hands full now battling our own government so please 
spare us from the burden of possible international regulations and 
restrictions.

 STATEMENT OF RICHARD J. YANCEY, PRESIDENT, VIBURNUM CHAPTER, 
              PEOPLE FOR THE USA, BLACK, MISSOURI

    Mr. Yancey. Good morning.
    As a witness before this Committee, I would first like to 
express my thanks to the members for the opportunity to address 
you today. My name is Richard Yancey and I am speaking on 
behalf of The People for the USA in support of this 
legislation. We believe that passage of this legislation is a 
critical step in the restoration of the Constitutional 
authority of Congress to address important land management 
issues on Federal lands.
    With over a decade of experience as mine geologist, I have 
had many opportunities to deal with land resource issues and I 
am very concerned at these designations. In fact, most of the 
designations in the United States have originated with 
environmental organizations like the Sierra Club, The Nature 
Conservancy. And the National Park Service has been often a 
willing partner in implementing the designation process.
    Clearly, there is a keen interest on the part of many 
environmental organizations--I am a little nervous, this is the 
first time I have ever done this--
    Mrs. Chenoweth. You are doing good.
    Mr. Yancey. Let me back up here. Clearly, there is a keen 
interest on the part of many environmental organizations to see 
the designation of many more Biosphere Reserves and World 
Heritage Sites in the U.S. Other witnesses testifying in 
previous hearings to this Committee in support of this 
legislation have already commented on the links that these 
designations have to the Wildlands Project, the Convention on 
Biological Diversity and the Global Biodiversity Assessment. 
Clearly, the Wildlands Project controversial goal of converting 
50 percent or more of the U.S. land area to natural habitats 
with very limited human use would be viewed as rather extreme 
by most Americans. But we are participating in two major U.N. 
programs, which currently have no Congressional oversight and 
are very supportive of this extremism and appear to be 
implementing it.
    Considering my background, I would like to explain to the 
Committee members why the people of Missouri, specifically 
those who are directly dependent on the mining industry for 
their income, need the protection that the American Land 
Sovereignty Protect Act would provide. In Missouri, mining has 
an annual value of over $5 billion and provides direct 
employment to more than 8,000 people, employing thousands of 
others indirectly. Missouri is the nation's foremost producer 
of lead and a significant producer of zinc and copper. All of 
these metals are of significant strategic importance to the 
United States.
    The lead deposits of southeast Missouri lie in a rather 
unique geologic setting. In fact, southeast Missouri contains 
the largest known concentration of lead in the earth's crust. 
But this does not mean that these deposits are widespread or 
easy to find. Discovery of even one deposit often takes years 
of exploration and a very serious amount of capital investment.
    A basic understanding of the geology and development 
requirements of these deposits is critical if one is to analyze 
the needs of Missouri's metals mining industry. Often I am 
asked why we just could not locate our mines in less 
environmentally sensitive areas, although nobody in the 
environmental organizations seem to know where such a place 
might be. The answer is simple--mines are located where the ore 
deposits are located, not where we would like for them to be, 
which would be on my land, if I had a choice.
    [Laughter.]
    In the case of southern Missouri, the most prospective area 
for new discoveries cuts a swath directly across the region 
recently proposed for the Ozark Man and the Biosphere. And I 
have got a map that I have included with my written testimony.
    If the Ozark Man and Biosphere were to become reality, it 
would be not hard to imagine its impact on Missouri's lead 
mines, not to mention the other natural resource based 
industries. Exploration for mineral resources is not an 
activity compatible with Biosphere core area management 
regimens. Drilling for mineral resources might be allowed in 
buffer zones, but what would be the point since new mines will 
not be allowed. A good example is the halting of the new World 
Mine Project near Yellowstone World Heritage Site, which is 
stark evidence of how the U.N. views mining. Although it is not 
likely, there may even be pressure for closure of current mine 
operations since these sort of activities do not fit in the 
social engineering mind set of sustainable development called 
for in these programs. Regardless, without discovery of new 
resources, lead mining in Missouri will come to a screeching 
halt in a few years.
    Now the common thread of all these efforts is the removal 
of large portions of public and private lands from multiple-use 
methods of land management without substantial input from the 
people affected or their elected officials. And in place of 
this common-sense conservation-minded process of resource 
management, these programs wish to implement a sustainable 
development economy that is yet to be clearly defined as to how 
it will work. However, this is irrelevant to the environmental 
extremists who have conceived of radical programs like the 
Wildlands Project, which put nature above man in every case. 
The real tragedy of such radical schemes is that they ignore 
the successes of other more reasonable approaches and 
needlessly destroy the economic, social and environmental 
progress accomplished by the efforts of thousands of 
responsible land managers and millions of American citizens, as 
Bobby was speaking about earlier.
    Furthermore, subjugating U.S. laws to U.N. regulations 
through an international agreement that does not have the will 
and support of the people of this country or the oversight of 
Congress, I feel strains the limits of the Constitution. This 
is especially true when sections of an international agreement 
are being implemented without ratification, as is in the case 
of the Convention on Biological Diversity. This presents a 
threat to the sovereignty of the United States. And I will say 
that again, I really feel this presents a threat to the 
sovereignty of the United States. There is a definite lack of 
accountability on the part of the Man and the Biosphere and 
World Heritage Site programs and the international 
bureaucracies that have sprung from these UNESCO projects. 
Without passage of legislation like the American Land 
Sovereignty Protection Act, these problems will not only 
continue, but will propagate across the U.S. as more citizens 
of rural communities find their means of income regulated out 
of existence by radical environmental management schemes. I 
encourage the members of the House Resources Committee to make 
the House of Representatives at large aware of the seriousness 
of this situation and turn this legislation into law as soon as 
possible.
    Now I added a little postscript here after reading the 
Sierra Club's little letter that they sent out. You know, I 
just have to say the lack of witnesses by the environmental 
organizations demonstrates their desire to circumvent even the 
most fundamental aspects of the democratic process here. You 
know, the Sierra Club's program director, Ken Midkiff's excuse 
for not coming here today, that he has been threatened by 
People for the USA, which I represent, and other groups, is 
just pure political hype.
    Thank you.
    Mrs. Chenoweth. Thank you, Mr. Yancey. The Chair recognizes 
Mary Denham for testimony.
    [The prepared statement of Mr. Yancey follows:]

Statement of Richard J. Yancey, President, Viburnum Chapte, People for 
                                the USA!

Introduction

    As a witness before this Committee, I would first like to 
express my thanks to the members, especially Representatives 
Don Young and JoAnn Emerson, for the opportunity to address you 
today. My name is Richard Yancey and I am speaking on behalf of 
The People for the USA! in support of The American Land 
Sovereignty Act, H.R. 883. We believe that passage of this 
legislation is a critical step in the restoration of the 
Constitutional authority of Congress to address important land 
management issues on Federal lands.
    With over a decade of experience as a mine geologist, I 
have had many opportunities to deal with land resource issues 
and I am very concerned about the United Nations Man and the 
Biosphere and World Heritage Site designations. There are 
already 67 such designations, 47 Biosphere Reserves and 20 
World Heritage Sites, in the United States. Designation of a 
site under either program does not require input from Congress 
or the people living in the region. In fact, most designations 
in the United States originated with environmental 
organizations like the Sierra Club or the Nature Conservancy, 
although the National Park Service has often been a willing 
partner in implementing the designation process.

Program Descriptions

    Briefly, I will describe the most essential aspects of both 
programs, since other witnesses have already done a very good 
job laying out the details. The Biosphere Reserve model 
consists of three areas: a core area, a buffer zone and a 
transition area. While the World Heritage Sites are generally 
not set up under the same model, recent events near the 
Yellowstone World Heritage Site make it clear that similar 
guidelines are being followed.
    Man and the Biosphere models focus on the core area, which 
consists of minimally disturbed ecosystems and only activities 
that do not adversely affect natural processes and wildlife are 
allowed. Often core areas are centered on a National Park or 
Wildlife Refuge, but may extend beyond public lands to include 
private properties. The Federal or state lands would be very 
carefully managed and the private lands would be heavily 
regulated to fit the biosphere guidelines. Certainly, most 
multiple-use activities, including mining, ranching, timbering 
and farming, would not be allowed in core areas.
    Surrounding core areas are buffer zones, where activities 
and natural resources are managed to help protect the core 
areas. Multiple-use activities are specifically allowed in 
buffer zones under the Man and the Biosphere model, but in 
practice, have been not been permitted to take place in any 
substantial manner. Once again, we can look to the Yellowstone 
World Heritage Site, where Crown Butte Mining's development of 
the New World Mine was halted, despite the fact that there was 
a mountain range between the World Heritage Site boundary and 
the proposed mine. Especially onerous in this affair was how 
the Greater Yellowstone Coalition, a group of 13 environmental 
organizations, manipulated the World Heritage Committee into 
declaring the site as ``World Heritage Site in danger.'' This 
introduced a perception of impending disaster to the issue. 
This perception was patently false but, nevertheless, the 
Clinton Administration blocked the development of this project 
at a very high cost to U.S. taxpayers.
    The outermost layer of a Biosphere Reserve is a transition 
area, which is a ``dynamic zone of cooperation in which 
conservation knowledge and management skills are applied.'' 
While economic development in transition areas is more 
acceptable than in buffer zones, it is still highly regulated 
and subject to management by United Nations officials. The 
three layers or ones often encompass millions of acres of 
public and private land.
    Clearly, there is keen interest on the part of many 
environmental organizations to see the designation of many more 
Biosphere Reserves and World Heritage Sites in the U.S. Other 
witnesses testifying to this Committee in support of H.R. 883 
have already commented on the links the Man and the Biosphere 
and World Heritage Site programs have to the Wildlands Project, 
the Convention on Biological Diversity and the Global 
Biodiversity Assessment.Clearly, the Wildlands Project 
controversial goal of converting 50 percent or more of the U.S. 
land area to natural habitats with very limited human use would 
be viewed as rather extreme by most Americans. Yet we are 
participating in two major U.N. programs, which currently have 
no Congressional oversight, that are very supportive of this 
extremism and appear to be implementing it.

Impacts to Missouri Communities

    So how do the Man and the Biosphere and World Heritage Site 
programs affect Missourians? There was a recent attempt to 
designate a Biosphere Reserve here in southern Missouri. The 
consequences of such a designation would reach deep into the 
economic and social soul of many rural communities here in the 
Ozarks. This region is heavily dependent on natural resource 
based industries such as mining, timbering and agriculture. 
These industries have deep roots, with documented evidence of 
the French mining lead at Mine LaMotte as early as 1721. 
Missouri has been a major producer of timber for nearly two 
hundred years and has had a strong agricultural history and is 
currently the second in beef production in the United States. 
All these activities will be adversely affected by Man and the 
Biosphere or World Heritage Site designation.
    Considering my background, I would like to explain to the 
Committee members why the people of Missouri, specifically 
those who are directly dependent on the mining industry for 
their income, need the protection that the American Land 
Sovereignty Protection Act would provide. Mining has an annual 
value to Missouri of over five billion dollars and provides 
direct employment for more than eight thousand people and 
employing thousands of others indirectly. Besides being a major 
producer of crushed stone, gravel and lime, Missouri is also 
the nation's foremost producer of lead and a significant 
producer of zinc and copper. All of these metals are of 
strategic importance to the United States. It is the lead/zinc/
copper mines and exploration for new deposits that are at 
highest risk.
    The lead deposits of southeast Missouri lie in a rather 
unique geologic setting. In the first place, most deposits of 
this type tend to be zinc dominated, whereas these are lead 
dominated, with significant amounts of zinc, copper, silver and 
cobalt. Furthermore, the size and number of the deposits also 
sets them apart from other similar deposits found elsewhere in 
the world. In fact, southeast Missouri contains the largest 
known concentration of lead in the earth's crust. But this does 
not mean that these deposits are widespread or easy to locate. 
Your typical deposit tends to be several thousand feet in 
length, only a few hundred feet wide and is found only in a 
specific geologic setting in the Bonneterre Formation. To 
complicate matters, there is no geophysical method that has 
been successful in detecting these type of deposits, so 
drilling and a good understanding of the local geology are the 
geologist's main exploration tools. Discovery of even one 
deposit often takes years of exploration and a very serious 
amount of capital investment.
    Development of a mining property requires extensive study. 
Before any actual development can take place ore reserve 
analysis, mine planning, modeling and financial analysis must 
be completed. In addition, detailed Environmental Impact 
Studies must be conducted and a myriad of permits applied for, 
all under the scrutiny of a variety of Federal, state and local 
regulatory agencies and the public. Then comes the actual 
construction of facilities and mine development. The 
multifaceted aspect of such an undertaking requires large 
infusions of capital funding and a lot of time. Generally, most 
mines take anywhere from ten to twenty years of work before the 
first ton of ore is processed.
    A basic understanding of the geology and development 
requirements of these deposits is critical if one is to analyze 
the needs of Missouri's metals mining industry. Often, I am 
asked why we just couldn't locate our mines in a less 
environmentally sensitive area (although none of the 
environmental organizations knows where such a place would be). 
The answer is simple--mines are developed where the ore 
deposits are located, not where we would like for them to be. 
In the case of southern Missouri, the most prospective area for 
new discoveries cuts a swath directly across the region 
recently proposed for the Ozark Man and the Biosphere Reserve. 
Depending on how the boundaries would be drawn for the 
Biosphere Reserve, current operations would likely fall in the 
buffer zone. Note the map included with this testimony 
delineating Federal lands, major rivers, the proposed Biosphere 
boundaries and the area of highest exploration potential for 
this region of southern Missouri. It is also important to note 
that not shown on the map are thousands of acres of state land 
in this area, as well as significant private holdings (i.e. the 
Nature Conservancy) which already exclude exploration.
    If the Ozark Man and the Biosphere were to become reality, 
it would not be hard to imagine its impact on Missouri's lead 
mines, not to mention other natural resource based industries. 
Exploration for mineral resources would not be an activity 
compatible with Biosphere core area management regimens. 
Drilling for mineral resources might be allowed in buffer 
zones, but what would be the point, since new mines will not be 
allowed. The aforementioned New World Mine project is stark 
evidence of how the U.N. views mining. Although it is not 
likely, there may even be pressure for closure of current mine 
operations, since these sort of activities will not fit into 
the social engineering mind set of ``sustainable development'' 
called for in the Man and the Biosphere and World Heritage Site 
programs. Regardless, without the discovery of new resources, 
lead mining in Missouri will come to a screeching halt in a few 
years. One or two mines could last as long as fifteen years on 
their current reserve base, but that would be unlikely, 
considering the higher costs of doing business with ever more 
stricter environmental regulations found in Biosphere Reserve 
areas.

Efforts at Ozark Man and the Biosphere Designation

    So how likely is it that this area could be designated a 
U.N. Biosphere Reserve? The answer to that question is obvious 
if one looks at recent events.
    First, the area in question, encompassing the watersheds of 
the Current and Eleven Point Rivers, has been chosen as a 
Bioreserve by the Nature Conservancy, which helped pave the way 
for the initial attempt at designation of the U.N. Ozark Man 
and the Biosphere. This is an area 120 miles long by 50 miles 
wide at its widest point, containing more than 2.3 million 
acres of land. At present, less than 500,000 acres of this area 
are publicly held properties.
    Second, the effort of the Missouri Department of 
Conservation to implement Coordinated Resource Management 
included provisions to support the Man and the Biosphere 
efforts in Missouri in its initial draft. Coordinated Resource 
Management was an attempt to further integrate management of 
both public and private lands by state and Federal agencies, 
along with non-governmental organizations. Although there were 
some commendable aspects to Coordinated Resource Management, 
several provisions, including the Man and the Biosphere support 
issue, caused enough public outcry to force the Department of 
Conservation to scrap the program.
    Third, efforts by mining companies to acquire prospecting 
permits to explore for mineral deposits in the Mark Twain 
National Forest in the region have been blocked by the Clinton 
Administration. Two Environmental Assessments and an 
Environmental Impact Study have been conducted, finding no 
reason to disallow exploration. The Forest Service, after years 
of delays, was poised to issue permits. However, the Bureau of 
Land Management, which manages mineral resources on Federal 
lands, would not allow the permits to be issued. After months 
of discussions with the BLM and Bruce Babbitt of the Interior 
Department, the permit applications were withdrawn by the Doe 
Run Company, a major mining company with mines in the region. 
It had become obvious that the Interior Department was 
requiring the company to forfeit its legal rights to any new 
discoveries if exploration permits were to be issued. This 
raises serious questions of legality of the Interior 
Department's position and tactics, since the laws and 
regulations regarding issuance of prospecting permits contains 
no provision for exclusions of this sort.
    Fourth, Missouri's Attorney General, Jay Nixon, has 
requested Bruce Babbitt and the Interior Department to withdraw 
from consideration for prospecting permits more than four 
hundred thousand acres of Federal lands in the watersheds of 
the Current and the Eleven Point Rivers. This request has 
questionable legal ramifications, but serves to illustrate a 
point, considering that it asks for the withdrawal of lands 
that closely match those proposed for the Ozark Man and the 
Biosphere Reserve. As a side note, a similar withdrawal was 
recently announced for portions of the Lewis and Clark National 
Forest in Montana. The withdrawal is open for comment by the 
public, but it appears that there is at least some coordination 
of efforts to bring about major changes in how Federal lands 
are managed which circumvent Congressional oversight and 
participation.

Conclusions

    The common thread of all these efforts is the removal of 
large portions of public and private lands from multiple-use 
methods of land management, without substantial input from the 
people affected or their elected representatives. In place of 
this common-sense, conservation-minded process of resource 
management, the Man and the Biosphere and World Heritage Site 
programs wish to implement a ``sustainable development'' 
economy that is yet to be clearly defined as to how it will 
work. However, this is irrelevant to the environmental 
extremists who have conceived of radical programs such as the 
Wildlands Project, which puts nature above man in every case. 
The real tragedy of such radical schemes is that they ignore 
the successes of other, more reasonable approaches and 
needlessly destroy the economic, social and environmental 
progress accomplished by the efforts of thousands of 
responsible land managers and millions of American citizens.
    Furthermore, subjugating U.S. laws to U.N. regulations 
through an international agreement that does not have willing 
support of the people of this country or the oversight of the 
Congress strains the limits of the Constitution. This is 
especially true when sections of an international agreement are 
being implemented without ratification, as is in the case of 
the Convention on Biological Diversity. This presents a threat 
to the sovereignty of the United States. There is a definite 
lack of accountability on the part of the Man and the Biosphere 
and World Heritage Site programs and the international 
bureaucracies that have sprung from these UNESCO projects. 
Without passage of legislation like the American Lands 
Sovereignty Protection Act, these problems will not only 
continue, but will propagate across the U.S. as more citizens 
of rural communities find their means of income regulated out 
of existence by radical environmental management schemes. I 
encourage the members of the House Resources Committee to make 
the House of Representatives at large aware of the seriousness 
of this situation and turn this legislation into law as soon as 
possible.
[GRAPHIC] [TIFF OMITTED] T6693.129

STATEMENT OF MARY DENHAM, DIRECTOR AND STATE COORDINATOR, TAKE 
             BACK ARKANSAS, FAYETTEVILLE, ARKANSAS

    Ms. Denham. Thank you, Madam Chairman and members of the 
Resource Committee. Thank you for coming and the privilege and 
honor of speaking here today for myself and members of Take 
Back Arkansas, a property rights organization.
    Let me say at the outset that we support the American Land 
Sovereignty Protection Act, H.R. 883, sponsored by U.S. 
Representative Don Young and co-sponsored by 162 U.S. 
Representatives, three of them being from Arkansas. We were 
almost designated as a UNESCO Ozark Highlands Man and Biosphere 
(OHMAB) in most of Missouri and much of Arkansas September 1, 
1996.
    Before Connie Burks and I had met or talked, we were 
working on individual tracks with the MAB information we each 
had at the time. When we tried to contact elected officials in 
Washington and Arkansas, we were stonewalled by cadres of aides 
who tuned us out and turned us off as black helicopter, blue 
helmeted conspirators. This was a common ridicule by proponents 
of the MAB against opponents of these designations. In other 
words, when you cannot defend the message, attack the 
messenger.
    When Connie's MAB documentation became public, there was a 
desperate flurry of activity to inform others. Quickly a 
grassroots swell against the MAB by informed people across the 
state and most especially those in northern Arkansas demanded 
answers to questions. We wanted reassurance that official 
action would be taken to stop the designation before the 
September 1 deadline.
    We were able to get the information to then U.S. 
Representative Tim Hutchinson, who wrote Roger Soles, Director 
of the State Department of the U.S. Man and Biosphere offices 
and asked that the Ozark Highlands Man and Biosphere not be 
designated.
    I found it all the more unbelievable when I actually read 
the MAB documents. There was not one elected person or 
legislative body, only Federal and state bureaucracies and non-
governmental organizations. In fact, a couple of the whereas 
clauses stated:
    ``Whereas the parties to this agreement are empowered by 
various state and Federal codes and statutes to enter into this 
agreement,'' and ``Whereas the Economy Act of 1932, as amended, 
provides for Federal agencies to enter into agreement 
establishing mutual policies, objectives, and cooperative 
relationships,'' I certainly did not know they were so 
established.
    How can private property owners be protected from these 
same aggressors? Yellowstone is just one example of foreign 
aggression on our American land. The U.N. World Heritage 
Committee was called in by environmental advocacy groups to 
settle a domestic dispute as to the need for more privately 
owned land for a buffer zone to protect the Yellowstone World 
Heritage Site and Yellowstone MAB Site from a gold mine. The 
environmental impact study for the mine had not been completed. 
This was private property. Where then was the Congress and 
where will they be for the next such aggression?
    Can't one just imagine how much havoc, abuse and aggression 
an Ozark Man and the Biosphere of 35,250,000 acres, 55,000 
square miles, would wreak on the citizens and their private 
property in the Ozarks in Missouri, Arkansas, Oklahoma, Kansas 
and Illinois?
    The OHMAB is alive and well in Arkansas and Missouri, with 
the bureaucracies implementing and completing their individual 
preplanned parts just waiting for the day when the Biodiversity 
Treaty is ratified and all will be in place. These agencies 
have not missed a heartbeat in the performance of their parts 
in the MAB. They may or may not have missed the money they were 
expecting to get out of it, but their will to push it through, 
hell or high water is going strong. According to these workers, 
now they are just complying with environmental laws and codes 
passed by Congress and the states.
    By Forest Service ecosystem assessment and planning, the 
regional OHMAB has now been extended to include the Quachitas, 
the Mississippi River is to be joined by Land-Between-the-Lakes 
and on to the Southern Appalachian MAB.
    Further insight into this equation of denials is found in a 
document of particular significance through Mike Dombeck, 
Forest Service Chief, quote, regarding the U.S. Man and 
Biosphere Program, the summary states, quote, ``The survival of 
the U.S. MAB program is threatened. Benefits to the U.S. and 
the USDA Forest Service are significant. Loss of authority to 
participate in the U.S. MAB program or loss of our MAB sites, 
would significantly deter progress in achieving the goals of 
the President and that of the Santiago Agreement.'' I have 
other documentation about the Santiago Agreement and their 
participation.
    In an article by Bruce Yandle titled ``Land Rights: Why do 
they matter?'', he writes on the Magna Carta, the great charter 
``was a watershed event in the struggle of ordinary people to 
protect their natural rights against encroachments by 
government.
    ``The reason seems clear, People do not have rights because 
the state allows them--the lesson seems clear,'' I am sorry. 
``The nation/state exists because people have rights. In many 
ways, today's property rights advocates are calling for a 
modern Magna Carta. Once again, ordinary people are seeking to 
restrain and contain government. But instead of having to 
settle differences with picks, swords and arrows, the parties 
in the struggle now turn to courts and legislative bodies. 
Their struggles help us to see how strong is the motivation for 
freedom.''
    Therefore, I believe that this bill comes at a pivotal 
point in American history. Like the Magna Carta, depending upon 
its passage rests the future of the United States of America as 
founded by our Fathers.
    If the Congress cannot and will not act to protect private 
property from regulatory aggression from within, then how can 
Americans be protected from regulatory aggression by the 
Committee of the World Heritage Commission and committees of 
other U.N. designations?
    There should never be a question about the passage of H.R. 
883 because of the oath of office each member swears to and 
serves under. Thomas Jefferson said, ``The whole of government 
consists in the art of being honest.'' The question is laid 
squarely on the votes of the Congress on H.R. 883 as to whether 
America will be a state under U.N. dominion or if it will be 
the United States of America, a republic and one nation under 
God.
    Thank you.
    Mrs. Chenoweth. Thank you, Ms. Denham. The Chair recognizes 
Frank Meyers for his testimony.
    [The prepared statement of Ms. Denham follows:]
  Statement of Mary Denham, Director and State Coordinator, Take Back 
                 Arkansas, Inc., Fayetteville, Arkansas
    Representative Helen Chenoweth and Representative JoAnn Emerson, 
and members of the House Resource Committee Staff, welcome to the 
Ozarks. I thank you for the privilege and honor of speaking here today 
for myself and members of Take Back Arkansas.
    Let me say at the outset that we support The American Land 
Sovereignty Act, H.R. 883 sponsored by U.S. Representative Don Young 
and cosponsored by 162 U.S. Representatives, three of them being from 
Arkansas. We were almost designated a U.N. Ozark Highlands Man and The 
Biosphere (OHMAB) in most of Missouri and much of Arkansas.
    An onerous environmental, land stealing, city ordinance was passed 
in June of 1994. It was the catalyst for the organization of Take Back 
Arkansas, Inc, (TBA). TBA was incorporated in May of 1995 as a non-
profit, non-partisan non-tax exempt civic organization, for the express 
purpose of educating ourselves and others about our unalienable rights 
in property, the abuses of those rights, the legal protections of those 
rights and to learn how we as citizens could be more vigilant in 
protecting those rights. We started by thinking local, but before the 
end of the year, we realized some of these problems were global in 
scope.
    This testimony is about my personal journey into property rights 
questions and answers. As state coordinator for Take Back Arkansas I 
felt a duty to become as informed as possible. Being a real estate 
broker, I began my research with real estate law books I had on hand at 
the time. My husband is an Architect and a Professor of Architecture. 
We are tied to the land through our professions, no less than those 
directly impacted by natural resource decisions. All of our nation's 
wealth comes from our good earth.
    As history is a good teacher, in my search for answers, I looked to 
the past and gained from others, their wealth of wisdom. I believe the 
quotes from the past century used herein deal with property and the law 
and are therefore pertinent to The American Land Sovereignty Act and 
the question as to who shall write the laws and who shall control the 
property. We're not even losing our land to another country, we would 
fight for that, we're just losing it to the world. What does that mean?
    ``The great and chief end of man's uniting into commonwealth and 
putting themselves under government, is the preservation of their 
property'' John Locke.
    Frederic Bastiat 1801-1850 was a French economist, statesman and 
author. In his book THE LAW he writes, Life, liberty, and property do 
not exist because men have made laws. On the contrary, it was the fact 
that life, liberty, and property existed beforehand that caused men to 
make laws in the first place. What, then, is law? It is the collective 
organization of the individual right to lawful defense. Each of us has 
a natural right from God to defend his person, his liberty, and his 
property. These are the three basic requirements of life, and the 
preservation of any one of them is completely dependent upon the 
preservation of the other two.
    In an article by Bruce Yandle titled ``Land Rights: Why do They 
Matter'' he writes, My studies led me to the great 17th-century English 
jurist Sir Edward Coke. His explanation of the Magna Carta left little 
doubt in my mind that the Great Charter, as he termed it, was a 
watershed event in the struggle of ordinary people to protect their 
natural rights against encroachments by government. There in the Magna 
Carta one finds words that sound very much like the takings clause of 
the Fifth Amendment:

        ``No freeman shall be deprived of his free tenement or 
        liberties or fee custom but by lawful judgment of his peers and 
        by the law of the land''
    At the time of the Magna Carta, ``the law of the land'' referred to 
common law, not to laws written by a legislative body or king. 
Customary law, developed informally and rooted in community norms, was 
seen as the only logical way to protect property rights that had 
evolved over the centuries. Rights to land emerged from community and 
were transmitted to the nation/state. The lesson seems clear People do 
not have rights because the state allows them. The nation/state exists 
because people have rights. In many ways, today's property rights 
advocates are calling for a modern Magna Carta. Once again, ordinary 
people are seeking to restrain and contain government. But instead of 
having to settle differences with picks, swords and arrows, the parties 
in the struggle now turn to courts and legislative bodies. Their 
struggles help us to see how strong is the motivation for freedom.
    Therefore I believe this bill comes at a pivotal point in American 
history. Like the Magna Carta, depending on its passage rests the 
future of the United State of America as founded by our Fathers. In the 
middle of my search I ran smack-dab, face to face, into a UNESCO MAB in 
my two home states of Missouri and Arkansas.
    If the Congress can not, or will not, act to protect American land 
from regulatory aggression from within the United States then how can 
American land be protected from regulatory aggression by the Committee 
of the World Heritage Commission and committees of other U.N. 
designations? How then can private property owners be protected from 
these same aggressors? Yellowstone is just one example of foreign 
aggression on our American land. The U.N. World Heritage Committee was 
called in by environmental advocacy groups to settle a domestic dispute 
as to the need for more privately owned land for a buffer zone to 
``protect'' the Yellowstone World Heritage site and Yellowstone U.N. 
Man and the Biosphere (MAB) site from a gold mine. The environmental 
impact study for the mine had not been completed.
    The coal in Utah is another example of this mentality. This was 
private property. Where was the Congress and where will they be on the 
next such aggression? This is domestic and foreign aggression on 
American soil. A U.S. MAB project is a program initiated by, run by, 
and for bureaucrats and NGO's and God help anyone who gets in their 
way, they will ridicule, slander and try to destroy that person.
    Proponents of these designations blame their opponents for not 
understanding the beneficial, benign and benevolent attributes of these 
designations. One can't even understand their eco-speak. If they want 
to be better understood a dictionary of their newly coined words would 
help. Of course, according to the Feasibility Study, us Arkies 'ain't 
supposed to know nothing. We would certainly be too ignorant to 
understand their other worldview.
    More importantly, there is a different value system, which is 
taught in schools and churches and does need to be understood. In high 
schools and colleges a biocentric textbook is being used to teach 
Conservation Biology. In the textbook, CONSERVATION BIOLOGY are just 
two phrases which give insight into their world view: Alternative means 
of regulation have been proposed, and it is clear that we should 
explore all avenues to a better system. However, most that have been 
proposed to date are significantly flawed. For example, to assume that 
voluntary compliance for the common good will preserve systems is at 
best naive, given the fact, as already noted, that regulation became 
necessary in the absence of voluntary compliance. Similarly, while so-
called market based approaches may have some applicability, the market, 
by failing to deal adequately withboth equity and ecology, starts as a 
flawed instrument . . . Theological schools are training seminarians 
about the interface between religion and the environment. These efforts 
are all part of an interfaith program instituted late in 1993 that will 
underline the injunction to revere God's creation and to protect it 
(Joint Appeal 1992) because changes in the underlying value systems of 
human societies are critical to achieving conservation goals, religious 
values and teaching can play a vital role in creating a human 
relationship with the earth. However, those teachings must move beyond 
self-salvation for an afterlife to incorporate planetary salvation now.
    I believe that we understand these designations better than the 
proponents do, we know they are wrong! Just for the sake of argument 
though, if this MAB program is so beneficial, benign and benevolent why 
did the OHMAB Steering Committee keep their scheming and planning under 
wraps for over seven years and why did they deny it so vehemently even 
after it was exposed. When one reads an AP story about 400 ``indigenous 
peasant squatters'' in a Guatemalan MAB site taking 29 U.N. enforcers 
hostage, who had gone in to roust out the squatters, it gives one pause 
to wonder as to who is the benefitee and just where is the benign 
benevolence.
    Can't one just imagine how much havoc, abuse and aggression an 
Ozark Man and The Biosphere of 35,250,000 acres, 55,000 square miles, 
would wreck on the citizens and their private property in Missouri, 
Arkansas, Oklahoma, Kansas and Illinois? This OHMAB is designed to be 
joined later with the Land Between-the-Lakes designation and eventually 
to the Southern Appalachian MAB.
    International U.N. Treaties, Agreements and Accords with 
accompanying Executive Orders, Initiatives and Directives are feeding 
the U.S. and State agencies with power beyond their competence and 
sensibility, let alone the Constitutionality of their actions.
    These agreements exceed Constitutional Authority to make Treaties. 
Our state and national laws are contained within our legal boundaries. 
These U.N. designations cross legal state and national boundaries, 
therefore they violate jurisdictions of state and national laws. They 
violate the Supreme Law of the Land, the U.S. Constitution, but most 
especially in the areas of:

        <bullet> Congressional ``Advice and Consent,'' (USC III-2-2))
        <bullet> Congressional Authority to ``make rules for the 
        Government and Regulations of the Land'' (USC 1-8-13)
        <bullet> ``Power of the Congress to dispose of and make all 
        needful Rules and Regulations respecting the Territory or other 
        Property belonging to the United States,'' (USC iV-3-2)
        <bullet> Congressional Authority to exercise exclusive 
        legislation in all cases whatsoever. . . . And to exercise like 
        Authority over all Places purchased by Consent of the 
        Legislatures of the State in which the same shall be. . . .''; 
        (USC 1-8-17)
        <bullet> Destroys the clause [N]othing in this Constitution 
        shall be so construed as to Prejudice any claims of the United 
        States, or of any particular State; (USC IV-3-2)
        <bullet> Destroys the mandate of the clause, ``the United 
        States shall guarantee every State in this union a Republican 
        Form of Government'' (USC IV-4)
        <bullet> Violates prohibition of ``No State shall enter into 
        any Treaty, alliance, or Confederation; . . . No state shall, 
        without the Consent of Congress, enter into any Agreement or 
        Compact with another State or with a Foreign Power (USC 1-10)
        <bullet> Violates ``No State shall be formed or erected within 
        the jurisdiction of any other State; nor any State be formed by 
        the Junction of two or more States; or Parts of States, without 
        the Consent of the Legislatures of the States, concerned as 
        well as the Congress'' (USC IV-3-1)
         Eliminates the 5th, 9TH AND 10TH Amendments from The Bill of 
        Rights. When these are gone, can the balance of the 
        Constitution be far behind?
    The First Amendment to the Constitution assures us ``the right of 
free speech, of the people to peaceably assemble and to petition the 
Government for a redress of grievances.'' Under the world's greatest 
civil document, The Constitution of the United States, we are free to 
assemble here today, to speak freely to two elected U.S. 
Representatives, who care about our concerns. Let me say, I am 
personally most grateful to both.
    The Bill of Rights, the first ten amendments to that Constitution, 
gave the people and the States the assurance that the Powers of the 
Central government would be limited and would never infringe upon ``the 
rights retained by the States and the people.'' Quoting the Preamble 
``We the people of the United States, in order to form a more perfect 
union, establish justice, insure domestic tranquility, provide for the 
common defense,promote the general welfare, and secure the blessings of 
liberty to ourselves and our posterity, do ordain and establish this 
Constitution for the United States of America.'' We the people created 
the contract, it is of the people, by the people, and for the people of 
the United States. Our Constitutions, State and Federal, are the legal 
roots which bind us together as a people, regardless of race, color, 
creed or gender. It is our guidepost, starting line, owner's manual, 
and the legal mandates for our civil society.
    Justice Joseph Storey 1779-1845 was named by President James 
Madison to serve on the United States Supreme Court on which he served 
from 1812 to 1845. He stated. ``That government can scarcely deemed to 
be free, where the rights of property are left solely dependent upon 
the will of a legislative body without any restraint. The fundamental 
maxims of a free government seem to require the rights of personal 
liberty and private property should be held sacred.''
    There is a civic responsibility for the people watch and restrain 
the government now, just as there was when Justice Storey spoke of the 
fundamentals of freedom. I firmly believe that if 60 percent of 
eligible voters know more about these Executive Orders, Initiatives, 
Directives and designations, without congressional action, there would 
be a quick voter term limit exercised at the next election. Term limits 
began this year in Arkansas, to bring forth a citizen legislature. The 
candidates know it was politically correct and expedient to be well 
informed on property rights.
    The Constitution may be a small document but it is contract made in 
good faith. We did not create a monarchy, dictatorship or an oligarchy 
but a Republican Form of Government, self governing through elected 
Representation to State and Federal Legislatures, to whom we granted 
sole lawmaking authority. This authority has been usurped by 
Administrative Executive Orders, Vice-presidential Initiatives, 
Judicial Decisions and bureaucratic rules and regulations which have 
added to the ``make law mixture,'' outside of Constitutional law making 
authority, under the guise of ``protecting the environment.''
    Now we have entered into an unprecedented era in American history 
with United Nations Treaties proceeding from no Constitutional 
Authority, supplanting Congressional authority to manage Federal lands, 
through World Heritage Sites, UNESCO Biosphere Reserves, and Ramsar 
sites. These designations have more roots and branches than a banyan 
tree.
    Something else has gone awry. Under the clause ``promote the 
general welfare'' found only in the Preamble to the Constitution, which 
has no force of law, all sorts of Acts have passed as law, which I call 
defacto laws. They are clearly not passed under Authority of the 
Constitution but under the color of law. Over the past twenty-five 
years there have been numerous environmental laws passed by Congress, 
without the Congress writing the rules and regulations. What started as 
an honest concern for health and safety has turned into a burgeoning 
business with another agenda. The environment industry has now become a 
direct ten percent of our economy. The direct and indirect added cost 
to government and private citizens is relatively higher as the growth 
in related rules and regulations by Federal and State bureaucracies has 
grown exponentially.
    My encounter with the Ozark Highlands Man and The Biosphere began 
in late 1995 with an article in an National Wilderness Magazine, NWI 
RESOURCE. Time and space doesn't permit me to name the hundreds of 
people I talked with, who shared time, information and publications 
with me. In early 1996 I had read a small warning in a paper from 
People of the West, now People of the USA announcing the plans for a 
MAB program in the southern half of Missouri and the northern third of 
Arkansas. The Missouri Department of Conservation was seeking comment 
on their Draft Plan, which included information on the OHMAB.
    In July of 1996, after Governor Huckabee took office and 
immediately started lobbying for the 1/8th cent ``Conservation Tax'' I 
contacted Jim Wilson, an aide of the Governor, whom I had considered a 
personal friend with my concerns about an OHMAB and his remark to me 
was, ``Now Mary, don't get like those people who got on the roof tops 
and look for the Lord to return on a certain day.'' My reply to him 
was, ``Now Jim, don't talk to me about apples and oranges, I'm talking 
about Biospheres, of which, you obviously know nothing.''
    After another call or two Jim did ask me to send the materials I 
had, to the Governor and he would see that the matter was studied. The 
next week State Senator John Brown had hand delivered a packet of 
information to the Governor, from me, including Dr. Michael Coffman's 
video ``Biodiversity--The Key to Destroying Property Rights and the 
U.S. Constitution.'' I later received a call from another aide, Chris 
Pyle, about mid August asking for another copy of the video and it was 
sent directly to the Governor by Susan Coffman.
    As chief executive officer of the state, I thought the Governor 
would want to be informed. At the same time, Game & Fish Director, 
Steve N. Wilson was telling the Governor that it was all ``black 
helicopters and blue helmets.'' Unbeknown to me Connie had already sent 
her documents to the Governor. I didn't give up on my attempts to know 
that this was considered seriously, and as I learned later, neither did 
Connie.
    About August the 18th, after listening to a tape ``The Rewilding of 
America,'' I called the producer of the tape, Tex Marrs Ministry office 
in Texas, and asked if they could give me further information and 
documentation. The sole staffer there reluctantly gave me the name and 
phone number of Connie Burk. When we talked she told me of her 
information and concerns.
    Connie came to my Fayetteville office where I had arranged for her 
to be interviewed by Rusty Garrett and give him copies of her 
information. Rusty is a reporter with the Northwest Arkansas Times. The 
following Sunday Rusty's Biosphere article was front page with a photo 
of a schematic drawing of a biosphere layout by Carol W. LaGrasse that 
she had published in the Biosphere edition of her ``Positions on 
Property Rights.'' People started calling wanting answers to questions. 
After answering the best I could, I referred them to the Governor.
    He called off the Game and Fish participation in the program three 
days before the Nomination was to have been finalized. There was no 
response from the Governor, to the people's questions, until after the 
November elections and the Conservation Tax was passed. He then issued 
a denial letter with Steve Wilson's fairy tale denial memo of biosphere 
involvement attached. Nor did he correct the false impression in a 
later TV interview. This can be found on TBA Home page http://
www.users.NWArk.com/-tbark/
    Before Connie and I had met or talked we were working on individual 
tracts with the MAB information we each had at the time. When we tried 
to contact elected officials in Washington and in Arkansas we were 
stonewalled by cadres of aides who tuned us out and turned us off as 
``black helicopter-blue helmet conspirators.'' I heard this in the 
halls of Congress when these designations were debated. This was a 
common turn off by the environmentalist and proponents of the MAB.
    We were able to get the information to then, U.S. Representative, 
now U.S. Senator Tim Hutchinson, by way of a mutual friend, State 
Senator Fay Boozman, who delivered it to Mr. Hutchinson at church on 
Sunday before the nomination was to be finalized on September 1, 1996. 
Mr. Hutchinson wrote Roger Soles, then Director of the State Department 
the U.S. Man and The Biosphere offices and asked that the Ozark 
Highlands Man and Biosphere not be designated. After that, 
Representative Hutchinson testified before a Resource Committee Hearing 
for the American Land Sovereignty Act in September of 1996.
    All of this was a nightmare, but I found it more unbelievable when 
I actually read the Cooperative Agreement (Memorandum of 
Understanding), Nomination Form, and the Feasibility Study for the 
Ozark Highlands Man and the Biosphere (OHMAB).
    There was not one elected person or legislative body involved, only 
Federal and State bureaucrats and Non-Governmental Organizations 
(NGO's). In fact, a couple of the ``Whereas'' clauses stated:

        WHEREAS the parties to this agreement are empowered by various 
        state and Federal codes and statutes to enter into this 
        agreement and
        WHEREAS, the Economy Act of 1932, as amended, 31 U.S.C. 1535 
        and 1346(b) (Interagency Agreements), provides for Federal 
        agencies to enter into establishing mutual policies, 
        objectives, and cooperative relationships and
    I certainly didn't know they were so enabled. That wasn't the only 
shocker. I learned from the Feasibility Study in Chapter 9--Ozark 
Culture that, 4This culture appears to interact with the environment 
harmoniously, and individuals in this group have relatively little 
impact on the environment. Exceptions are that they dispose of solid 
waste in the hollows and have primitive systems for sewage disposal.
    I found in Chapter 10--Ozark Economy these two elitist pearls of 
wisdom: Distortions enter the culture with the welfare system and some 
illegal activities. Many of these people (with populations concentrated 
in Missouri in Carter County, Oregon County, and to some extent Shannon 
County) have been unable to continue in their self-sufficient 
lifestyle. They have turned to public welfare assistance to become part 
of the cash economy. Many third and fourth-generation welfare families 
live in these counties. Poaching is common. Outsiders coming into the 
area have brought the influence of drugs. Ozark residents have always 
had alcohol but not other drugs. In addition to noting the use of 
drugs, several interviewees believe that growing marijuana has become a 
very large non-reported cash industry. And,Because of the original 
culture in some counties, people historically are not accustomed to 
working a full day or a full year. Employers complain that no one shows 
up for work on the first day of deer season or when the fish are 
biting. Industry cannot operate well without a dependable work force:
    These aspersions cast upon the culture and economy are hardly 
indicative of the hard working people who made the home grown national 
and international companies like Wal-Mart, Tyson Foods, Dillard 
Department Stores, J.B. Hunt Trucking Company, the former Jones Truck 
Lines and numerous other home grown stock market companies competitive 
in this ``global economy.''
    With all of the bureaucratic agencies involved in this MAB program 
they should be able to keep Al Gore's earth in the balance. No wonder 
Roger Soles asked why we were so against the U.N. MAB in the Ozarks. He 
wanted to know why they had failed, so he commissioned a research paper 
found at: http://ssu.agri.missouri.edu/Publications/Ozarks/toc.html
    After the intersection with the OHMAB we quadrupled our efforts. 
All over the state TBA members were helping their neighbors and 
adjoining counties to become informed. Together we raised the awareness 
of these designations and their impact on property rights.
    Through reading an article by Ruth Kaiser in the National Federal 
Lands Conference newsletter ``Update'' titled, ``Using County 
Government to Protect Your Customs, Culture and Economy'' I learned of 
the National Environment Protect Act (NEPA) ``little NEPA'' codes. By 
initiating a County Land Use Plan under certain codes Congress had 
provided in NEPA, local governments would have a seat at the table with 
these agencies, for any bureaucratic decision making within their 
counties.
    I made this information available to members statewide. A 
conference was held in Harrison, Arkansas August 2nd 1997 with members 
of the National Federal Lands Conference, Ruth Kaiser, Director, Howard 
Hutchinson, Tom McDonnel, Michael Kelly and Attorney Karen Budd Falen 
giving a seminar on these County Land use plans. As these ordinances 
were being passed by the counties in Arkansas, the Forest Service and 
Arkansas Game and Fish Commission Director were trying to squash the 
ordinances.
    The OHMAB is alive and well in Missouri and Arkansas with the 
bureaucracies implementing and completing their individual preplanned 
parts just waiting for the day when the Biodiversity Treaty is ratified 
and all will be in place. These agencies haven't missed a heartbeat in 
the performance of their parts in this MAB. They may, or may not, have 
missed the money they were expecting to get out of it but their will to 
push it through, hell or high water is going strong. They now hide 
under the myriad of environmental Acts passed by Congress.
    Following the delayed, but completed and ready to submit Nomination 
Form, the activities of these agencies, sure walks, talks and smells; 
like the beginning implementation of the OHMAB with the same bad 
actors.
    Unfortunately the public exposure, was bad timing and came too 
close for comfort for the U.S. Forest Service for their scheduled part 
in the OHMAB, an ecosystem assessment. The Arkansas Game and Fish 
Commission felt the same sting with their Stream Team Program, but 
proceeded anyway. It's no coincidence that the same agencies are 
duplicated and aligned in the ongoing MAB programs. Earlier documents 
obtained delineated that the Forest Service would among other things 
perform an Ecosystem Assessment and Plan and AR G&F would initiate 
Stream Streams. There are other documented activities to prove the 
point but the following have been debated publicly.
    Almost simultaneously with the public uproar over the OHMAB the 
U.S. Forest Service, in the Quachita National Forest and the Ozark-St 
Francis National Forest in Arkansas and Missouri, began an Ecosystem 
Assessment headed by Bill Pell, a former Nature Conservancy employee. 
Even though both Forest Supervisors were signatories to the Nomination 
Form, they tried to no avail, to squelch the idea that this was tied in 
any way to the OHMAB. Their resource books were the completed 5 book 
set of Southern Appalachian MAB Assessment of which I have a set. They 
were just performing their MAB part.
    Lo and behold, in 1997 another signatory, to the Nomination Form, 
the Arkansas Game and Fish Commission Director Steve Wilson was 
introducing Stream Teams into Arkansas. After another hue and cry from 
those who had stayed involved to watch the actions of these 
bureaucratic U.N. facilitators, the Governor once again withdrew his 
public support of this program. They were just perforrning their MAB 
part, too.
    A document of particular significance in my file on the USDA Forest 
service is a copy of the Informational Memorandum for James A. Lyons, 
Undersecretary, NRE from Barbara Webber, Associate Deputy Chief for 
Research (FS) through Mike Dombeck, FS Chief, regarding the U.S. Man 
and the Biosphere Program. The Summary states ``the survival of the 
U.S. MAB program is threatened. Benefits to the U.S. and the USDA 
Forest Service are significant. Loss of authority to participate in the 
U.S. MAB program or loss of our MAB sites, would significantly deter 
progress in achieving the goals of the President and that of the 
Santiago Agreement.''
    Another document shows that the Forest Service has a high disregard 
for private property: Property rights of private land and the rights to 
use public lands will continue to evolve over time. Means are provided 
to determine those rights through due process. Recent important 
developments are the evolution of private property rights under the 
terms of the Endangered Species Act of 1973 (Public Law 93205) and the 
determination of local control of the use of Federal lands in the West 
Sustainable Forest, Santiago Declaration http://www.fs.fed.us/land/
sustain dev/sd/criter7.htm#LIEF48. We, as property owners were never 
told our property rights were evolving but read it on the web.
    Jim Burling Pacific Legal Foundation wrote a commentary 
``Bureaucrats; You Can't Trust Them, You Can't Control Them'' and I 
would add, you can't vote for them, nor can you fire them, and neither 
can anyone else. They have better tenure, as soon as they go on the 
public payroll, than a university professor. Our bureaucracy is a super 
duper giant. The bureaucrats want to secure their jobs, grow their 
power through rules and regulations. The environmentalist feed at the 
public trough on Federal grants and begging. Many elected officials 
can't afford to stand against the environmentalist money and 
propaganda, aided and abetted by the media and the polls. The only 
people who don't benefit from these incestuous circles are the 
taxpaying public. Americans have, to quote the title of Holly Swanson's 
dynamic book, BEEN SET UP AND SOLD OUT. The private citizen and his or 
her property, personal and private, is in the crosshairs of their 
crossfire.
    Many bureaucrats have become like U.N. facilitators and they sure 
want ``consensus'' for their programs. I don't believe than these 
people are inherently evil for the most part, I just don't think they 
begin to understand, or want to know, the scope of the deception of 
these programs. I also believe their bosses think of this as manna from 
heaven, a great cash cow to grow their bureaucracies. They have 
separate roles to play, they are so propagandized about their roles 
that they refuse to see the picture as a whole.
    If, as the researcher for the State Department MAB program has 
called the OHMAB a failed nomination effort, it was because it was a 
grassroots team efforts in Missouri and Arkansas that made it fail.
    We, the American people do not want another entity controlling our 
land. We know that whoever controls the land, controls the people, be 
it by onerous burdensome government regulation or confiscation. Where 
private property has remained in the control of the individual owners, 
representative government has been possible and the nation has 
prospered.
    There should never be a question about the passage of H.R. 883. I 
don't believe that the oath of office each member swears to, and serves 
under, gives them any choice but to pass this Act for American 
sovereignty. Every Congressman was elected as a U.S. Representative or 
Senator not as a U.N. representative. It is the responsibility of the 
members of this Committee and the House and Senate to decide whether 
they are voting on this as Americans or as Globalists, no one can serve 
two masters. The question is laid squarely on the votes of this 
Committee and the votes of the Congress on H.R. 883, as to whether 
America will be a state under U.N. dominion or if it will the United 
States of America, a Republic, and ``one nation under God.''
[GRAPHIC] [TIFF OMITTED] T6693.130

[GRAPHIC] [TIFF OMITTED] T6693.131

[GRAPHIC] [TIFF OMITTED] T6693.132

[GRAPHIC] [TIFF OMITTED] T6693.133

[GRAPHIC] [TIFF OMITTED] T6693.134

[GRAPHIC] [TIFF OMITTED] T6693.135

[GRAPHIC] [TIFF OMITTED] T6693.136

[GRAPHIC] [TIFF OMITTED] T6693.137

[GRAPHIC] [TIFF OMITTED] T6693.138

[GRAPHIC] [TIFF OMITTED] T6693.139

[GRAPHIC] [TIFF OMITTED] T6693.140

[GRAPHIC] [TIFF OMITTED] T6693.141

[GRAPHIC] [TIFF OMITTED] T6693.142

[GRAPHIC] [TIFF OMITTED] T6693.143

[GRAPHIC] [TIFF OMITTED] T6693.144

[GRAPHIC] [TIFF OMITTED] T6693.145

[GRAPHIC] [TIFF OMITTED] T6693.146

[GRAPHIC] [TIFF OMITTED] T6693.147

[GRAPHIC] [TIFF OMITTED] T6693.148

[GRAPHIC] [TIFF OMITTED] T6693.149

[GRAPHIC] [TIFF OMITTED] T6693.150

[GRAPHIC] [TIFF OMITTED] T6693.151

[GRAPHIC] [TIFF OMITTED] T6693.152

[GRAPHIC] [TIFF OMITTED] T6693.153

[GRAPHIC] [TIFF OMITTED] T6693.154

[GRAPHIC] [TIFF OMITTED] T6693.155

[GRAPHIC] [TIFF OMITTED] T6693.156

[GRAPHIC] [TIFF OMITTED] T6693.157

[GRAPHIC] [TIFF OMITTED] T6693.158

[GRAPHIC] [TIFF OMITTED] T6693.159

[GRAPHIC] [TIFF OMITTED] T6693.160

[GRAPHIC] [TIFF OMITTED] T6693.161

[GRAPHIC] [TIFF OMITTED] T6693.162

[GRAPHIC] [TIFF OMITTED] T6693.163

[GRAPHIC] [TIFF OMITTED] T6693.164

[GRAPHIC] [TIFF OMITTED] T6693.165

[GRAPHIC] [TIFF OMITTED] T6693.166

[GRAPHIC] [TIFF OMITTED] T6693.167

[GRAPHIC] [TIFF OMITTED] T6693.168

[GRAPHIC] [TIFF OMITTED] T6693.169

[GRAPHIC] [TIFF OMITTED] T6693.170

[GRAPHIC] [TIFF OMITTED] T6693.171

[GRAPHIC] [TIFF OMITTED] T6693.172

[GRAPHIC] [TIFF OMITTED] T6693.173

[GRAPHIC] [TIFF OMITTED] T6693.174

[GRAPHIC] [TIFF OMITTED] T6693.175

[GRAPHIC] [TIFF OMITTED] T6693.176

[GRAPHIC] [TIFF OMITTED] T6693.177

[GRAPHIC] [TIFF OMITTED] T6693.178

[GRAPHIC] [TIFF OMITTED] T6693.179

[GRAPHIC] [TIFF OMITTED] T6693.180

[GRAPHIC] [TIFF OMITTED] T6693.181

[GRAPHIC] [TIFF OMITTED] T6693.182

[GRAPHIC] [TIFF OMITTED] T6693.183

[GRAPHIC] [TIFF OMITTED] T6693.184

[GRAPHIC] [TIFF OMITTED] T6693.185

[GRAPHIC] [TIFF OMITTED] T6693.186

   STATEMENT OF FRANK MEYERS, FORESTER AND SECRETARY, POTOSI 
                  CHAPTER, PEOPLE FOR THE USA

    Mr. Meyers. I am Frank W. Meyers of Potosi, Missouri. I 
speak as one who has been a practicing environmentalist and 
professional forester for over 55 years, which with the time 
spent in the Navy throughout World War II, gives me a 
perspective on the environmental scene covering 60 years.
    I come to speak in support of H.R. 883, the American Land 
Sovereignty Protection Act.
    I speak both for myself and for the Potosi Chapter of 
People for the USA, for which organization I serve as 
Secretary, whose membership includes many who have been long 
active in management, production and use of natural resource 
commodities, both on public and private land.
    Today it is distressing to see productive natural resource 
management which provides for human needs, being threatened on 
every side.
    The threat arises from a plethora of pseudo-
environmentalist groups whose general theme is to reorganize 
society around the central principle of protecting the 
environment, and who both use and lend credence to a variety of 
United Nations plans, conventions and treaties oriented toward 
control of America and its people.
    In 1971, the United Nations through UNESCO initiated a plan 
for setting up a world network of Biosphere Reserves to protect 
the environment and safeguard the planet. The State Department 
incorporated this in their planning in 1973. The Biosphere 
Reserve Program has the objective of returning vast areas of 
the planet to a nature-managed condition. In the U.S. this 
amounts to 48 percent of the land area. The long range 
objective is to regulate population distribution and land use 
on a massive scale.
    The Framework on Biosphere Reserves specifies the 
designation of core areas in each Reserve, which will be 
completely free of human use. A surrounding buffer zone will 
allow only limited access and the third or transition zone will 
provide for control of sustainable use.
    Sustainable use in U.N. and pseudo-environmentalist jargon 
means reducing consumption of goods, elimination of modern 
conveniences and controlling the population.
    Without Congressional approval, some 47 Biosphere Reserves, 
totaling some 44 million acres, have already been designated in 
America and more are in the planning stage. One such planned 
Reserve was the Ozark Highland Man and the Biosphere which 
covered 48,000 square miles in Missouri, Arkansas, Oklahoma and 
Kansas. Although temporarily shelved, this gigantic plot to 
return 48,000 square miles to pre-settlement conditions, gave 
way in 1996 to a smaller Reserve proposal. It was the Lower 
Ozarks Biosphere Reserve, covering 3,200 square miles in 11 
counties in Missouri and one in Arkansas. Although public 
outcry stopped implementation of this Reserve, the Missouri 
Department of Conservation which had been a signatory to it, 
saw fit in 1996 to launch its own plan for the Lower Ozark 
region of the state in what it called a Coordinated Resource 
Management Plan covering 11 counties.
    The threat of this CRM plan is that biodiversity and 
ecosystem management override the long held conservation 
objectives of improving the condition and productivity of the 
state's natural resources of timber, wildlife, minerals, water, 
air and aesthetics.
    The underlying tenor of this CRM plan, which provides an 
excuse for its existence, is that the flora and fauna of 
Missouri are in a depleted state. This is not the case. Active 
resource management over the past 60 years has restored 
Missouri's resources to a reasonably good and productive 
condition.
    The greatest threat to the well-being and productivity of 
Missouri's natural resources is lock-up management. And lock-up 
management protrudes through every phase of the CRM plan. The 
CRM plan espouses establishment of the Ozarks Man and the 
Biosphere with its restrictive, non-use goals and also The 
Nature Conservancy's Lower Ozarks Biosphere with similar 
objectives.
    It should be noted that in neither the state's CRM plan or 
the Forest Service's ecosystem management strategy are the 
basic physiological needs of human beings integrated into or 
given substantive priority in the planning process. Neither is 
minerals recovery accorded any priority or recognition in the 
CRM plan.
    Nature Conservancy's plan for the Lower Ozarks Biosphere, 
which MDC supports, states that ``alteration of pre-settlement 
natural processes is stressful to the ecosystem. And hence, 
management must focus on restoring pre-settlement processes.'' 
It is evident that sustainable refers to curtailing use by 
society and managing with the objective of returning resources 
to the lower productivity of pre-settlement days.
    Another threat to private property and resource management 
posed by Biosphere Reserves, the CRP plan and ecosystem 
management is the designation of American lands as World 
Heritage Sites by the U.N. World Heritage Committee. Some 18 
World Heritage Sites totaling over 20 million acres have 
already been designated in America, without Congressional 
approval.
    Proof that the U.N. designations pose a threat to 
sovereignty, private property and resource management, is 
indicated by the U.N.'s action in 1995 in stopping a planned 
gold mine operation by Crown Butte Mine well outside 
Yellowstone National Park near Cooke City, Montana.
    In stopping the mine, the U.N. delegation made this 
astounding comment: ``The U.S. as signatory to the World 
Heritage Convention has a duty to protect the ecosystem outside 
the Park.'' Yellowstone is both a Biosphere Reserve and a World 
Heritage Site.
    Much of America is clearly at risk.
    To protect American sovereignty, private property and 
resource management for the benefit of humanity, it is 
imperative that H.R. 883 be enacted into law.
    Thank you for giving one who has practiced productive 
natural resource management for over half a century a chance to 
be heard.
    [The prepared statement of Mr. Meyers follows:]

 Statement of Frank W. Meyers, Forester and Secretary, Potosi Chapter, 
                           People for the USA

    I am Frank W. Meyers of Potosi, Missouri. I speak as one 
who has been a practicing environmentalist and professional 
forester for over 55 years which with time spent in the Navy 
throughout WW-II, gives me a perspective on the environmental 
scene covering sixty years.
    I some to speak in support of H.R. 883, the American Land 
Sovereignty Protection Act.
    I speak both for myself and for the Potosi Chapter of 
``People for the USA,'' for which organization I serve as 
Secretary, and whose membership includes many long active in 
management, production and use of natural resource commodities 
both on public and private land.
    Today we are distressed to see productive natural resource 
management which provides for human needs, being threatened on 
every side.
    The, threat arises from a plethora of pseudo-
environmentalist groups whose general theme is to reorganize 
society around the central principle of protecting the 
environment, and who both use and lend credence to a variety of 
United Nations Plans, conventions, and treaties oriented toward 
control of America and its people.
    In 1971 the United States Educational, Scientific, and 
Cultural Organization (UNESCO) initiated a plan for setting up 
a world network of Biosphere Reserves to ``protect the 
environment'' and safeguard the planet. The U.S. State 
Department incorporated this into their planning in 1973. The 
Biosphere Reserve program has the objective of returning vast 
areas of the planet to a nature-managed condition. In the 
United States this amounts to some 48 percent of the land area. 
The long range objective is to regulate population distribution 
and land use on a massive scale.
    Article 4, Section 5 of the Framework on Biosphere Reserves 
specifies the designation of vast ``core areas'' in each 
Reserve, which is to be completely free of human use. An 
adjacent surrounding ``buffer zone'' will allow only limited 
access but no management, and a third outlying ``transition'' 
zone will allow for planned, controlled ``sustainable use.''
    ``Sustainable'' in U.N. and pseudo-environmentalist jargon 
means reducing consumption of goods, eliminating modern 
conveniences and controlling the population, so as to return 
the resources to a ``pre-settlement'' condition.
    Without Congressional approval, some 47 Biosphere Reserves, 
totaling 44 million acres, have already been officially 
designated in America. One such planned Biosphere Reserve was 
the Ozark Man and the Biosphere which which was to cover 48 
thousand square miles in Missouri, Arkansas, Oklahoma and 
Kansas, Although temporarily shelved, this gigantic plot to 
return 48 thousand square miles of America to pre-settlement 
conditions, gave rise in 1996 to a smaller Reserve proposal. It 
was the ``Lower Ozarks Biosphere Reserve,'' covering 3,200 
square miles including eleven counties in Missouri and one in 
Arkansas, Although public outcry stopped implementation of this 
Reserve, the Missouri Department of Conservation which had been 
a signatory to it, saw fit to launch in 1996 what it reffered 
to as a Coordinated Resource Management Plan (CRM) for the 
Lower Ozark Region of the State, covering eleven counties.
    The thrust of this CRM plan is that ``biodiversity'' and 
``ecosystem management'' objectives override the long-held 
conservation objectives of improving the condition and 
productivity of all the States's natural resources of timber, 
wildlife, minerals, water, air and aesthetics.
    The underlying tenor of the CRM plan--which provides an 
excuse for its being--is that the flora and fauna of Missouri 
are in a depleted state. This is hardly the case. Active 
resource management over the last sixty years has restored 
Missouri's resources to a reasonably good and productive 
condition.
    The greatest threat to the well-being and productivity of 
Missouri's natural resources is ``lock-up'' management. And 
``lock-up'' management protrudes through every phase of the CRM 
plan. The plan espouses establishment of the Ozarks Man and the 
Biosphere and its restrictive goals, and also Nature 
Conservancy's Lower Ozarks Biosphere with similar objectives.
    It is interesting--in fact frightening--to note that in 
neither the State's CRM plan or the Forest Service's ecosystem 
management strategy are the basis physiological needs of humans 
integrated into or given substantitive priority in the planning 
process. Neither is minerals management including prospecting, 
recovery, and reclamation accorded any priority or recognition 
in the CRM plan.
    Nature Conservancy's plan for the Lower Ozarks Biosphere--
which MDC supports--states that ``alteration of pre-settlement 
natural processes is stress(ful) to the ecosystem. Management 
must focus on restoring (presettlement) processes.'' It becomes 
evident that ``sustainable'' refers to curtailing use by 
society and managing with the objective of returning resources 
to the lower productivity of pre-settlement days.
    It appears that both the government's and the United 
Nations' pantheistic objective is to control society so as to 
stabilize nature.
    In addition to the threat to private property and resource 
management posed by BioReserves, the CRM plan and ecosystem 
management, a further threat arises from United Nations 
designation of American lands as ``World Heritage Sites.'' 
Presently some 18 World Heritage Sites totaling over twenty 
million acres have been designated in America without 
Congressional approval.
    Proof of the assertion that U.N. designations pose a threat 
to national sovereignty, private property, and resource 
management, is indicated by action of the U.N. delegation 
examining Yellowstone National Park in 1995. This delegation, 
with government acquiescense, stopped a planned gold mine 
operation by the Crowne Butte Mine, well outside the Park near 
Cooke City, Montana.
    The U.N. deleration not ony stopped the mine but made this 
``Astounding observation''; ``The U.S. as signatory to the 
World Heritage Convention has a duty to protect the ecosystem 
OUTSIDE the Park.'' Yellowstone is both a Biosphere Reserve and 
a World Heritage Site.
    Much of America is clearly at risk.
    To protect American sovereignty, private property, and 
natural resource management for the benefit of humanity, it is 
imperative that H.R. 883, the American Land Sovereignty 
Protection Act, become the law of the land.
    Thank you for giving one who has practiced productive 
natural resource management in America for over half a century, 
a chance to be heard.

    Mrs. Chenoweth. Thank you, Mr. Meyers.
    [Applause.]
    Mrs. Chenoweth. And now is the time when we will be asking 
the witnesses questions and so the Chair recognizes Ms. 
Emerson.
    Ms. Emerson. Thank you, Chairman Chenoweth.
    My question goes to all of you and it is really a rather 
basic question. And that is, have any of you ever been given a 
clear, concise definition or explanation of exactly what a 
biosphere reserve is from any of the Federal or state officials 
pushing these MAB concepts?
    Ms. Denham. No.
    Ms. Emerson. Mary, you say no? Richard?
    Mr. Yancey. Not really. You know, the terminology is 
extremely vague and it speaks in generalities of scientific 
studies and some management type things and in effect, you 
know, if you notice, we cannot even seem to get a handle on 
what the size of these biospheres are. You know, I have heard 
three different sizes. My map shows the portion that was part 
of the bioreserve that The Nature Conservancy outlined, and I 
assume that is a core area. But you know, you do not get 
anything concrete, nothing definite.
    Ms. Emerson. Mr. Powell.
    Mr. Powell. It was a topic of discussion several times in 
the Conservation Commission. We never did get into it in depth 
at all, this was strictly a staff assignment. We never did vote 
on proceeding with any definite plan whatsoever. As far as the 
in-depth description of it, I have no knowledge.
    Ms. Emerson. Would it be accurate to call a biosphere a pig 
in a poke?
    [Laughter.]
    Ms. Emerson. Would that be pretty accurate?
    Mr. Yancey. I would agree with that, yes.
    Ms. Emerson. Mr. Yancey, I want to ask you a question. Why 
do you not talk a little bit about--you refer in your testimony 
and Mr. Meyers did in his about the correlation between the 
gold mine near Yellowstone and what could possibly occur to our 
mining operations here in this district and in the Mark Twain 
as a result of the MAB designation.
    Mr. Yancey. Well, I think there is a real direct analogy 
here. You know, when you talk to these people, the non-
government organizations that are behind a lot of this and some 
of the government organizations, it is a benign program that 
has no effect, when in fact, in the situation with the New 
World Mine outside of Yellowstone National Park, it was not 
benign at all. They stopped that program. That particular 
project in fact was pretty advanced. It had been drilled out 
and it was on private property, and it ended up costing the 
taxpayers of this country--at least so far the last I heard was 
$65 million to buy them out because it was already established 
there was a deposit there.
    In addition to that, just as a side note, you know, it was 
an old mining site there that had been--you know, years ago, 
they did not know what they were doing, there was no 
environmental remediation. In the process of developing the 
mine, that would have been remediated. So now the taxpayers 
also have an additional bill to clean that up, which the 
company was going to clean up as part of their mining.
    Now as far as how that compares to here, I would say the 
process is already in effect because, you know, the area that 
is in question, the mining companies have been stumped in 
trying to get prospecting permits on government lands in that 
area and certainly some of the private lands, for example, that 
The Nature Conservancy controls, you know, there is no access 
to those lands. And frankly, you know, I see a very clear 
analogy here that the same thing would happen, and is in fact 
already happening here in Missouri. And I would also, as a side 
note too, say that it is just not restricted to the United 
States. There is a biosphere in Australia where the same 
situation is occurring. So, you know, if anybody needed any 
hard facts of what the intentions are here, these are definite 
things that have happened, not theory.
    Ms. Emerson. Well, let me get something clear here with 
regard to your statement about $64 million. Are you saying that 
the taxpayers paid a Canadian company $64 million not to mine 
gold?
    Mr. Yancey. That is exactly right. You know, they had the 
deposit defined and they are not allowed to mine it. And 
because the discovery, that will be considered a taking and in 
fact, what is happening here, you know, just to follow up on 
that, in Missouri, we're being prevented from exploring, so 
that there is no chance that we would find a deposit and then 
if there is a taking, the government would not be obligated to 
pay the mining industry for that taking. So we are being 
prevented, kind of a pre-emptive strike here, from being able 
to explore.
    Ms. Emerson. Mr. Meyers.
    Mr. Meyers. My recollection is on the $65 million, in order 
to placate the populous, the Federal Government purchased land 
at a price of $65 million elsewhere in Montana and gave the 
mining rights on that to Crown Butte. Now I may be mistaken.
    Ms. Emerson. I see. Ms. Denham.
    Ms. Denham. I understand that the mining company was 
compensated to a certain amount, but certainly not to the value 
of the property, of the gold.
    It was also my understanding that a woman in her eighties 
was the actual owner of the land and has received no 
compensation whatsoever.
    Ms. Emerson. Well, apparently the deal did fall through 
though eventually anyway, to the best of my knowledge.
    Ms. Denham. It has not been taken?
    Ms. Emerson. Correct, I believe it has fallen through. But 
let me also make a statement here in response, the fact of the 
matter is that it is just--there is a continual effort to make 
it difficult for private property owners to receive 
compensation for their property and there is a continual effort 
on the part of government to take over land. It kind of reminds 
me of when they tried to close down the Mark Twain because of a 
gnat and we were going to have to close down all of our mining 
operations because of a gnat. And it also kind of reminds me 
of--well, many, many government programs, most of which are 
tremendously burdensome and certainly not in the right spirit 
as far as our rights are concerned.
    I have exceeded my time, Chairman.
    Mr. Meyers. Could I say one thing? We have digressed just a 
little here on the mining. I think it is imperative for not 
only this Committee but the people in general to recognize, 
which the environmental illiterates have not done, that mining 
has been a boon to forest management in America, because it has 
substituted other materials for wood including fossil fuels, 
steel, stone, concrete. And so that there is more timber in 
America than there ever was, a lot of it can be thanks to the 
mining industry since 1920.
    Mrs. Chenoweth. Thank you, Mr. Meyers. Thank you, 
Congressman Emerson.
    I do want to thank the panel very much for bringing the 
issue out about the New World Mine. Indeed, the land deal did 
fall through, that was correctly stated. But the taxpayers had 
to pony up $65 million to the Canadian leasehold interests 
without paying--as Ms. Denham had mentioned, without paying the 
actual holder of the patent of the mine anything.
    I tried very, very hard to get that $65 million taken out 
of Al Gore's administrative budget at the White House.
    [Applause.]
    Mrs. Chenoweth. Mary Denham, what does private property 
rights really mean to you?
    Ms. Denham. Well, Madam Chairman, I have been a real estate 
broker and agent for 47 years. It means to me that all the 
wealth of our nation or anywhere comes from the land, it means 
that we are all dependent on the natural resources of the land, 
it means that we have the Constitutional rights that we retain 
and that we are stated as retained, guaranteed would be 
reserved, that we have rights in property that if taken has to 
be compensated by any agency, Federal or state. It means to me 
that there is a vote on rights, the right to do or not to do, 
to mine, to forest, to do forestry, to build homes, the 
partition, to do everything that Americans have taken for 
granted as their right in property, which is not just 
absolutely decimated by regulatory control by very abusive 
state and Federal agencies, and by acts of Congress that I 
believe were well-intentioned but have been so mishandled by 
the administration by Executive Orders, by initiatives and by 
other things and then it dribbled really on down to the Federal 
agencies and they pass it on down to the state agencies. And it 
is an upside down situation.
    Thank you.
    Mrs. Chenoweth. Thank you.
    Mr. Powell, being from Idaho, I have much to learn about 
Missouri, except I feel very much at home here, it is a 
wonderful part of our nation, it is very beautiful. But who was 
Governor of Missouri in 1995 when the Missouri Department of 
Conservation endorsed the Ozark Biosphere proposal?
    Mr. Powell. That endorsement was to proceed with our 
planning stage, there was never any formal vote in the 
Commission itself to adopt the complete program, and of course 
it was junked before it got to first base, that's what 
happened. This was something that was conceived by a lot of the 
different agencies in the state of Missouri and we were 
cooperating with them in the planning stage, but never any 
formal adoption of it.
    Mrs. Chenoweth. And who was the Governor then?
    Mr. Powell. John Ashcroft--1995? Did you say 1995?
    Mrs. Chenoweth. Nineteen ninety five.
    Mr. Powell. That is right, Carnahan. I should be a little 
bit more up on that one for sure.
    [Laughter.]
    Mrs. Chenoweth. Tell me, Mr. Powell, did former Governor 
Carnahan's appointees to the Missouri Conservation Commission 
support this biosphere reserve proposal?
    Mr. Powell. Yes, they did.
    Mrs. Chenoweth. I want to ask you, I am Chairman of the 
Forestry Subcommittee in the House and we also are very 
concerned about the centralized planning process that we now 
seem to be engaged in, what effect it has had on our forests 
across the nation. What we have seen is that there is less of a 
multiple use sustained yield concepts being employed on the 
ground and in large part because of designations of endangered 
species habitat and now this new biosphere reserve would be 
another program for an excuse not to have multiple use 
sustained yield concepts employed in managing our forests.
    How do you see the impact, the long-term impact, on 
forestry if--and I hope the if is growing smaller, but if the 
biosphere reserve is proposed as we have heard the concepts 
proposed today--how would it affect the forests?
    Mr. Powell. Well, I think it would completely shut the 
Federal forests down, more so than now. They are almost shut 
down at the present time because of the environmental movement, 
but I am sure this could probably cap it off and eliminate the 
usage of that. And of course, that would spread next to the 
state land and then finally to private lands.
    Mrs. Chenoweth. Testimony I heard before my Committee last 
month or two months ago testified to the fact that our forests 
on the Federal lands, especially in the northwest, but also 
forests all over the nation, in some areas are in a state of 
near collapse. Many of those forests are forests that have not 
had on the ground management by humans employed. We have seen a 
lot of disease and insect infestation and the potential for 
catastrophic fires is growing. Do you see any of that 
possibility here in the Mark Twain Forest?
    Mr. Powell. I think it will eventually happen here. Of 
course, they cut down personnel and the personnel that have 
been cut from the Forest Service have been your professional 
foresters and they have been replaced with biologists and 
planning teams for recreation and things like that. They are 
getting out of the timber growing business as far as usage is 
concerned, and of course what happens with that when the timber 
gets old and goes down hill, you are going to lose it. And of 
course that is a major portion of the production of the wood 
fibers that we need for the whole country. And that has put 
tremendous pressure on the other parts of the United States and 
especially the south, and of course that is the reason we are 
having trouble in Missouri, they are trying to get additional 
fiber for the market and they have moved up into the state of 
Missouri to try to get this fiber. And if we want to be able to 
eliminate that, what we need to do is to put the Forest Service 
back in business for their original intent, to furnish wood 
fiber for our nation.
    Mrs. Chenoweth. Thank you.
    Ms. Denham. I am sorry to interrupt, but may I make a 
request that I be able to submit additional exhibits to the 
Committee for inclusion in the record?
    Mrs. Chenoweth. Without objection, so ordered.
    Ms. Denham. Thank you.
    [The material referred to may be found at the end of the 
hearing.]
    Mrs. Chenoweth. I see that my time is almost up too. I have 
about five questions here for Mr. Yancey and I will submit 
those in writing. I also have questions for Mr. Meyers.
    I do want to say for Mr. Meyers how grateful I am to you 
and all the veterans who have fought so valiantly not only in 
World War II but the subsequent wars, to protect the very 
freedoms that we stand a chance of losing if we do not stay 
eternally vigilant. So Mr. Meyers, not only do I thank you from 
the bottom of my heart for being an effective witness, but for 
your service to the country. And our service to the country 
does not end with military service, we must all be servants to 
the country in fighting a battle that does not have clear 
battle lines. But certainly if we lose the battle, we will lose 
our land, our heritage, our godly values and our way of life.
    So thank you all very, very much for your wonderful 
testimony. And with that, this panel is dismissed and the Chair 
calls Dale Lovett, Pulp and Paperworkers' Resource Council, 
Wickliffe, Kentucky; Darrell Skiles, Missouri Cattlemen's 
Association, Salem, Missouri; Leon Kreisler, Missouri Farm 
Bureau, Salem, Missouri and Carl Barnes, Missouri Forest 
Products Association and People for the USA, Potosi, Missouri.
    I wonder if the panel could please stand and raise your arm 
to the square.
    [Witnesses sworn.]
    Mrs. Chenoweth. Thank you. The Chair recognizes Dale Lovett 
for opening testimony.

   STATEMENT OF DALE LOVETT, PULP AND PAPERWORKERS' RESOURCE 
                  COUNCIL, WICKLIFFE, KENTUCKY

    Mr. Lovett. Thank you, Madam Chairman. I would like to 
thank you for this opportunity to be here today.
    My name is Dale Lovett, I am a 15-year employee at the 
Westvaco Fine Papers Mill located in Wickliffe, Kentucky. I am 
also a very proud member of the Paper, Allied Industrial, 
Chemical and Energy Workers International Union as well as a 
Special Projects Director for the Pulp and Paper Workers 
Resource Council which represents over 300,000 workers in the 
wood products industry.
    Today the wood products industry in America is struggling 
to compete in the world economy. One major reason for this is 
the ever-increasing restrictions placed on land use, on both 
public and private land. Job losses are becoming an everyday 
reality as restrictive forces shut down employers.
    With UNESCO's World Heritage Sites and Biosphere Reserve 
designations coming into play, we will only lose more jobs as 
this simply adds to the limitations put on our natural 
resources which we feel are already over-regulated.
    In far western Kentucky, where I am from, no local 
authorities or state officials were consulted prior to the 
Tennessee Valley Authority/Land Between the Lakes recreation 
area being selected as a United Nations Biosphere Reserve. 
After becoming aware of this situation, the Kentucky Senate in 
1997 passed a resolution stating its position to not be a part 
of this program. However, it seems to not matter.
    A recent lawsuit was brought against the Tennessee Valley 
Authority by a special interest group to block a timber sale in 
the Land Between the Lakes area. This lawsuit stated that 
because the Land Between the Lakes had been designated as a 
Biosphere Reserve, the timber sale should not be allowed to go 
through. This designation simply represents another avenue to 
use by special interest groups to control public and private 
land as they so desire. Madam Chairman, the writing is on the 
wall. These designations can and will be used against us.
    As an American worker who understands how natural resources 
are vital to any type of sound economic base, we can no longer 
allow foreign nations, who are our competitors in the world 
marketplace, to influence decisions that puts American workers 
at a competitive disadvantage whether through UNESCO or any 
other means. This is totally unacceptable.
    In Kentucky, we call this putting the fox in charge of the 
hen house.
    The record is clear from the proposed mine development near 
Crown Butte, Montana as to what these type of designations can 
do to eliminate economic opportunity even on private land. 
Again, the writing is on the wall.
    Well-connected special interest groups who know how to use 
the system can go basically undetected through the maze and web 
of governmental bureaucracy to advance their cause. When these 
groups are able to make world heritage sites and biosphere 
reserve designations become a reality without the support of 
Federal, state and local governments, then it is time for 
legislation such as the American Land Sovereignty Protection 
Act. And sometimes I think they view a lack of opposition in 
their secret maneuvering the same as support. And that is one 
way they say they have support, because nobody is opposing 
them.
    No organization or individual should ever have the ability 
to negotiate or bargain away the power of Congress to make 
decisions as to the territory or any property that belongs to 
the United States of America.
    It overwhelms me as to the need for legislation such as the 
American Land Sovereignty Protection Act. Who would ever have 
thought our nation, the United States of America, would have 
ever allowed foreign interests to share in the influence upon 
the very land upon which our nation rests?
    It is with great passion that I urge you to support this 
piece of legislation as it will place the destiny of our great 
nation back into the hearts and hands of those who truly care 
for it.
    Thank you.
    Mrs. Chenoweth. Thank you, Mr. Lovett. The Chair recognizes 
Darrell Skiles for testimony.
    [The prepared statement of Mr. Lovett follows:]
    [GRAPHIC] [TIFF OMITTED] T6693.187
    
    [GRAPHIC] [TIFF OMITTED] T6693.188
    
    [GRAPHIC] [TIFF OMITTED] T6693.189
    
    [GRAPHIC] [TIFF OMITTED] T6693.190
    
    [GRAPHIC] [TIFF OMITTED] T6693.191
    
    [GRAPHIC] [TIFF OMITTED] T6693.192
    
    [GRAPHIC] [TIFF OMITTED] T6693.193
    
    [GRAPHIC] [TIFF OMITTED] T6693.194
    
STATEMENT OF DARRELL SKILES, MISSOURI CATTLEMEN'S ASSOCIATION, 
                        SALEM, MISSOURI

    Mr. Skiles. Thank you, Madam Chairman. My name is Darrell 
Skiles, I am a lifelong resident of Salem, Missouri and I would 
like to say that it is an honor and a privilege to address this 
Committee on Resources here today. And on behalf of the 
Missouri Cattlemen's Association we thank you for this 
opportunity.
    Property rights and the freedom to provide a living for our 
families, with a minimal amount of influence from governmental 
agencies, is centerpiece to the purpose of the Missouri 
Cattlemen's Association. Few issues have stirred the emotions 
of our members more than the recently proposed biosphere 
reserve programs. And let me say here that considering the 
previous testimony that has been given here today, much of my 
presentation will be rather repetitious, but please bear with 
me.
    To discuss the Man in Biosphere program I must refer to the 
January 1996 Coordinated Resource Management Draft Plan for the 
Lower Ozark Region which consists of all or a portion of 15 
counties in southern Missouri. The Coordinated Resource 
Management Plan was produced by the Missouri Department of 
Conservation in cooperation, or collusion, with the Missouri 
Department of Natural Resources, the Natural Resource 
Conservation Service, the U.S. Army Corps of Engineers, U.S. 
Fish and Wildlife Service, U.S. Forest Service and the National 
Park Service, along with several other non-governmental 
organizations.
    Prior to the release of this draft plan, the Missouri 
Department of Conservation had held a series of meetings in 
various locations around the state of Missouri for the purpose 
of public input. The Cattlemen's Association had a 
representative in attendance at a number of these meetings and 
I personally attended the meeting held in Eminence, Missouri.
    While I found several of the goals, objectives and/or 
strategies in this plan objectionable from a private landowner 
and cattle producer's perspective, the last goal, Goal IX, I 
found to be the most interesting, and as I learned more about 
it, by far the most onerous. Goal IX outlined the participating 
agencies plans to ``support the establishment of an Ozark Man 
and the Biosphere Cooperative in the region and work towards 
implementation of its goals and objectives.'' The region being 
more specifically the Current and Eleven Point River Watershed 
in Missouri and Buffalo River Watershed in Arkansas, 
encompassing over 3,200 square miles or more than two million 
acres of land.
    At the CRM meeting that I attended, I do not recall ever 
hearing mention of any such plan, nor did any of my colleagues 
at the Cattlemen's Association. It was also very interesting 
that this Goal IX stated that ``a feasibility study for an 
Ozark Man and the Biosphere Program in the region had 
documented widespread support for this concept.'' In visiting 
with friends, business associates and state and local public 
officials, I found that there was virtually no one who had even 
heard of such a program before, much less supported it. I made 
an inquiry on January 18 of 1996 to the Missouri Department of 
Conservation and received some interesting information from 
Kelly McGrath, Missouri Department of Conservation Policy 
Analyst.
    This information showed me that a Feasibility Study Report 
to the Ozark Man and the Biosphere Steering Committee had been 
prepared in September of 1991. I learned from this report that 
a biosphere reserve essentially consists of three areas of 
land. A core area that is strictly managed to preserve its 
natural resource values; a buffer zone or area of managed use 
which would surround the core area; and third, the land 
surrounding the managed use area would be called the area of 
transition, where human settlements, farms, industries, et 
cetera are allowed. Ms. McGrath further stated that the 
agencies and entities included in this agreement would actually 
own and control both the core area and the area of managed use.
    It appears that several of our state and Federal agencies 
and a select few private organizations had a grand scheme, or 
scam, for massive land control and/or takeover.
    I also learned that in the course of interviewing residents 
of this region for this feasibility study, that the interviewer 
chose to discuss concepts rather than describe in detail the 
actual program, due to concerns that people might ``overreact 
to another government program.'' The concepts discussed, it 
appeared, did not mention anything about a consortium of state 
and Federal agencies and particular organizations collectively 
owning and controlling more land than they already possess, 
which just in Shannon County alone adds up to over 300,000 
acres.
    This study also revealed that the Man and Biosphere program 
is in fact a United Nations sponsored program. After the 
January 1996 release of the CRM Draft Plan for the Lower Ozark 
Region, many citizens began to raise serious questions and 
concerns about various parts of this plan. By far, the vehement 
objections were those pertaining to Goal IX and its Ozark Man 
and the Biosphere concept.
    Consequently, the Missouri Cattlemen's Association at its 
February 11 '96 annual meeting overwhelmingly approved a 
resolution opposing the Ozark Man and the Biosphere concept.
    Madam Chairman, Ms. Emerson, it is more than a little 
disconcerting to realize that our state and Federal agencies, 
without the public's knowledge, had been working on 
implementing this United Nations sponsored scheme for over six 
years. Frankly, this leaves us worrying about what they are 
doing or contemplating doing now without our knowledge and at 
the urging of the United Nations or some other outside 
interest.
    These plans and programs are seemingly without the 
necessary oversight and approval of the United States Congress. 
As a result, I would like to offer the support of the Missouri 
Cattlemen's Association for passage of H.R. 883, The American 
Land Sovereignty Act. Both I and the cattlemen of Missouri 
thank you for this opportunity to support H.R. 883 and I will 
be happy to answer any questions.
    Mrs. Chenoweth. Thank you, Mr. Skiles. The Chair recognizes 
Leon Kreisler for testimony.
    [The prepared statement of Mr. Skiles follows:]

 Statement of Darrell Skiles, Missouri Cattlemen's Association, Salem, 
                                Missouri

    My name is Darrell Skiles, I am a lifelong resident of Dent 
County Missouri. I would like to say that it is an honor and a 
privilege to address this Committee on Resources here today. On 
behalf of the Missouri Cattlemen's Association we thank you for 
this opportunity.
    The Missouri Cattlemen's Association (MCA) represents 
Missouri's largest segment of the agriculture industry. The 
Missouri beef industry provides a $6 billion impact to the 
Missouri economy. Our property taxes and business supporting 
expenditures provide the economic base that supports many of 
Missouri's schools and local economies.
    Property rights and the freedom to provide a living for our 
families, with a minimal amount of influence from governmental 
agencies, is centerpiece to the purpose of the Missouri 
Cattlemen's Association. Few issues have stirred the emotions 
of our members more than the recently proposed Biosphere 
programs. These programs seem contrary to the fabric that built 
this nation and this state.
    To discuss the Man in Biosphere program I must first refer 
to the January 1996 Coordinated Resource Management Draft Plan 
for the Lower Ozark Region which consist of all or part of 
fifteen counties in southern Missouri. The Coordinated Resource 
Management Plan (CRM) was produced by the Missouri Department 
of Conservation (MDC); in cooperation with the Missouri 
Department of Natural Resources (MDNR), Natural Resource 
Conservation Service (NRCS), U.S. Army Corps of Engineers, U.S. 
Fish & Wildlife Service, U.S. Forest Service and the National 
Park Service.
    CRM is described in this plan as ``a voluntary program to 
get government agencies and citizens working together to plan 
for the long-term health of Missouri's natural resources.'' 
Prior to the release of this draft plan, MDC held a series of 
meetings in various locations around the state of Missouri for 
the purpose of public input. MCA had a representative in 
attendance at a number of these meetings and I personally 
attended the meeting held in Eminence, Missouri.
    While I found several of the goals, objectives and/or 
strategies in this plan objectionable from a private landowner 
and cattle producer's perspective, the last goal, GOAL IX I 
found to be the most interesting, and as I learned more about 
it by far the most onerous. GOAL IX outlined the participating 
agency plans to ``support the establishment of an Ozark Man and 
the Biosphere Cooperative in the region and work towards 
implementation of its goals and objectives.'' The region being 
more specifically the Current and Eleven Point river watershed 
in Missouri and Buffalo River watershed in Arkansas, 
encompassing some 3,200 square miles or more than two million 
acres of land.
    At the CRM meeting that I attended I do not recall ever 
hearing mention of any such plan, nor did any of my colleagues 
at MCA. It was also very interesting that this GOAL IX stated 
``a feasibility study for an `Ozark Man and the Biosphere' 
program in the region documented widespread support for the 
concept.'' In visiting with friends, business associates, and 
state and local public officials I found that there was 
virtually no one who had even heard of such a program before, 
much less supported it. I made an inquiry on January 18, 1996 
to MDC and received some interesting information from Kelly 
McGrath, MDC Policy Analyst.
    This information showed me that a Feasibility Study Report 
to the Ozark Man and the Biosphere Steering Committee had been 
prepared in September 1991. I learned from this report that a 
biosphere reserve essentially consists of three areas of land. 
A ``core area'' that is strictly managed to preserve its 
natural resource values; a ``buffer zone'' or ``area of managed 
use'' would surround the ``core area''; and the land 
surrounding the ``managed use area'' is called the ``area of 
transition,'' where human settlements, farms, industry, etc. 
are allowed. Ms. McGrath stated that the agencies and entities 
included in the cooperative agreement would actually own and 
control both the ``core area'' and the ``area of managed use.''
    It appears that several of our state and Federal agencies 
and a select few private organizations had a grand scheme--or 
maybe scam--for massive land control and/or takeover.
    I also learned that in the course of interviewing residents 
of this region for this feasibility study that the interviewer 
chose to discuss ``concepts'' rather than describe in detail 
the ``actual program'' due to concerns that people might 
``overreact to another government program.'' The ``concepts'' 
discussed it appears did not mention anything about a 
consortium of state, Federal agencies and particular 
organizations collectively owning and controlling more land 
than they already possess, which in Shannon County alone adds 
up to nearly 300,000 acres.
    This study also revealed that the Man and Biosphere program 
is in fact; a United Nations sponsored program. After the 
January 1996 release of the CRM Draft Plan for the Lower Ozark 
Region many citizens began to raise serious questions and 
concerns about various parts of this plan. By far, the most 
vehement objections were those pertaining to GOAL IX and its 
``Ozark Man and the Biosphere'' concept.
    The MCA membership, at its February 1996 Annual meeting, 
overwhelmingly approved a resolution opposing the ``Ozark Man 
and the Biosphere'' concept. It is more than a little 
disconcerting to realize that our state and Federal agencies, 
without the public's knowledge, had been working on 
implementing this United Nations sponsored scheme for over six 
years. Frankly this leaves us worrying about what they are 
doing or contemplating doing now without our knowledge at the 
urging of the United Nations or some other outside interest.
    These plans and programs are seemingly without the 
necessary oversight and approval of the United States Congress. 
As a result, I would like to offer the support of the Missouri 
Cattlemen's Association for passage of H.R. 863, The American 
Land Sovereignty Act. My written testimony includes the 
references, notes and documents I have discussed with you 
today. Both I, and the cattlemen of Missouri thank you for this 
opportunity to support H.R. 863. I would be happy to answer any 
questions.
[GRAPHIC] [TIFF OMITTED] T6693.195

[GRAPHIC] [TIFF OMITTED] T6693.196

[GRAPHIC] [TIFF OMITTED] T6693.197

[GRAPHIC] [TIFF OMITTED] T6693.198

[GRAPHIC] [TIFF OMITTED] T6693.199

[GRAPHIC] [TIFF OMITTED] T6693.200

[GRAPHIC] [TIFF OMITTED] T6693.201

[GRAPHIC] [TIFF OMITTED] T6693.202

[GRAPHIC] [TIFF OMITTED] T6693.203

[GRAPHIC] [TIFF OMITTED] T6693.204

[GRAPHIC] [TIFF OMITTED] T6693.205

[GRAPHIC] [TIFF OMITTED] T6693.206

[GRAPHIC] [TIFF OMITTED] T6693.207

   STATEMENT OF LEON KREISLER, MISSOURI FARM BUREAU, SALEM, 
                            MISSOURI

    Mr. Kreisler. Thank you, Madam Chairman and Congressman 
Emerson. I would like to welcome you to Rolla and to our great 
state of Missouri.
    My name is Leon Kreisler and I raise cattle on a farm near 
Salem, Missouri which is approximately 25 miles southeast of 
here. I am representing the Missouri Farm Bureau, the state's 
largest general farm organization. I am a past President of the 
Dent County Farm Bureau and currently serve on the Farm 
Bureau's Natural Resource and Environment Committee.
    It is indeed an honor to speak to you today about issues 
that strike at the very heart of landowners across the country. 
Whether we are discussing biosphere reserves, heritage 
corridors, rails-to-trails, local ordinances and even timber 
management, the protection of property rights remains one of 
the nation's fundamental principles. Today, it is all too 
common for landowners' rights to be called into question by 
individuals, organizations and officials with a long agenda, 
big pocketbooks, little common sense and no land. For this 
reason, I commend Congressman Young----
    [Applause.]
    Mr. Kreisler. [continuing] and the cosponsors of H.R. 883, 
the American Land Sovereignty Protection Act, for leading 
efforts to solidify protections that are currently in question.
    First, in 1997, the Missouri Farm Bureau and several other 
groups learned of plans to nominate a portion of the Lower 
Ozarks as a Biosphere Reserve under the Man and the Biosphere 
Program. As more information became available, questions arose 
about the purpose, scope and implications of the nomination. 
Several public meetings were held in the Ozarks and speakers 
familiar with biosphere reserves in other regions were 
featured. It was not long before many landowners expressed a 
very legitimate concern about the Lower Ozark's nomination. 
Ultimately, the Missouri Farm Bureau opposed the proposal by 
adopting the following policy: ``We are opposed to any effort 
in which the control or management of land or natural resources 
of the United States is relinquished or diminished in any way 
by treaty or other means to the United Nations or any other 
foreign body. This applies to activities such as biosphere 
reserves or others that have been proposed by local, state, 
Federal or international agencies or organizations.''
    Specifically, we are concerned that Man and the Biosphere 
Program operates without legislative authorization from 
Congress, yet puts landowners in a position of abiding to 
international land use designations. And we remain concerned 
about the process in which sites are nominated--a process that 
must ensure input and consensus from all affected parties.
    Throughout this process, it was especially disturbing to 
note the level of distrust which landowners have for 
government, some would say ``a devil behind every tree.'' But, 
despite the rhetoric spewed from environmental zealots, this 
distrust stems from past actions and policy. In Missouri, 
landowners' distrust of government relative to property rights 
can be traced to several initiatives.
    In 1989, Missouri landowners were dealt a severe blow in 
court as the Federal Government prevailed in a lawsuit that 
created a recreational trail on an abandoned rail line. 
Landowner rights were ignored as the courts determined that 
easements granted to the railroad did not revert back to the 
landowner upon cessation of rail service but could be 
transferred to the state for an entirely different purpose with 
no compensation to landowners. The Kay Trail has not been 
developed, however, the wounds for many landowners will never 
heal. We are pleased that a class action lawsuit is pending in 
which the affected landowners could receive some level of 
compensation for their loss.
    In 1990, Missourians soundly defeated a measure that would 
have altered production agriculture by severely restricting the 
rights of farmers and ranchers. Fortunately, most people saw 
the Natural Streams Act for what it was and it was defeated 
soundly. Despite this legacy, the environmental community soon 
found a suitable replacement in the form of a program entitled 
Coordinated Resource Management. While the stated purpose of 
agencies working together toward common regional goals was 
laudable, landowners viewed the program as a threat to property 
rights.
    In Clay County, some 200 miles northwest of Rolla, 
officials now require a special use permit for agricultural 
production. In this area, urban sprawl has resulted in rezoning 
of agricultural land to residential, commercial and even 
industrial. As farming becomes an island in the sea of 
development, producers are being forced to obtain permits to 
continue earning a living.
    And as we speak, the Governor's Committee on Chip Mills is 
studying issues associated with timber management in Missouri. 
The Committee's work will not be completed until late this 
year, however, their discussion has included regulation of not 
only public land but privately-owned land as well.
    Madam Chairman and Congressman Emerson, we feel strongly 
about property rights, not because we share a common desire to 
abuse our natural resources, but because landowners are best-
suited to ensure productivity for our families and those of 
future generations. The good intentions of many public 
officials and environmentalists are nothing but a front for 
more regulation. The Ozarks are a natural wonder and we intend 
to keep it that way, but national or international designations 
involving more bureaucracy and regulation are not the answer. 
Rather, we should continue to focus on the proven combination 
of voluntary--and I stress voluntary--incentive-based programs, 
technical assistance and education.
    Thank you.
    Mrs. Chenoweth. Thank you, Mr. Kreisler. The Chair 
recognizes Mr. Carl Barnes for Missouri Forest Products 
Association and People for the USA, for testimony.
    [The prepared statement of Mr. Kreisler follows:]

        Statement of Leon Kreisler, Member, Missouri Farm Bureau

    Mr. Chairman and members of the Committee, I welcome you to 
Rolla and the great state of Missouri. My name is Leon Kreisler 
and I raise cattle in Salem, about 25 miles south of Rolla. I 
am representing Missouri Farm Bureau, the state's largest 
general farm organization. I am a past President of Dent County 
Farm Bureau and currently serve on Farm Bureau's Natural 
Resource and Environment Committee.
    It is indeed an honor to speak with you today about issues 
that strike at the very heart of landowners across the country. 
Whether we are discussing biosphere reserves, heritage 
corridors, rails-to-trails, local ordinances, and even timber 
management, the protection of property rights remains one of 
the nation's fundamental principals. Today, it is all too 
common for landowners' rights to be called into question by 
individuals, organizations and officials with a long agenda, 
big pocketbooks, little common sense and no land. For this 
reason, I commend Congressman Young and the cosponsors of H.R. 
883, the American Land Sovereignty Protection Act, for leading 
efforts to solidify protections that are currently in question.
    In 1997, Missouri Farm Bureau and several other groups 
learned of plans to nominate a portion of the Lower Ozarks as a 
Biosphere Reserve under the Man and the Biosphere Program. As 
more information became available, questions arose about the 
purpose, scope and implications of the nomination. Several 
public meetings were held in the Ozarks and speakers familiar 
with biosphere reserves in other regions were featured. It 
wasn't long before many landowners expressed a very legitimate 
concern about the Lower Ozarks nomination. Ultimately, Missouri 
Farm Bureau opposed the proposal by adopting the following 
policy, ``We are opposed to any effort in which the control or 
management of land or natural resources of the United States is 
relinquished or diminished in any way by treaty or other means 
to the United Nations or any other foreign body. This applies 
to activities such as bioreserves or others that have been 
proposed by local, state, Federal or international agencies or 
organizations.''
    Specifically, we are concerned the Man and the Biosphere 
Program operates without legislative authorization from 
Congress yet puts landowners in a position of abiding to 
international land use designations. And we remain concerned 
about the process in which sites are nominated--a process that 
must ensure input and consensus from all affected parties.
    Throughout this process, it was especially disturbing to 
note the level of distrust which landowners have for 
government, a ``devil behind every tree'' as some would say. 
But, despite the rhetoric spewed from environmental zealots, 
this distrust stems from past actions and policy. In Missouri, 
landowners' distrust of government relative to property rights 
can be traced to several initiatives.
    In 1989, Missouri landowners were dealt a severe blow in 
court as the Federal Government prevailed in a lawsuit that 
created a recreational trail on an abandoned rail line. 
Landowner rights were ignored as the courts determined that 
easements granted to the railroad did not revert back to the 
landowner upon cessation of rail service but could be 
transferred to the state for an entirely different purpose with 
no compensation to landowners. The Katy Trail has now been 
developed, however the wounds for many landowners will never 
heal. We are pleased that a class-action lawsuit is pending in 
which the affected landowners could receive some level of 
compensation for their loss.
    In 1990, Missourians soundly defeated a measure that would 
have altered production agriculture by severely restricting the 
rights of farmers and ranchers. Fortunately, most people saw 
the Natural Streams Act for what it was and it was defeated 
soundly. Despite this legacy, the environmental community soon 
found a suitable replacement in the form of a program entitled 
Coordinated Resource Management (CRM). While the stated purpose 
of agencies working together toward common regional goals was 
laudable, landowners viewed the program as a threat to property 
rights.
    In Clay County, some 200 miles northwest of Rolla, 
officials now require a ``Special Use'' permit for agricultural 
production. In this area, urban sprawl has resulted in rezoning 
of agricultural land to residential, commercial and even 
industrial. As farming becomes an island in the sea of 
development, producers are being forced to obtain permits to 
continue earning a living.
    And as we speak, the Governor's Committee on Chip Mills is 
studying issues associated with timber management in Missouri. 
The Committee's work will not be completed until late this 
year, however their discussion has included regulation of not 
only public land but privately-owned land as well.
    Mr. Chairman, members of the Committee, we feel strongly 
about property rights not because we share a common desire to 
abuse our natural resources but because landowners are best-
suited to ensure productivity for our families and those of 
future generations. The good intentions of many public 
officials and environmentalists are nothing but a front for 
more regulation. The Ozarks are a natural wonder and we intend 
to keep it that way, but national or international designations 
involving more bureaucracy and regulation are not the answer. 
Rather, we should continue to focus on the proven combination 
of voluntary, incentive-based programs, technical assistance 
and education.

STATEMENT OF CARL BARNES, MISSOURI FOREST PRODUCTS ASSOCIATION 
            AND PEOPLE FOR THE USA, POTOSI, MISSOURI

    Mr. Barnes. Madam Chairman, Ms. Emerson, three years ago, 
Missourians first became aware of efforts to plan and 
potentially control public and private property. The 
Coordinated Resource Management planning process that you have 
heard so much about today was a project led by our state 
Conservation Department that involved multiple state and 
Federal agencies and a number of non-governmental 
organizations. Central to CRM was a goal to implement a ``Ozark 
Man and the Biosphere Cooperative in the region.''
    The first draft CRM plan issued, again as we have all heard 
many times today, in January of 1996, caused me and many other 
citizens to try to understand the implications of the CRM 
initiative. In April 1996, many of us communicated our opinions 
to the Conservation Department in response to their request for 
public comment on the CRM plan.
    Before reviewing my conclusions regarding CRM and Man and 
the Biosphere type initiatives, let me address one other 
reaction to CRM. CRM led to a number of conspiracy theories. 
Conspiracy theories were fanned by the involvement first of 
Federal agencies and then even more by CRM's connections to the 
United Nations and various NGOs.
    I believe conspiracy theories distract us from the 
important issues, for the following reasons:

          First, conspiracy theories are unnecessary. We need 
        to guard our rights regardless of whether they are 
        being threatened by well-meaning but misguided people 
        or by a plot hatched by Al Gore colluding with the 
        United Nations.
          Second, conspiracy theories infer guilt on a broad 
        group of people. Yet we know, at least at the grass 
        roots level, that many well-meaning people unwittingly 
        support extreme environmentalism.
          And third, conspiracy theories give way too much 
        credit to the people accused of implementing them.
    The January 1996 issuance of the CRM plan led to 
substantial analysis and review on my part. I concluded that 
CRM and the Man and the Biosphere type programs suffer from the 
following deficiencies:

          First, concrete and quantifiable benefits are not 
        available. For example, the CRM draft plan included 
        only soft strategies to accomplish its goal including, 
        ``to research,'' ``become knowledgeable,'' ``foster,'' 
        ``work with,'' ``develop information,'' and so on. 
        Nowhere did it discuss specific benefits associated 
        with these strategies.
          Second, specific costs also were not addressed. Since 
        neither costs nor benefits are analyzed, there was no 
        cost justification for these programs.
          Third, these programs and the assumptions underlying 
        them were and are not based on sound, objective and 
        non-political science.
          Fourth, there is no evidence that programs like these 
        will work. These proposals involve massive efforts with 
        no confidence that they can actually achieve anything, 
        and they are to be implemented only on a large scale. 
        Proposals for these programs are very short on 
        specifics, either because the people behind them do not 
        know the specifics or do not want to disclose the 
        specifics. For either reason, the lack of specifics is 
        most troubling.
          Five, there is no analysis of the effect of these 
        programs on our overall economy. Based on the limited 
        specifics about how the programs would work, the 
        economic consequences could be devastating.
          Six, these programs are bad public policy. While 
        today's intent may be not to regulate property, these 
        programs put in place mechanisms that easily could lead 
        to increased government control of private and public 
        lands. The CRM, for example, listed farming and mining 
        as ``potential threats'' to outdoor recreation and 
        ecosystem health. The risk is too great that biosphere 
        reserve type programs, like programs such as the 
        Endangered Species Act and Clean Water Acts will escape 
        the control of their creators and take on an ever-
        growing life of their own.
          And seven, the selective inclusion of non-
        governmental organizations in the planning process 
        increases further skepticism regarding the objectives 
        and objectivity of these programs. The lack of 
        legislative involvement, either Congressional or state, 
        raises serious concerns about a lack of accountability 
        by elected officials. As we have heard, the New World 
        Mine project in Montana illustrated this when the U.N. 
        declared it a ``World Heritage Site in Danger,'' 
        thereby blocking the development of a mine. There are 
        real concerns about giving up our rights and 
        compromising our sovereignty.
    Man and the Biosphere, Global Biodiversity Treaty, 
Wildlands Projects and Coordinated Resource Management type 
programs reflect bad public policy, bad science and bad 
economics. They appear to be solutions looking for problems. I, 
therefore, support strongly H.R. 883.
    Thank you.
    [The prepared statement of Mr. Barnes follows:]
    [GRAPHIC] [TIFF OMITTED] T6693.208
    
    [GRAPHIC] [TIFF OMITTED] T6693.209
    
    [GRAPHIC] [TIFF OMITTED] T6693.210
    
    [GRAPHIC] [TIFF OMITTED] T6693.211
    
    [GRAPHIC] [TIFF OMITTED] T6693.212
    
    Mrs. Chenoweth. Thank you, Mr. Barnes. And I want to thank 
this panel for your outstanding testimony.
    The Chair recognizes Congressman Emerson for questions.
    Ms. Emerson. Thank you.
    Let me ask all of you, and I know, Mr. Barnes, you just 
indicated that you had never been given anything that is very 
concise, but I want to go back and ask the question I asked the 
last panel and that is have any of you ever received a clear, 
concise explanation about what a biosphere reserve is, from any 
Federal or state agency pushing this whole concept?
    Mr. Barnes. No.
    Mr. Kreisler. No.
    Mr. Skiles. No, nothing clear and concise.
    Mr. Lovett. No.
    Ms. Emerson. Well, I guess that ought to tell us something, 
they are trying to pull the wool over our eyes.
    For everybody, what is your perception or what is in your 
mind the difference between a United Nations Biosphere Reserve 
and a United States Biosphere Reserve?
    Mr. Skiles. From everything I have been able to read about 
the two, I cannot make any distinction, difference in them at 
all really, they seem to be one and the same. Frankly I see 
very little difference.
    Ms. Emerson. How about the rest of you all?
    Mr. Lovett. I think they meet the same goals and objectives 
and evidently they are working right along hand in hand. It 
seems to be one and the same.
    Ms. Emerson. Mr. Kreisler.
    Mr. Kreisler. They appear to be the same to me also.
    Mr. Barnes. I believe either we have not had enough 
information to tell that there is a difference or there is not 
a difference.
    Ms. Emerson. Okay, I appreciate that.
    And this can go to all of you as well, I think the first 
argument I got into on the House floor with one of my 
colleagues--actually it was one of my colleagues from 
California who thinks this idea about World Heritage Sites and 
Biosphere Reserves is the cat's meow, if you will, and thinks 
it is a great idea. And he, along with other people have said, 
you know, JoAnn, this is ridiculous, you are worried about 
nothing. The fact of the matter is that having this designation 
is going to increase tourism because of this international 
recognition and it is going to give you all more jobs.
    Now I would like to know what your comments are about that. 
Do you think that this designation will increase tourism 
because of some international recognition?
    Mr. Lovett. I would like to respond to that. I am not 
willing for your colleague to give up my job, which I make good 
wages and I have benefits, I can send my kids to school without 
a government grant or a loan--I do not want a part time $10,000 
a year job working in the tourist industry as a guide. You can 
tell him for my part, no, thank you.
    Ms. Emerson. Do you know how to meditate?
    [Laughter.]
    Mr. Lovett. I may have to learn.
    Ms. Emerson. I think so.
    Mr. Skiles. Well, it appears to me that if the people in 
California want more tourism, then the desire for that should 
come from the people themselves and they should initiate the 
programs to get more tourism into their area themselves. I am 
always a little skeptical when a representative of the 
government comes to me and says I know you did not invite me 
here, but I am here to help you.
    Ms. Emerson. You should be skeptical.
    [Laughter.]
    Mr. Skiles. But along that line, it occurs to me that just 
a few years ago, a couple or three or four years ago perhaps, 
the Missouri Department of Health issued a warning that the 
Current and Jack's Forks River on the day following the 
heaviest canoeing weekend, that those rivers were unsafe and 
unfit for human use due to human fecal coliform bacteria in 
those rivers. Now that was not put there because of farming 
activities or logging activities, that was there from tourism. 
So I think there is a real question how much tourism can the 
area withstand before----
    [Laughter.]
    Ms. Emerson. I am very familiar with the same findings. It 
is a shame that the national news media does not print those 
findings, I suppose.
    Mr. Kreisler.
    Mr. Kreisler. The only thing I might say is I do not see 
how they create areas with no human involvement, how that is 
going to increase tourism.
    Ms. Emerson. Mr. Barnes.
    Mr. Barnes. Well, I would like to see hard evidence of that 
somewhere else, but I also believe that it is offensive for 
someone in California or Washington to tell us what we should 
be doing with our space.
    Ms. Emerson. How true.
    [Applause.]
    Ms. Emerson. Madam Chairman, I am going to go off on the 
green light, thank you all.
    Mrs. Chenoweth. Thank you, Congressman Emerson.
    I wanted to ask Mr. Barnes, I understand that you have in 
your other life worked for Price Waterhouse.
    Mr. Barnes. That is correct.
    Mrs. Chenoweth. Well, then you can probably give me an 
opinion on this. What would be the impact on the private 
citizen for misspending government funds? For instance, if they 
were given funds to put down on a home, like a veteran or 
through Farmers Home Administration or whatever, they took the 
money and they spent it for something else, what would be the 
legal impact?
    Mr. Barnes. I am not a lawyer, but I think the consequences 
could be very drastic in terms of that person being prosecuted 
for that misuse.
    Mrs. Chenoweth. Well, is it a stretch of the imagination to 
wonder how agents of the Federal Government who have never had 
money appropriated for this particular program are authorizing 
legislation for a particular program such as this or the 
American Heritage Rivers initiative, should not as individuals, 
they also need to stand accountable for the way they spend the 
taxpayers' money?
    Mr. Barnes. I would certainly think so. Appropriations 
carry with them the purpose for which the funds can be spent. 
And I think in most cases, they are relatively specific about 
that.
    Mrs. Chenoweth. Very interesting. I think it is something 
that we need to carefully consider, not only in the political 
area, but the legal area.
    I also find it interesting that the New World Mine, private 
property seizing, the government viewed it--the Canadian 
leasehold interests, the government viewed it as a taking and 
therefore, reimbursed the Canadian leasehold interests $65 
million. Do you feel that establishes a precedent here in 
America--another precedent for the government compensating 
under a taking situation?
    Mr. Barnes. Well, I think what happened with regard to that 
mine, they set a number of bad precedents and I am not really 
an expert on the takings clause, but I think it was a horrible 
misuse of Federal power.
    Mrs. Chenoweth. It was a horrible misuse of international 
power that was assumed and the taxpayers had to pay for it. I 
think that we all agree that we would far rather have our land 
to live on and work on and sustain our livelihood from.
    I thank you, Mr. Barnes, for your fine answers and 
thoughtful answers.
    Dale Lovett, you know my friend Jerry Clem from Lewiston?
    Mr. Lovett. Very well.
    Mrs. Chenoweth. I really appreciate the good work that your 
organization does.
    Mr. Lovett. Thank you.
    Mrs. Chenoweth. It has been quite outstanding and quite 
effective in not only representing your membership, but 
effective on public policy, especially with regard to these 
land use issues, and I just encourage you to keep up the good 
work.
    Mr. Lovett. You can count on it.
    Mrs. Chenoweth. I want to ask you how will the Biosphere 
Reserve designations affect your job as a papermaker and also 
continuing the line of questioning that I pursued with the last 
panel, how will it affect the future of the forest and the 
forest health.
    Mr. Lovett. Well, Madam Chairman, I just see it as another 
nail in the coffin for our industry. We have lost thousands of 
jobs in the last few years due to government regulation 
specifically, as you are aware of, in the Pacific Northwest 
area. These designations are just even more pressure on our 
industry, on our farmers and on our miners. The people who have 
a vested interest in the property and do use it wisely, they 
are just actually restricting us from being the true 
environmentalists, is the way I see it.
    It is ironic that they think the environmental groups like 
Sierra Club paint themselves a picture that they are the true 
caretakers of the environment. Well, I do not know of any 
projects that they have that are using the labor that we are 
involved in, putting the trees back into the land, making sure 
we do not have erosion problems and that kind of thing. I could 
go on and on, but I just see it having a devastating effect on 
our industry for lack of fiber supply.
    Mrs. Chenoweth. Very interesting, your answer. I find it 
fascinating that the paperworkers who work in the mill and also 
are loggers will find themselves on the weekend going back into 
the forests for recreation, they love it and their love of the 
land is patently obvious.
    Mr. Kreisler, you stated that today it is all too common 
for landowners' rights to be called into question by 
individuals, organizations, officials ``with a long agenda, big 
pocketbooks, little common sense and no land.'' I agree with 
you very much, but I note that the enemies of private property 
have really perverted our language and have begun to redefine 
those commonly held values in their new definitions.
    But as John Adams said, it is very interesting, but he said 
that this government, this form of government will work only if 
we have a moral people, and only if we have a framework that 
can protect and enforce the right of private ownership.
    Tell me how generally you believe this particular program 
would affect farm production and our ability to compete in the 
world market under NAFTA/GATT and the WPO.
    Mr. Kreisler. I do not know if I understand your question 
completely, but if you are talking about the biosphere reserve 
occurring in this area, even though I might not be in this no 
human area, what it will do, it will drive out a lot of 
producers. It may not be me, but it will make it much harder 
for my suppliers to stay in business because they have lost 
customers, not only machinery dealers, auction places. Then 
that would make me go farther for services and make my expenses 
go up. And the world trade is where most of the market is and 
that would drive out low cost producers in an area like 
Missouri, and therefore, I think it would be harder for 
American cattlemen to compete in the world market.
    Mrs. Chenoweth. Mr. Skiles, would you like to add to that 
comment?
    Mr. Skiles. Yes, I would. Just in the Lower Ozark region 
alone, in which this biosphere reserve was proposed, this area 
produces over one million tons of hay a year, there are nearly 
a million head of cattle in that area. So this area is not like 
it is devoid of agriculture right now, it is a major 
agricultural area as well.
    There are a couple of main points about this biosphere 
reserve designation though and the literature that we have read 
associated with that, that I want to comment on. One of those 
was the fact that in the information about biosphere reserves 
and in the Coordinated Resource Management plan, we see fescue 
being related to or being alluded to as an exotic, alien or 
invasive species in the same sentence with lus thistle. Now 
Missouri is second only to Texas in the number of cows in this 
state and that is pretty significant. The beef industry in 
Missouri is a $6 billion a year industry. There seemed to be a 
concern through the biosphere reserve literature and in the CRM 
plan that fescue needed to be gotten rid of and I can assure 
you that the economy in Missouri will suffer drastically if 
something happens to fescue, that it starts dying tomorrow.
    The other thing in this thing that really concerned us was 
that throughout the biosphere reserve literature, they mention 
the reintroduction of threatened or endangered species. And I 
know I do not have to remind you the lands that these 
introduced species will take up residence on would most likely 
then fall under additional restrictive regulation. And you 
know, if these things happen, then basically people are going 
to have to throw their arms up and forget it.
    Mrs. Chenoweth. I thank you very much for your testimony 
and your comments. The Endangered Species Act is something that 
we must deal with; however, with this White House, we know that 
if we send in a new endangered species reform act, that it 
would be promptly vetoed.
    I have learned since I have been here in Missouri, that you 
are having to work around the gnat and a bat and various other 
things. I find that down in the southeastern states they have 
the red-cockaded woodpecker that is now, because of its 
breeding habitat, it is now altering take off and landing 
patterns from various Air Force bases. And I find it hard to 
understand that a bird that beats its head all day long on a 
log for food can be upset with a plane flying overhead.
    [Laughter.]
    Mrs. Chenoweth. But that is the mentality that we have to 
deal with.
    Ms. Emerson. Madam Chairman, would you yield just for a 
moment?
    Mrs. Chenoweth. I will yield.
    Ms. Emerson. I would like you to know that we also have a 
problem with two black bears. Since we are talking about 
humorous stories, I might add that in trying to four-lane 
highway 60 across the state, we ran into a big problem with two 
black bears and we needed to--in building the highway, in 
constructing and designing it, we had to accommodate those two 
black bears, so that they might be able to mate in an upright 
position.
    And I apologize, you all in the audience who might think 
that that is something that I should not mention in public, but 
the fact that we would be paying--you know, the taxpayers would 
be asked to pay $15 more million than you would have had to 
otherwise, so that these black bears could walk up right under 
a road, I think is an outrageous invasion of our privacy, and 
stealing taxpayer money from us. But this is the mentality of 
those with whom we deal on a daily basis.
    Mrs. Chenoweth. It is a crazy mentality, and thanks for 
adding that to the record.
    [Laughter.]
    Mrs. Chenoweth. I enjoyed it very much. It is really 
unbelievable.
    I would like to thank this panel very much for your 
valuable testimony and for your work on this issue and for 
taking time off on this beautiful Saturday to join us and 
contribute to the record.
    I will now excuse the panel and I would like to call the 
following seven people, who have signed up here to speak at our 
open mike session for one minute. We will accept testimony from 
them for one minute. So if the following seven people could 
please come up: Joe Cooke, Bill Jud, David Bright, Ray Hicks, 
Marge Welch, Frank Floyd and Junior Williams.
    [Pause.]
    Mrs. Chenoweth. The hearing will come to order, please. And 
I wonder if the next witnesses would raise your hand to the 
square.
    [Witnesses sworn.]
    Mrs. Chenoweth. Thank you and you will be welcomed for 
testimony for one minute. If you have written testimony and you 
would like to submit it to the record, you have 10 working days 
to do so.
    And now we will hear from Joe Cooke.

                     STATEMENT OF JOE COOKE

    Mr. Cooke. Thank you very much, I appreciate this privilege 
to be able to speak.
    This is more or less extemporaneous because I just wrote it 
down when I came in. But there are some points that I think 
ought to be made because I do not think people are aware of it.
    There was an individual who was running for the office of 
President, he said he wanted to reinvent government and boy, he 
has done it. And the point we miss is this--we ask the question 
what happened to Congress, he told Congress that he did not 
care whether they approved the biodiversity treaty--this was Al 
Gore, whose cohort on the approval of the Kyoto Protocol said 
they did not need the Senate. This is where government got 
reinvented. They would run it through the agencies and through 
the NGOs and Congress, as far as I am concerned, could just go, 
they do not need them except maybe to appropriate money.
    And the people are still appalled at why Congress has not 
done anything. I know it is an embarrassing thing and I do not 
mean to embarrass you all, because we appreciate you being 
here, we feel greatly honored that you are here. Now I will 
look at my notes.
    [Laughter.]
    Mr. Cooke. Basically, they have shifted the power. The 
power was to be divided into legislative, executive and 
judicial. And all they have done now is run it through the 
executive.
    I would like to make one other point, and it has been made 
by this Committee. A lot of times we overlook the greatest 
power that we have. It is in the county courthouses, it is in 
the land use committees, it is in the people. And I have been 
preaching this for a long time. The people hold the power, the 
people hold the land, the people pay the taxes. And no foreign 
international group has the right to come into this country and 
tell us what to do in the United States of America. As long as 
that red, white and blue flag flies, we are safe, but if we 
ever have to pull it down for the blue and white rag of the 
U.N.; no. They want to send our people to Kosovo; no. This is 
it, pure and simple.
    I might get wound up. I think I have said enough. But it is 
in the county courthouses, it is in the county government.
    I talked to a man yesterday and I told him, I said you 
know, you are the most powerful man in the United States in 
Oregon County. I was talking to the Sheriff. I appreciate your 
bill.
    I think I will yield, I think I have spent more than a 
minute.
    [The prepared statement of Mr. Cooke follows:]

                Statement of Joe Cooke, Alton, Missouri

    Government is power! Power is vital for the control and 
continuous exercise of authority over the persons, places, and 
things within certain established boundaries. How that power is 
controlled is the difference between freedom and bondage. Our 
great nation was founded on the basis that life, liberty, and 
prosperity are God-given rights, and government, by the consent 
of the governed, was to protect these unalienable rights. Out 
of these principles was born the oldest living Constitution in 
the world resulting in the oldest and most successful 
government and prosperous nation on earth. Who would want, and 
why would anyone want, to ``reinvent'' our system of 
government? Enemies! Wouldn't it be necessary to change or 
amend our Constitution?
    Today our present administration provides the answers. The 
pieces for reinvention are being put into place without the 
consent of Congress or the people. Our entire governmental 
process is now being run and controlled solely by the 
administrative branch of the United States Government by the 
use of executive orders, presidential directives, mandates, 
regulations, and by and through agencies and special interest 
groups (particularly environmental). These nongovernmental 
groups, NGO's, are not only financed by our tax dollars but 
they also enjoy diplomatic immunity via executive order.
    Treaties, which have a profound effect upon the lives and 
sovereignty of this nation, are blatently carried out without 
proper ratification of the United States Senate--specifically 
Biosphere Reserves, World Heritage sites, and RAMSAR 
designations under United Nations Educational, Scientific, and 
Cultural Organization (UNESCO). Americans fought and died for 
this land. Let not their blood and sacrifices be cursed by 
allowing any foreign power jurisdiction over United States' 
soil.
    It is imperative that H.R. 883 and S. 510 be passed with a 
large enough majority to override a veto. America is the hope 
of the world--the single greatest hope to save us from the grip 
and domination of multi-national corporations, international 
bankers, and globalist elite. Some believe it is too late to be 
saved from the socialist new world order. Christians know 
otherwise. Pagans can always be defeated when a nation turns to 
God.

    Mrs. Chenoweth. Thank you, Mr. Cook and you are absolutely 
right.
    [Applause.]
    Mrs. Chenoweth. I would like to urge all of you from the 
various counties to realize that your county land use plans can 
have as much or more power than the Federal plans but you must 
get organized on that basis. And if you need help, I know of a 
few people who can come in and help you organize and put 
together a very effective county plan so you can maintain your 
counties in the kind of land use that you know historically 
works not only for the production of the land, but also for the 
welfare of the people.
    And now, Bill Jud. You will notice that your lights will be 
signaling you, Bill. Thank you.

                     STATEMENT OF BILL JUD

    Mr. Jud. I am the Vice President of the Annapolis, Missouri 
Chapter of People for the USA and I would just like to quote 
out of Article II, section 1 of the U.S. Constitution. It says, 
talking about the President, ``Before he enters on the 
execution of his office, he shall take the following oath: I do 
solemnly swear that I will faithfully execute the office of 
President of the United States and will, to the best of my 
ability, preserve, protect and defend the Constitution of the 
United States.''
    I maintain that none of this would be necessary if Clinton, 
Gore, et al actually honored their oath of office. They do not, 
they daily dishonor their oath of office and that is what got 
us into this problem.
    When this biosphere reserve thing started, my contribution 
to the defense was that I wrote a number of newspaper articles, 
had them published all over southern Missouri, and what I did 
was basically get a hold of the Wildlands Project, get a hold 
of Agenda 21, the Convention on Biological Diversity, the 
President's Council on Sustainable Development, and all of this 
material and simply presented the material in these documents 
to the people in southern Missouri. And of course, I caught a 
lot of flack over this because people were saying geez, black 
helicopters, this guy is a radical, we have got to watch out 
for him.
    Well, none of this was my ideas, what I was doing was 
taking the material presented by the United Nations, people 
like the Park Service, people like the Sierra Club, Audubon, et 
al, and simply made this available to the public. If the people 
thought that these were radical and unAmerican, 
unconstitutional ideas, I agreed with them, but they were not 
my ideas, they were the ideas of the people who were proposing 
these things.
    Mrs. Chenoweth. Well said, well said.
    Mr. Jud. Thank you.
    Mrs. Chenoweth. Thank you very much, Mr. Jud.
    [Applause.]
    Mrs. Chenoweth. The Chair recognizes David Bright.

                   STATEMENT OF DAVID BRIGHT

    Mr. Bright. My name is David Bright and I am from Newton 
County, Arkansas and I just really want to thank you for 
coming. I was able to testify on American River Heritage 
initiative that you chaired in Washington and this one, H.R. 
883 is even closer to my heart. I live half a mile from what 
would have been a core area on this biosphere and I grew up in 
a community that is totally gone now because of the Buffalo 
National River. They condemned land and moved my neighbors out.
    But I want to thank you for being here and I want to thank 
Representative Emerson for having you here.
    One good thing that come out of this, I knew most of the 
people that testified here. I was one of those people that 
really thought Washington was looking out for me and I did not 
pay much attention to what they were doing before I found out 
about a biosphere, which I did not think could happen in 
America. And when I found out it not only could but was fixing 
to happen to me, I talked to a lot of communities around here 
and met a lot of these people. And I know some Karen and Bud 
Fallons and some Burt Smiths because of it and it has been a 
real experience for me.
    And of course we are always talking to the same group, you 
are here because you know that. And those that are home do not 
know it and you cannot seem to tell them about it. But it is 
worth the effort to try, we need to be involved in this 
government if it is going to be our government.
    Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you very much.
    [Applause.]
    Mrs. Chenoweth. I just wanted you to know that you 
mentioned two people who are very near and dear to my heart, 
they are real great people.
    Marge Welch, you are recognized for your testimony.

                    STATEMENT OF MARGE WELCH

    Ms. Welch. Madam Chairman, Representative Emerson, I am 
Marge Welch, field director for People for the USA. I want to 
thank you all for bringing this official Congressional hearing 
to Missouri to hear testimony from the people.
    I speak today on behalf of our 26,000 national membership 
along with our 51 affiliate groups, combined membership of 
250,000 members. We stand in strong support of H.R. 883. It 
will help protect the multiple use principles of the public 
lands and private property rights.
    We deeply appreciate Congressman Young's introduction of 
the bill and your cosponsorship. Thank you very much. We are 
committed toward working toward getting this bill on through 
the Senate. I think we will probably need a veto proof 
majority, but we will be working on that. We have to return 
oversight of land management decisions to you, the U.S. 
Congress, our elected officials.
    We have the greatest form of government in the world, our 
forefathers paid dearly for that--our representative form of 
democracy. These U.N. designations place that precious 
principle in jeopardy. H.R. 883 will help protect that and put 
agencies back within their Constitutional boundaries. There are 
no Constitutional boundaries for the U.N. committee. They are 
not even mentioned in our Constitution.
    We will keep our watch also on the back door implementation 
that could be possible through agency rules and regulations and 
we will bring those to you also at another time.
    Thank you very much.
    [Applause.]
    Mrs. Chenoweth. Thank you, Marge.
    Mr. Ray Hicks.

                     STATEMENT OF RAY HICKS

    Mr. Hicks. Madam Chairman and Congressman Emerson, it is a 
pleasure to have you here in Rolla, it really is.
    I am a landowner in Phelps County, I own about two-thirds 
of an acre of ground, I like to garden. And I also work for a 
local radio station here in a number of different contexts.
    What bothers me is not so much the effect that something 
like we have been talking about here might have on my two-
thirds of an acre of ground, but just what is happening in our 
state, what is happening across the country.
    I think Mr. Barnes a little while ago made reference to 
conspiracy theories. I have told people about nothing more than 
this biosphere reserve idea as it has been put forth, and get 
accused of being a conspiracy theorist. So I guess it depends 
on how you define that. I think Mr. Lovett and Mr. Skiles hit 
upon something really crucial in all this, is that these 
entities that are trying to put this stuff forward, when they 
hear no response, they take it as a positive response. And that 
is very dangerous. I do not know why the mainstream media does 
not pay more attention to things like heritage sites, biosphere 
reserves. I will tell people that I see that, you know, it is 
not the people that own the property that have the say over 
their property in a situation like this, it is some foreign 
body, and they find it hard to believe.
    I think it is incumbent on everybody here to tell your 
relatives, tell your friends, your next door neighbors, the 
people you work with about this stuff that is going on. If the 
mainstream media will not spread the word, let us spread the 
word, we have got to get it out.
    Thank you very much.
    [Applause.]
    Mrs. Chenoweth. Thank you, Mr. Hicks.
    Mr. Frank. And I wonder if before you start your testimony, 
you could state your full name for the record, it will make it 
easier on the court reporter.

                    STATEMENT OF FRANK FLOYD

    Mr. Floyd. It is Frank Floyd. I would like to thank you, 
Madam Chairman and Congressman Emerson, for having this 
hearing.
    Madam Chairman, I have often wanted to thank you for your 
work on property rights and other Constitution rights, trying 
to protect them. I never ever thought of having a chance to 
thank you personally, but I am going to take this chance and 
thank you. Thank you.
    A lot of people are saying what they are. Well, I am a 
common person, the kind you just call common as dirt. I always 
said if the government would leave me alone, I would sure leave 
it alone.
    [Laughter.]
    Mr. Floyd. But when this biosphere came in, my brother came 
and told me about it and I thought that was completely crazy, 
but he finally talked me into going to a meeting at Berryville, 
and when I got through I was convinced and I decided the 
government was not going to leave me alone.
    Since we do not have much time here, I am going to skip to 
some things that happened today, just one thing. The 
feasibility studies that they have to have to get these 
biospheres in, I noticed the ones they were giving in Missouri 
seemed to be identical to the one they had in Arkansas for our 
Ozark Highlands Man and the Biosphere program. And I just 
wonder if they are rubber stamping these or really doing 
several different studies.
    Mrs. Chenoweth. Is that a question you are posing for the 
Committee?
    Mr. Floyd.  Well, I wondered.
    Mrs. Chenoweth. They are; yes, these programs are--no part 
of the country is being left untouched.
    Mr. Floyd. Well, I would like, since my time has about run, 
I would just like to make some kind of statement that of course 
I support H.R. 883 and I supported it last time the same bill 
came up, and I appreciate your support of it.
    And I would like to say this biosphere, the Biosphere 
program considering how government programs tend to be is 
pretty scary, because you know, they are kind of like the 
creeping crud, they always get bigger and nastier.
    [Laughter and applause.]
    Mr. Floyd. I have got some more to say, but my red light is 
on, so I need to thank you.
    Mrs. Chenoweth. I wish I did not have that light, I would 
love to hear more that you would say. Thank you, Mr. Floyd.
    Mr. Williams, would you state your entire name for the 
record, in the mic.

                  STATEMENT OF JUNIOR WILLIAMS

    Mr. Williams. I am Junior Williams from Alton, Missouri. I 
am Vice President of Ozark Hills and Rivers Landowners 
Association and I like the looks of this Committee a lot better 
than the last Congressional Committee I testified before. It 
was Mr. Seiberling from Ohio was chairing it and it was about 
the wilderness in Oregon County and we even brought to their 
attention that it did not qualify under their own rules and he 
said we will make it qualify and he was not very nice about the 
way he said it. And they did make it qualify, we have got a 
wilderness area even though we held it up for 10 years.
    What I would like to say is these so-called 
environmentalists who want to manage our land, they are not 
really environmentalists, they do not know how to manage the 
land and if they did, they would not want to set it aside. 
Management is more than just setting it aside and leaving it 
alone, it is using it wisely, and that is what they fail to 
see. They want to set it aside. Eleven Point River is a good 
example, Irish Wilderness is a good example. There is nothing 
no good for anybody.
    These agencies, U.S. Forest Service, and all these people 
appear to be any more just the tools of environmental groups, 
they are no longer servant to the people. And that is a sad 
situation.
    These environmentalists, I do not believe will ever rest 
until they rule every inch of land in the United States under 
their control in one manner or the other. They will use any 
excuse that they can to get it.
    Recently I was just elected to a local school board and 
this stuff is getting into our schools with our tax dollars and 
they are starting to teach our kids this kind of stuff that is 
unscientific and unbased other than just by their emotional 
hype and their own personal viewpoints. We hope to start 
turning some of that back.
    Thank you.
    [Applause.]
    Mrs. Chenoweth. Thank you, Mr. Williams.
    Mr. Alford, would you please state your full name for the 
record.

                   STATEMENT OF SCOTT ALFORD

    Mr. Alford. My name is Scott Alford. I live here in Phelps 
County. My family, we farm out south of town. I am a 
transplant. We came into Missouri because you do have a 
beautiful state here--and we have it too. And, we are on the 
farm because we love the country, and there is nobody that is 
going to take better care of the country and of the 
environment, than farmers who love it.
    With that in mind a couple of statements and then a 
question I hope that I can pose to you. First off, this is not 
an issue of economics. I appreciate the economic concerns that 
a lot of people have had here: the cattlemen, the forestry 
industry, the mining industry . . . This is not a concern just 
of economics, it is also a concern about freedom. Our 
Constitution guarantees us the right to own land and to be 
justly compensated for it if there is a public need--not a U.N. 
need, but a public need--to have that land taken away. And in 
the 10th Amendment as well, we also talk about that any rights 
that are not specifically granted to the Federal Government are 
reserved for the states and the people. And as Marge Welch said 
just a few minutes ago, it does not say anything about those 
rights going or going to the Federal Government--or to the U.N. 
especially--it says to the people. That is a Constitutional 
right.
    My question by the way . . . Several people in the audience 
asked this, and that is why I came down: this bill, H.R. 883, 
is it going to indeed take away the current designations of 
World Heritage Sites and other U.N. sites, Biosphere Reserves . 
. . that are currently out there? Is that going to take those 
away?
    Mrs. Chenoweth. They would be taken away if Congress did 
not approve of them within two years.
    Mr. Alford. Then it has my full support. Thank you very 
much.
    Mrs. Chenoweth. You are welcome.
    [Applause.]
    Mrs. Chenoweth. You know, I sat here and listened to the 
testimony with absolute amazement and great respect. The fact 
is the testimony was given in five minutes and sometimes in one 
minute segments and there was more common sense and more wisdom 
in what I heard today than quite often I hear inside the 
beltway.
    [Applause.]
    Mrs. Chenoweth. You know, the politicians like to go on and 
on and on, they are quite inebriated with the exuberance of 
their own verbosity.
    [Laughter.]
    Mrs. Chenoweth. And that is why we have a lot of the 
trouble that we have. But I would like to encourage not only 
those of you who testified and demonstrate such wisdom and such 
common sense and such vision for the future and such love for 
our American way of live, urge you to not think your tour of 
duty is over, but consider running for public office, consider 
being part of those who will help bring what your future in 
this state will be.
    I want to again thank Congressman Emerson for inviting the 
Committee in here and thank her staff for all of the good work 
that has been done in preparation for this very valuable 
hearing.
    I do want to remind the witnesses that the record will be 
open for 10 working days should you wish to add to your 
testimony and the exhibits or any necessary corrections.
    And so with that, I want to again thank you very much. Oh, 
Kurt reminds me that you need to send any additions to Debbie 
Callis at 1324 Longworth Building HOB, Washington, DC 20515.
    And if there is no further business, this hearing is 
adjourned.
    [H.R. 883 and backup material follows:]
    [April 27, 1999 letter from Sierra Club follows:]
    [Whereupon, at 1:20 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]
    [GRAPHIC] [TIFF OMITTED] T6693.213
    
    [GRAPHIC] [TIFF OMITTED] T6693.214
    
    [GRAPHIC] [TIFF OMITTED] T6693.215
    
    [GRAPHIC] [TIFF OMITTED] T6693.216
    
    [GRAPHIC] [TIFF OMITTED] T6693.217
    
    [GRAPHIC] [TIFF OMITTED] T6693.218
    
    [GRAPHIC] [TIFF OMITTED] T6693.219
    
    [GRAPHIC] [TIFF OMITTED] T6693.220
    
    [GRAPHIC] [TIFF OMITTED] T6693.221
    
    [GRAPHIC] [TIFF OMITTED] T6693.222
    
    [GRAPHIC] [TIFF OMITTED] T6693.223
    
    [GRAPHIC] [TIFF OMITTED] T6693.224
    
    [GRAPHIC] [TIFF OMITTED] T6693.225
    
    [GRAPHIC] [TIFF OMITTED] T6693.226
    
    [GRAPHIC] [TIFF OMITTED] T6693.227
    
    [GRAPHIC] [TIFF OMITTED] T6693.228
    
    [GRAPHIC] [TIFF OMITTED] T6693.229
    
    [GRAPHIC] [TIFF OMITTED] T6693.230
    
    [GRAPHIC] [TIFF OMITTED] T6693.231
    
    [GRAPHIC] [TIFF OMITTED] T6693.232
    
    [GRAPHIC] [TIFF OMITTED] T6693.233
    
    [GRAPHIC] [TIFF OMITTED] T6693.234
    
    [GRAPHIC] [TIFF OMITTED] T6693.235
    
    [GRAPHIC] [TIFF OMITTED] T6693.236
    
    [GRAPHIC] [TIFF OMITTED] T6693.237
    
    [GRAPHIC] [TIFF OMITTED] T6693.238
    
    [GRAPHIC] [TIFF OMITTED] T6693.239
    
    [GRAPHIC] [TIFF OMITTED] T6693.240
    
    [GRAPHIC] [TIFF OMITTED] T6693.241
    
    [GRAPHIC] [TIFF OMITTED] T6693.242
    
    [GRAPHIC] [TIFF OMITTED] T6693.243
    
    [GRAPHIC] [TIFF OMITTED] T6693.244
    
    [GRAPHIC] [TIFF OMITTED] T6693.245
    
    [GRAPHIC] [TIFF OMITTED] T6693.246
    
    [GRAPHIC] [TIFF OMITTED] T6693.247
    
    [GRAPHIC] [TIFF OMITTED] T6693.248
    
    [GRAPHIC] [TIFF OMITTED] T6693.249
    
    [GRAPHIC] [TIFF OMITTED] T6693.250
    
    [GRAPHIC] [TIFF OMITTED] T6693.251
    
    [GRAPHIC] [TIFF OMITTED] T6693.252
    
    [GRAPHIC] [TIFF OMITTED] T6693.253
    
    [GRAPHIC] [TIFF OMITTED] T6693.254
    
    [GRAPHIC] [TIFF OMITTED] T6693.255
    
    [GRAPHIC] [TIFF OMITTED] T6693.256
    
    [GRAPHIC] [TIFF OMITTED] T6693.257
    
    [GRAPHIC] [TIFF OMITTED] T6693.258
    
    [GRAPHIC] [TIFF OMITTED] T6693.259
    
    [GRAPHIC] [TIFF OMITTED] T6693.260
    
    [GRAPHIC] [TIFF OMITTED] T6693.261
    
    [GRAPHIC] [TIFF OMITTED] T6693.262
    
    [GRAPHIC] [TIFF OMITTED] T6693.263
    
    [GRAPHIC] [TIFF OMITTED] T6693.264
    
    [GRAPHIC] [TIFF OMITTED] T6693.265
    
    [GRAPHIC] [TIFF OMITTED] T6693.266
    
    [GRAPHIC] [TIFF OMITTED] T6693.267
    

</pre></body></html>
